<html>
<title> - WORKING WITH COMMUNITIES TO DISRUPT TERROR PLOTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
            WORKING WITH COMMUNITIES TO DISRUPT TERROR PLOTS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2010

                               __________

                           Serial No. 111-58

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
57-457                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Ann Kirkpatrick, Arizona             Paul C. Broun, Georgia
Al Green, Texas                      Mark E. Souder, Indiana
James A. Himes, Connecticut          Peter T. King, New York (Ex 
Vacancy                                  Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Michael Blinde, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Meghann Peterlin, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4

                               WITNESSES
                                Panel I

Ms. Margo Schlanger, Officer for Civil Rights and Civil 
  Liberties, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Brett Hovington, Supervisory Special Agent, Head of Community 
  Relations Unit, Federal Bureau of Investigation:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Leroy Baca, Sheriff, Los Angeles County Sheriff's Department:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Omar Alomari, Community Engagement Officer, Ohio Department 
  of Safety, Homeland Security Division:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Panel II

Mr. Mohamed Elibiary, Co-founder, The Freedom and Justice 
  Foundation:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48
Ms. Deborah A. Ramirez, Executive Director, Partnering for 
  Prevention and Community Safety Initiative, Northeastern 
  University School of Law:
  Oral Statement.................................................    53
  Prepared Statement.............................................    54
Mr. Clark Kent Ervin, Director, Aspen Institute Homeland Security 
  Program:
  Oral Statement.................................................    62
  Prepared Statement.............................................    64


            WORKING WITH COMMUNITIES TO DISRUPT TERROR PLOTS

                              ----------                              


                       Wednesday, March 17, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Thompson, Carney, Clarke, 
Richardson, Green, Himes, McCaul, Dent, and Souder.
    Ms. Harman [presiding]. Good morning. The subcommittee 
hearing will come to order.
    We are meeting today to hear how Government, law 
enforcement officials, community engagement advocates, and 
academic experts are working with communities to counter 
violent extremism. Today's hearing is entitled ``Working with 
Communities to Disrupt Terror Plots.''
    This subcommittee has been probing ways to prevent or 
disrupt terror plots in the United States. Doing so requires 
accurate, actionable, and timely intelligence. The best 
intelligence, the best warning we may have about individuals 
plotting an attack on our country, comes from people close to 
them.
    While there have been recent notable cases where families 
and neighbors have provided important information, the Federal, 
State, and local governments have to do more to build 
relationships based on mutual trust and critical communities.
    There are more and more examples of homegrown violent 
extremism. Think Fort Dix or Fort Hood, the Somali youths from 
Minnesota, Sharif Mobley, the U.S. citizen who tried to escape 
custody in Yemen, or the recent arrest of ``Jihad Jane'' which 
we learned about last week.
    I have been warning for years that the next terror attack 
on the United States could be carried out by a tiny blond-
haired, blue-eyed American female--no, not me. So the question 
we are considering today is how to build better relationships.
    There has been some good news. Last fall it was a Muslim 
American advocacy group who alerted the FBI to five young men 
from northern Virginia who had traveled to Pakistan with the 
intention of fighting alongside the Taliban. It can't have been 
easy for the families to turn their sons in, but they did.
    Don't forget that the first real inkling we had about the 
would-be Detroit bomber, Umar Farouk Abdulmutallab, came from 
his father.
    We will hear from one of our witnesses that some in the 
communities believe that the Government doesn't really want a 
respectful relationship. It just wants those communities to 
inform the FBI on their friends and neighbors. He will tell us 
they feel like a suspect pool rather than trusted partners. 
That is a perception that needs to be addressed, and I look 
forward to hearing the views of our witness from the FBI on 
that.
    Local cops may be in a better position than the Feds to 
forge real ties based on respect and mutual trust, and they 
also are far more familiar with their communities and will 
notice something strange.
    After all, it was the Torrance, California police 
department in my own district that figured out that a string of 
gas station robberies was connected to a terror plot to target 
military installations and religious sites just a few years 
ago. Those folks are serving long sentences in jail.
    From what I understand, there is no set of best practices 
that tell homeland security or law enforcement officials how 
they should and can engage with communities. A one-size-fits-
all approach may not work. We may need to tailor our efforts to 
the communities involved and the missions of the agencies 
reaching out to them.
    To that end, my sheriff, L.A. County sheriff, Leroy Baca, 
will testify today. He started the first Muslim American 
Homeland Security Congress to give the community a chance to 
discuss their concerns with law enforcement and to improve 
cultural training for sheriff department staff. I would like to 
know whether any elements of that program could be migrated to 
the Federal and State level.
    On the State level, there is an effort in Ohio to reach out 
to Muslim American women that we need to hear about.
    At the Federal level, DHS is hosting round tables and 
discussions with communities across the country. It conducts 
conference calls between Federal leaders and affected 
communities after situations like the Fort Hood shooting and 
the Detroit airliner bomber attempt.
    Today's hearing follows one held in December to delve into 
how people who seem like anyone else--those who are capable of 
interacting socially with friends and colleagues and in many 
ways are athletes and scholars--volunteer or can be recruited 
to violent extremism.
    We don't understand that well enough, and until we do, we 
won't have the best strategies to keep our country and our 
communities safe.
    Let me conclude by observing that there has been a lot of 
discussion about how best to combat terrorism. The loudest 
voices say we have to treat it as a war. We all want the 
country to be safe. But in my view, the bad guys win if we 
shred our Constitution in the process.
    Welcome to you all, and it is now my pleasure to yield 5 
minutes for opening remarks to the Ranking Member, Mr. McCaul 
of Texas.
    Mr. McCaul. Thank you, Madam Chair.
    Examples like Hasan, Zazi, and ``Jihad Jane,'' which no one 
should ever confuse with you, Madam Chair, showed us homegrown 
terrorism is, unfortunately, all too real in the United States.
    Despite the efforts of our Federal, State, and local 
authorities to reach out to religious and civic leaders in the 
Muslim community, we do not seem to be making the headway 
necessary to counter radicalization.
    In fact, as the recent case of Zazi illustrates, working 
with the local imam actually backfired on law enforcement when 
he alerted Zazi that he was under Government surveillance.
    The threat of al-Qaeda is not just emanating from a 
training camp in Afghanistan anymore but from within our own 
communities and hometowns across America.
    Since September 11 we have come to understand that securing 
the homeland requires law enforcement involvement at every 
level of government and that every American has a role and 
responsibility to help in this fight.
    After both the massacre at Fort Hood just north of my 
district by Hasan, and again recently with ``Jihad Jane'' from 
Pennsylvania, we hear after-the-fact reports that classmates 
and neighbors knew that there was a problem with these 
individuals.
    Working with our communities should be the first line of 
defense to prevent the spread of radicalization and to help 
protect us all from terrorist attacks. The criticism we often 
hear of Government outreach is that they are just discussion 
groups solely intended to listen to grievances or to just share 
information.
    Far less often, we hear about our efforts to create equal 
partnerships between the Government and these communities. 
Certainly, both information sharing and addressing legitimate 
grievances, are vital.
    However, I hope in your testimony today you also discuss 
what your organizations are doing to help foster true 
partnerships with equal accountability between these players.
    We must be working together to identify and implement real 
solutions to counter radical violent ideology and prevent 
terrorism. I look forward to hearing from you about what your 
solutions are.
    We must also ensure a diversity of thought at the table. 
For instance, who are we partnering and engaging with? Are we 
strengthening our relationships with those moderate Muslims who 
may already be doing their part, or are we primarily, if not 
only, engaging with groups that have the loudest voices or 
perhaps even extremist ties?
    I hope that through this hearing we will understand which, 
if any, groups may be underrepresented in each outreach effort. 
I hope the witnesses will please give that some thought.
    While our European counterparts have been dealing with the 
threat of radicalization and violent extremism for some time 
now, I think we can all agree that the problem is now in the 
United States as well.
    Western European nations are ahead of the United States, in 
my judgment, in community outreach strategies and in disrupting 
terror plots because they realize the importance of combating 
radicalization, and they know they cannot arrest their way out 
of the problem.
    The success of our European allies in engaging local 
religious, business, and community leaders has direct links to 
reporting and disrupting terrorist attacks.
    I hope that in your testimony today you will address not 
only your efforts to understand and incorporate best practices 
from around the world, and perhaps right in the United States, 
but also how you have learned from failed programs or missteps.
    Without an organized and concerted effort by Federal, 
State, and local officials to directly confront the issues of 
radicalization and the spread of violent extremism in our own 
communities, we will be derelict in our duty of preventing 
future terrorist attacks.
    As the past year has shown us, domestic radicalization is a 
very real threat in our National security. I look forward to 
the testimony of the witnesses and to examining these--these 
vital issues.
    With that, Madam Chair, I yield back.
    Ms. Harman. Thank you, Mr. McCaul.
    It is now my pleasure to recognize the Chairman of the full 
committee, Mr. Thompson from Mississippi, for an opening 
statement.
    Mr. Thompson. Thank you, Madam Chair.
    This committee is very focused on ensuring that American 
citizens can live their lives in safety and without fear. 
Terrorists both international and domestic, both foreign-born 
and homegrown, want nothing more than to shatter our security 
and make us fearful.
    Thanks to the work of our dedicated homeland security and 
law enforcement professionals, with the guidance of this 
administration and the careful oversight of this committee, we 
can have confidence in our security.
    As we have seen in just the past years, cases like Zazi, 
Headley, and Rana, we can stop terrorist plots dead in their 
tracks. Yet stopping terrorist plots is only one piece of 
freeing our fellow Americans from fear.
    Freedom from fear also means that people should not fear 
their Government and, in particular, should not fear the 
homeland security and law enforcement organizations that are 
working to provide their security.
    Community engagement efforts offer other ways of freeing us 
from fear. For example, community engagement efforts can vary 
widely. Many focus on helping communities understand homeland 
security or law enforcement policies, practices, and methods. 
Others help those who execute these policies and methods 
interact respectfully with the communities with which they 
deal.
    Fostering this kind of understanding is a sure way to 
develop--free communities from fear. It develops trust with law 
enforcement, confidence that they are also being protected, and 
a sense of participation and engagement.
    Individuals should also be free from fear that they are 
subject to homeland security or law enforcement scrutiny 
because of the color of their skin or their religion.
    We need look no further than the recent example of Colleen 
LaRose, also known as ``Jihad Jane''--and it is not our Chair; 
I agree with the comments of both the Chair and Ranking 
Member--to know that terrorists cannot simply be identified by 
gender, race, or national origin.
    We have learned that lesson hard, that terrorists do not 
fit the particular type. Terrorism does not always look the 
same. Terrorists are not always the usual suspects.
    Community engagement also helps free individuals from fear 
because it creates a critical dialogue between our homeland 
security and law enforcement agencies and individuals to help 
protect and preserve civil rights and civil liberties.
    For that reason, I am particularly pleased that Margo 
Schlanger, the newly appointed DHS Office of Civil Rights and 
Civil Liberties secretary, is here for her maiden Congressional 
appearance to speak about her community engagement work.
    I hope you and your colleagues on this panel today will 
highlight how your agencies' community engagements work to free 
our citizens from the fear that privacy, civil rights, and 
civil liberties play second fiddle to homeland security and law 
enforcement efforts to root out terrorists.
    Thank all the witnesses for appearing before us today, and 
I look forward to your testimony.
    Thank you.
    Ms. Harman. Thank you, Mr. Chairman.
    Other Members of the subcommittee are reminded that under 
the committee rules opening statements may be submitted for the 
record.
    I now welcome our first panel of witnesses this morning and 
our first witness, Ms. Schlanger, for her rookie appearance. I 
didn't know that.
    Let me introduce you all at once and then each of you will 
summarize your testimony in 5 minutes.
    Ms. Schlanger is the officer for civil rights and civil 
liberties at the Department of Homeland Security, as the 
Chairman said. She took this position on January 25 of this 
year. Her office is responsible for supporting DHS' efforts to 
secure the Nation from threats while preserving our freedoms 
and equality under the law.
    Prior to her appointment, Ms. Schlanger was a professor of 
law at a number of universities, including Michigan, Washington 
University, and Harvard. She served as a law clerk for Supreme 
Court justice Ruth Bader Ginsberg from 1993 to 1995 and then 
worked as a trial attorney in the U.S. Civil Rights Division of 
the Department of Justice.
    Our second witness, Mr. Hovington, is a 23-year veteran of 
the FBI and currently serves as the unit chief of the Community 
Relations Unit at the FBI's Office of Public Affairs. In this 
position, he manages the community outreach program and 
oversees outreach efforts conducted by all 56 FBI field 
offices.
    In addition, Mr. Hovington oversees the FBI Citizens' 
Academy program, advises senior executives on community 
outreach issues and represents the FBI at National functions 
and initiatives related to outreach.
    My sheriff, Lee Baca, began his law enforcement career when 
he entered the Los Angeles County Sheriff's Department in 1965, 
before the rest of us were born, ultimately rising through the 
ranks until he was elected sheriff in December 1998. He is now 
serving his third term.
    Sheriff Baca commands the largest sheriff's department in 
the United States. He leads over 18,000 officers and 
professional staff in the department which protects over 4 
million people--very well, I might add. Sheriff Baca is also 
the director of Homeland Security Mutual Aid for California 
District 1.
    In August 2007 Sheriff Baca established the Muslim 
Community Affairs Unit to train the Muslim community on law 
enforcement issues and to train the officers on Muslim 
culture--important point. This is a two-way committee. A lot is 
learned by the sheriff's department from the engagement with 
this community.
    Mr. Alomari, our fourth witness, is the community 
engagement officer at the Ohio Department of Public Safety 
Homeland Security Division. Under his direction Ohio has 
initiated numerous programs to facilitate interaction with 
large ethnic communities, including the growing Somali 
population in Ohio.
    Prior to serving in this position, Mr. Alomari worked as a 
professor at several institutions of higher learning across 
Ohio, including Ohio State, where he was a lecturer in Islam 
and Middle Eastern cultures.
    Without objection, your full statements will be inserted in 
the record, but I would urge you to summarize in 5 minutes or 
less, and you will hear my little gavel if you start to go 
over. It is important for us to be able to ask you questions. I 
think that is more useful for you and for the public that is 
both sitting here and listening in to this hearing. There is an 
enormous amount of interest in this hearing.
    So I want to thank you again and recognize Ms. Schlanger 
for 5 minutes.
    Please turn on your microphone.

  STATEMENT OF MARGO SCHLANGER, OFFICER FOR CIVIL RIGHTS AND 
        CIVIL LIBERTIES, DEPARTMENT OF HOMELAND SECURITY

    Ms. Schlanger. Thank you. Sorry. It is a sign that I am a 
rookie.
    Chair Harman, Chairman Thompson, Ranking Member McCaul and 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today as the Department of 
Homeland Security's officer for civil rights and civil 
liberties.
    As you request, my testimony will be about DHS' engagement 
with diverse ethnic and religious communities and I will focus 
on my office's activities, although activities happen 
throughout the Department. I will give particular attention to 
the outreach and communication with American, Arab, Muslim, 
Sikh, Somali, and South Asian communities.
    Congress established my position, reporting directly to the 
Secretary, to--and I am quoting from our statute--``ensure that 
the protection of civil rights and civil liberties is 
appropriately incorporated into Department programs and 
activities and to review and assess information concerning 
abuses of civil rights, civil liberties, and profiling on the 
basis of race, ethnicity, or religion by employees or officials 
of the Department.''
    My testimony is basically to say that both of these 
functions are improved by and even depend upon our engagement 
with diverse communities. Our engagement efforts involve 
encouraging all Americans in many ethnicities, religions, and 
so on to take an active role in their Government, to ensure 
that the Government is responsive to and protects the rights of 
all Americans.
    I want to be clear that this kind of engagement, soliciting 
the views and explaining policies from communities seeking to 
address complaints and grievances, is a basic part of good and 
responsible Government.
    I do believe that our activities contribute to the 
Department's mission of countering violent extremism. But the 
linkage is indirect. We can and should collaborate with 
community leaders to address this shared problem. But 
countering violent extremism isn't the main reason that we 
engage these communities, and it is--it is not really the lens 
through which we view the engagement.
    The point of the engagement is the primary mission of 
making sure that we communicate with and to and hear from these 
kinds of communities, opening up channels of communication.
    The Department continues to evaluate what other activities 
it can undertake to counter violent extremism, and my office 
plays a key role in that policy discussion.
    The work that we do with American, Arab, Muslim, Sikh, and 
South Asian communities is, therefore, part and parcel of a 
much broader effort. But this particular engagement is 
structured as follows.
    We have community leader roundtables in eight cities around 
the country, and we facilitate broad Government and community 
representation at those round tables. This is a big category of 
activities for my office. We convene about 30 of these meetings 
each year.
    The meetings provide opportunities for community leaders to 
learn about significant Government policies, to raise specific 
issues of concern, and it is in a format that promotes 
accountability for answers. The Government participants will be 
back again the following quarter.
    For our engagement efforts to be sustainable, it is 
important that the grievances be heard, and so we collect 
inquiries and issues from the communities in advance, and we 
make sure that we have the right people at the table to talk 
about them. We bring back what we learn to Department 
leadership.
    We also run youth roundtables. There are fewer of these, 
and they are not--they are less geographically based. It is a 
newer initiative but a very important one in light of recent 
trends in domestic radicalization and domestic violence. We 
have some events related to this coming up next week, for 
example, that are--that involve people--young people on 
campuses in Chicago.
    We also run something that was referred to earlier, a rapid 
response communication network, which we call the Incident 
Community Coordination Team. This is a conference call 
mechanism to be able to quickly speak to community leaders 
involving Federal officials and the community leaders in the 
event of a situation where such contact might be productive.
    The people we speak to are people who can contact and share 
information with their communities and perhaps assist law 
enforcement as things unfold.
    We also promote hand-in-hand with the FBI, for whom--which 
we are very grateful for, a prestigious law enforcement 
internship called the National Security Internship for Arabic-
speaking college students and graduates so that they can come 
and feel that there is a place for them in the FBI and in DHS. 
That is a very successful--small but successful program.
    There are millions of American Arabs, Muslims, Sikhs, South 
Asians living in thousands of towns and cities, so by necessity 
Government engagement with these communities is going to have 
to be local.
    So we also facilitate and use--and build capacity for local 
engagement. We look for information on best practices, and we 
conduct live and video-based training across the country of 
State and local law enforcement partners.
    This covers both cultural competency relating to American 
Arab, Muslim, Sikh, and South Asian communities and some--and a 
developing piece of it, something that we hope to really do 
more with, is a best practices approach to community 
interaction and outreach. This kind of work is strongly 
supported by the administration.
    I see I am nearly out of time, so I will just say the one 
thing that I am going to add to this mix, although I am going 
to augment a few of them, is that we want to do frequent issue-
specific engagement efforts.
    We had our first such event last week bringing together 
religious leaders from many communities to talk about advanced 
imaging. Thank you.
    [The statement of Ms. Schlanger follows:]

                 Prepared Statement of Margo Schlanger
                             March 17, 2010

                              INTRODUCTION

    Chair Harman, Ranking Member McCaul, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today as the Officer for Civil Rights and Civil Liberties (CRCL) for 
the United States Department of Homeland Security (DHS). At your 
request, my testimony will be about DHS's engagement with diverse 
ethnic and religious communities, focusing on my office's activities 
and giving particular attention to our outreach and communication with 
American Arab, Muslim, Sikh, Somali, and South Asian communities. Other 
offices within DHS--the Office of Intergovernmental Affairs, the 
Transportation Security Administration, the Office of Policy, and 
others--have not only participated in CRCL's engagement activities but 
also run their own events with these communities. But CRCL's program in 
this area is the most extensive, and my testimony will emphasize CRCL's 
activities.
    Congress established my position, reporting directly to the 
Secretary, to, among other things, ``assist the Secretary, 
directorates, and offices of the Department to develop, implement, and 
periodically review Department policies and procedures to ensure that 
the protection of civil rights and civil liberties is appropriately 
incorporated into Department programs and activities,'' and to ``review 
and assess information concerning abuses of civil rights, civil 
liberties, and profiling on the basis of race, ethnicity, or religion, 
by employees and officials of the Department.'' 6 U.S.C.  345(a). Both 
of these functions are improved by--even depend upon--our engagement 
with diverse communities.
    Our engagement efforts involve encouraging all Americans to take an 
active role in their Government, and ensuring that the Government is 
responsive to and protects the rights of all Americans. I want to be 
clear that engaging communities--soliciting their views, explaining our 
policies, and seeking to address any complaints or grievances they may 
have--is a basic part of good and responsible Government. Although our 
activities do contribute to the Department's mission of countering 
violent extremism; the linkage is indirect. Although we can and should 
collaborate with community leaders to address this shared problem, 
``countering violent extremism'' is neither the principal reason we 
engage these communities nor the lens through which we view this 
engagement. The Department continues to evaluate what other activities 
it can engage in to counter violent extremism, and my office plays a 
key role in that on-going policy discussion. I would also like to note 
that my office has no operational role in disrupting terror plots, and 
our engagement activities do not involve source development or 
intelligence collection.
    Since starting in my position at DHS on Jan, 25, 2010, I have led a 
roundtable bringing together American Muslim, Arab, Sikh, Somali, and 
South Asian leaders from around the country with officials from DHS and 
the National Counter Terrorism Center (NCTC), for a very enlightening 
discussion about the threat posed to those communities by terrorist 
attempts to recruit their members. The next day the Secretary's 
Homeland Security Advisory Council (HSAC) hosted a session, in which I 
participated, with the same leaders about building a rapid response 
information network to communicate with the community partners in the 
event of an attack. Secretary Napolitano joined us for an hour-long 
question-and-answer session and lent her public support to on-going 
dialogue involving the Department's senior leadership. I also led the 
DHS delegation to a bi-monthly National roundtable involving American 
Arab, Muslim, Sikh, and South Asian leaders sponsored by the Department 
of Justice (DOJ) and chaired local roundtables in Chicago and Detroit 
involving community leaders and numerous Federal agencies. In addition, 
I put together a session for Transportation Security Administration 
officials and Jewish, Christian, and Muslim religious leaders to 
discuss Advanced Imaging Technology (AIT) scanning machines and 
religious physical modesty prescriptions. I will also participate in 
what is known as the Transatlantic Initiative, a bi-national exchange 
involving British and American Pakistani and Muslim communities and 
their governments; my office is the U.S. interagency lead on this 
initiative.
    Gatherings like these provide an excellent opportunity for 
government officials and their agencies to learn about the concerns of 
diverse communities. The community leaders we engage with likewise 
learn useful information--for example, our Chicago meeting included 
presentations on the privacy protections included as part of TSA's use 
of AIT scanners and on CBP's ``Trusted Traveler'' program, which 
facilitates expedited international travel for pre-approved, low-risk 
travelers through dedicated lanes and kiosks.
    This kind of work is strongly supported by the administration, 
including DHS leadership. Secretary Napolitano has established open and 
responsive Government as a top priority for DHS, and these efforts 
align closely with that priority. As she explained in 2009, in written 
testimony before the Senate Committee on Homeland Security and 
Governmental Affairs, ``It is important to note that such engagement 
with the many key groups with which CRCL holds dialogues--such as Arab 
and Somali American communities, as well as Muslim and Sikh leaders--is 
important in and of itself as a matter of civil rights protection and 
smart, effective law enforcement. But by helping communities more fully 
engage with their government, DHS is also preempting alienation and 
creating buy-in to the broader shared responsibility of homeland 
security.''
    Our engagement efforts build crucial channels of communication, 
both educating us about the concerns of communities affected by DHS 
activities and giving those communities reliable information about 
policies and procedures. They build trust by facilitating resolution of 
legitimate grievances; they reinforce a sense of shared American 
identity and community; and they demonstrate the collective ownership 
of the homeland security project. I thank you for the opportunity to 
share with you our extensive work in this area.

          THE DHS OFFICE FOR CIVIL RIGHTS AND CIVIL LIBERTIES

    The DHS Office for Civil Rights and Civil Liberties (CRCL) carries 
out four key functions to integrate civil rights and civil liberties 
into Department activities:
  <bullet> Advising Department leadership, personnel, and partners 
        about civil rights and civil liberties issues, ensuring respect 
        for civil rights and civil liberties in policy decisions and 
        implementation of those decisions.
  <bullet> Communicating with individuals and communities whose civil 
        rights and civil liberties may be affected by Department 
        activities, informing them about policies and avenues of 
        redress, and promoting appropriate attention within the 
        Department to their experiences and concerns.
  <bullet> Investigating and resolving civil rights and civil liberties 
        complaints filed by the public.
  <bullet> Leading the Department's equal employment opportunity 
        programs and promoting personnel diversity and merit system 
        principles.

                        ENGAGEMENT AND OUTREACH

    CRCL devotes substantial effort to engage a variety of diverse 
ethnic and religious communities. The work we do with American Arab, 
Muslim, Sikh, and South Asian communities is part and parcel of a much 
broader effort to ensure that all communities in this country are, and 
feel, active participants in the homeland security effort. An example 
is our engagement efforts related to DHS immigration and border 
security policies. We hold quarterly meetings with a broad-based non-
governmental organization (NGO) coalition of National civil rights and 
immigrant-rights organizations; have established an inter-agency 
Immigrant Worker Roundtable to bring together DHS components, other 
Federal agencies, and NGOs; and facilitate an immigration Incident 
Coordination Call, which provides immigrant community leaders with 
vital information about CBP and ICE enforcement posture during 
emergencies. In the past it has been used only to prevent loss of life 
by encouraging immigrant communities to evacuate dangerous areas during 
hurricanes by alleviating undue fear of enforcement. We also 
participate in engagement activities of other DHS components; over the 
past several months, for example, my staff served as the designated 
facilitators for extended stakeholder meetings about CBP's Southwest 
Border activities. We carry out the same types of efforts in non-
immigration areas as well; for example participated in a workshop last 
week for faith-based and community groups involved in disaster response 
and recovery.
    Engagement Activities with American Arab, Muslim, Sikh, and South 
Asian Communities.--CRCL is far from the only DHS office that conducts 
outreach efforts involving Arab, Muslim, Sikh, and South Asian 
communities. To provide just a few examples, U.S. Citizenship and 
Immigration Services (USCIS), has held Naturalization Information 
Sessions in these communities, and has published its guide ``Welcome to 
the United States'' in 14 languages, including Arabic, Urdu, and 
Somali; officials from the Office of Policy and the Office of 
Intergovernmental Affairs have met repeatedly with members of these 
communities as well.
    But CRCL is the Office within DHS that conducts the most extensive 
outreach efforts involving the many Arab, Muslim, Sikh, and South Asian 
communities across the Nation. We structure these engagement efforts 
with several types of regular events or programs: community leader 
roundtables; youth roundtables; a rapid response communication network; 
and promotion of a prestigious law enforcement internship for Arabic-
speaking college students and graduates.
    CRCL's activities serve as a model for constructive engagement 
between these communities and Government, and we strive to facilitate 
and build capacity for further local engagement. Several other DHS 
components, as well as States, regional fusion centers, and local 
governments already also conduct outreach and engagement with these 
communities--we have learned from each other's experiences and want to 
encourage these efforts where they are not already occurring.
    Of course, as with all outreach efforts, the Government must be 
careful to choose constructive leaders to partner with, and, by the 
same token, community members are careful to meet with Government 
officials who they believe will be reliable partners responsive to 
legitimate concerns.
    Roundtables.--First, over the past 4 years, CRCL has established 
regular roundtable meetings for community and Government leaders in 
eight regions across the country: Detroit, Houston, Chicago, Boston, 
Los Angeles, Minneapolis, Columbus (Ohio), and Washington, DC. In 
addition, CRCL has developed relationships with Somali American leaders 
in San Diego, Seattle, and Lewiston (Maine), and includes them in the 
regular roundtables where possible and in bi-monthly community 
conference calls. These locations have diverse Muslim, Arab, Sikh, and 
Somali communities, and we have nurtured broad community participation.
    These roundtable events include not just our office, but also DHS 
components relevant to the issues placed on the agenda by our community 
partners, most often U.S. Citizenship and Immigration Services (USCIS), 
U.S. Immigration and Customs Enforcement (ICE), U.S. Customs and Border 
Protection (CBP), and the Transportation Security Administration (TSA). 
Government participation also includes U.S. Attorneys' Offices, the 
Federal Bureau of Investigation (FBI), State and local law enforcement, 
and other Federal and local officials.
    The roundtables cover a range of homeland security, civil rights, 
and other areas. With the assistance of our Federal and local 
Government partners, sessions have canvassed (in no particular order): 
Rules governing remittances to foreign relatives; immigration and 
naturalization policies; access to information about basic Government 
services in different languages; roles and responsibilities of law 
enforcement; detention of National security suspects; how Government 
can work with communities to promote civic engagement; services for 
newly-arrived refugees; crime prevention; how communities can work with 
Government to counter violent extremism; protection of civil rights in 
employment, voting, housing, and other areas; prosecution of hate 
crimes; and border searches.
    The meetings provide opportunities for community leaders to learn 
about significant Government policies, as well as to raise specific 
issues of concern in a format that emphasizes accountability for 
answers--the Government participants will be back again the following 
quarter. For our engagement efforts to be sustainable, it is important 
that the grievances of these communities be heard by policy decision-
makers, so we collect inquiries and issues from the communities and 
keep senior leadership apprised of the impact of DHS policy and 
operations. In addition, at the Secretary's request, two DHS Assistant 
Secretaries have personally attended a number of recent roundtables, 
and they will attend others in the future.
    Youth roundtables.--Young leaders and youth organizations offer 
different perspectives than older community leaders. For this reason, 
CRCL has hosted four ``Roundtables on Security and Liberty'' in 
Washington, DC; Houston; and Los Angeles to connect with 150 young 
leaders ages 18-25 from American Arab, Muslim, Sikh, and South Asian 
communities. These events offer opportunities for youth to share their 
thoughts with senior DHS leadership and for Government officials to 
learn from a population whose perspectives are invaluable to homeland 
security efforts.
    Incident Community Coordination Team.--Government contact with 
Muslim, Arab, Sikh, Somali and South Asian community leaders in the 
hours and days after an incident can be extraordinarily helpful, 
because community leaders can calm tensions, share information with 
their communities, and perhaps assist law enforcement. Accordingly, my 
office has established the Incident Community Coordination Team (ICCT). 
This conference call mechanism connects Federal officials with key 
leaders in the event of a situation in which contact would be 
productive. DHS participant components and offices include TSA, ICE, 
CBP, USCIS, the Office of Public Affairs, and the Office of 
Intelligence & Analysis. We are joined by the White House Office of 
Public Engagement, the DOJ Civil Rights Division, the FBI, the National 
Counterterrorism Center (NCTC), and the Department of State, among 
others. Community participants include representatives of National 
organizations, community leaders from key cities, and religious and 
cultural scholars.
    Our ICCT has been used seven times since we established it in 2006, 
and has been an effective device in several ways:
  <bullet> It allows participating agencies to get community leaders 
        the information they need in the aftermath of an incident. The 
        information shared--which is not classified or restricted--is 
        valuable because of its reliability and timeliness.
  <bullet> It gives community leaders a channel to speak to Federal 
        officials in a timely and effective way. They can share 
        reactions to Governmental policies or enforcement actions, and 
        provide information about hate crimes that should be 
        investigated, about the mood of communities in the aftermath of 
        a homeland security incident and, possibly, about how the 
        Government might improve its effectiveness in investigating the 
        incident.
  <bullet> It facilitates development of a common understanding about 
        the messages that Government and community leaders will send to 
        these communities, the country, and the world.
    Most recently, the ICCT was convened after the Fort Hood incident 
in November 2009, and after the attempted bombing of Northwest Airlines 
Flight No. 253 in December 2009. Representatives from DHS, the White 
House, DOJ's Civil Rights Division, NCTC, Department of Defense, 
Department of State, and the FBI provided briefings to community 
leaders, giving them information they could share with their 
communities. Community leaders had an opportunity to ask questions and 
share reactions to the events.
    National Security Internship Program.--In 2007, in partnership with 
the FBI, my office established the National Security Internship Program 
to bring Arabic-speaking college students to Washington, DC to intern 
for a summer at DHS or the FBI, and concurrently improve their Arabic 
language skills at the George Washington University. Successful interns 
are encouraged to apply for permanent jobs at DHS or the FBI. This 
program brings people with both language and cultural skills to 
Government's policy, law enforcement, and intelligence offices. This 
internship program is an important part of the partnership between 
Government and the Arab American and Muslim American communities.
Facilitating Local Engagement
    There are millions of American Arabs, Muslims, Sikhs, and South 
Asians, living in thousands of towns and cities across the Nation. By 
necessity, Governmental engagement with these communities will have to 
be local.
    CRCL conducts training for law enforcement personnel on cultural 
competency relating to American Arab, Muslim, Sikh, and South Asian 
communities, Islam, and some Sikh religious practices. This kind of 
training is a precondition for honest communication and trust between 
officers and the communities they serve and protect. Topics include: 
Misconceptions and stereotypes of Arab and Muslim cultures; diversity 
within Arab and Muslim communities; effective policing without the use 
of ethnic or racial profiling; and a best practices approach to 
community interaction and outreach. Much of this training is provided 
live, usually on-site, to Federal, State, and local law enforcement 
officials around the country. But we have also produced a training DVD 
that includes insights from four National and international experts--an 
Assistant United States Attorney who is Muslim; a member of the 
National Security Council who is Muslim; an internationally renowned 
scholar of Islamic studies; and a civil rights attorney who advocates 
on issues of concern to Arab-American and Muslim-American communities.
    It is worth noting, in addition, that it is our community 
partners--reliably informed by engagement activities about Government 
policy and practices, and consistently empowered by those same 
engagement activities to highlight for policymakers their experiences, 
concerns, and grievances and to obtain reasonable responses--who bear 
the responsibility to counter radical ideologies that subvert their 
values and may pave a path for their young people towards violence. 
Radical beliefs, after all, are protected by the Constitution. Our 
proper sphere of concern and intervention is violence, not radicalism.

                               NEXT STEPS

    I have a number of plans to augment my office's existing engagement 
efforts in American Muslim, Arab, Sikh, and South Asian communities. 
Over the next year, we plan to add cities for our regularly scheduled 
roundtables. Conceptually, I have three strategic initiatives:

    (1) Frequent issue-specific engagement efforts.--Issue-specific 
        engagement brings community leaders to the table who have 
        particular contributions to make on specific topics. Our first 
        issue-specific event is focused on AIT scanning technology and 
        religious modesty prescriptions.

    (2) Promoting local engagement efforts.--As discussed in the 
        Quadrennial Homeland Security Review released last month, the 
        DHS vision for homeland security is a homeland that is safe, 
        secure, and resilient against terrorism and other hazards, and 
        where American interests, aspirations, and way of life can 
        thrive. The American way of life prominently includes our 
        cherished civil rights and civil liberties. Even so, our 
        Department--and the Federal Government as a whole--cannot 
        possibly do all that needs to be done in this area of endeavor. 
        States and local governments are beginning to become active in 
        this area, and some are doing terrific work. We must promote 
        more local efforts, by modeling constructive engagement; 
        providing in-person and scalable training and training 
        materials; coordinating community-oriented activities; and 
        promulgating best practices. We need to ensure that our State, 
        local, and Tribal partners have the knowledge, methods, skills, 
        and resources to productively engage their communities.

    (3) Youth engagement efforts.--Regardless of faith, race, 
        ethnicity, national origin, or gender, young people communicate 
        differently than older generations; they have vastly more 
        exposure to social media tools and real-time on-line 
        information and communication. And because it is youth who are 
        at the frontlines when it comes to terrorist recruitment, they 
        are perhaps the most vital audience for a message of inclusion, 
        esteem, and fair treatment. It is our job as a Department to 
        welcome young people in American Arab, Muslim, Sikh, and South 
        Asian communities to join our Nation's collective security 
        efforts; we must empower them to be connected rather than 
        alienated. We need to demonstrate to our youth that we value 
        their opinions and welcome their ideas, and we need to use a 
        variety of communications techniques to convey that message.

                               CONCLUSION

    Frequent, responsive, and thoughtful engagement with diverse 
communities is an imperative of effective government. Such engagement 
gathers and shares information, builds trust, informs policy, and 
enables prompt response to legitimate grievances and needs; it is the 
right of Americans as the sovereign source of Governmental authority. 
Engagement with American Muslim, Arab, Sikh, and South Asian 
communities is one instantiation of that imperative, and a crucial 
method of reinforcing the fundamental tenet that we are fellow citizens 
facing a common threat.
    Thank you, again, for the opportunity to testify today. I welcome 
your questions.

    Ms. Harman. Thank you very much.
    Mr. Hovington.

 STATEMENT OF BRETT HOVINGTON, SUPERVISORY SPECIAL AGENT, HEAD 
  OF COMMUNITY RELATIONS UNIT, FEDERAL BUREAU OF INVESTIGATION

    Mr. Hovington. Good morning, Chair Harman, Ranking Member 
McCaul and distinguished Members of the subcommittee.
    As chief of the Community Relations Unit at FBI's Office of 
Public Affairs, I appreciate this opportunity to join my 
colleagues from the Department of Homeland Security, the Los 
Angeles Sheriff's Office, and the State of Ohio in discussing 
this very important issue, particularly our efforts to build 
trust and open a constructive dialogue with the American Arab, 
Muslim, Sikh, Somali, and South Asian communities, to name a 
few.
    The FBI's Community Outreach Program works to enhance 
public trust and confidence in the FBI, fostering open and 
transparent dialogue.
    Community engagement efforts that build trust help us to 
open doors, facilitating the overall mission of the FBI in 
keeping the communities and the homeland safe.
    If people understand the FBI's mission and view the FBI as 
cooperative and trustworthy, they are more likely to report a 
crime, return a telephone call, or respond positively to being 
approached by an FBI special agent.
    As we see more instances of individuals in the United 
States being radicalized to commit violent acts--and I repeat, 
to commit violent acts--our efforts to build understanding and 
trust become more critical than ever.
    At the headquarters level, the FBI engages a variety of 
Arab American and Muslim organizations. FBI leadership meets 
with leaders of National groups and has found these 
interactions to be mutually beneficial. We look to these 
organizations to assist us in communication with their members 
and constituents.
    For example, before we implemented our new attorney general 
guidelines for domestic operations last year, we briefed these 
organizations on the changes and attempted to address their 
concerns. Our intent was to provide them with information to 
place the FBI's efforts in context when issues arose publicly.
    At the local level, each of our 56 FBI field offices has a 
community outreach program coordinated by a professional 
community outreach specialist or a special agent community 
outreach coordinator.
    As we do at the National level, field offices identify and 
develop relationships with community leaders and other 
individuals who have influence in their communities and may be 
helpful conduits of information for the communities that we are 
obligated to protect and serve.
    These leaders make up a network of contacts the field 
office can reach quickly in the event there is a threat or 
operational activity impacting that community.
    This network of contacts is also helpful when the FBI needs 
public assistance to support on-going investigations, to 
address concerns about FBI activities reported in the news 
media, or to provide additional details on information released 
by the FBI such as crime statistics.
    Field offices use various initiatives to develop and 
maintain their liaison with community leaders and groups. 
Thirty-eight of our field offices have established what we call 
our Community Engagement Councils or Multi-Cultural Advisory 
Councils that consult with field office leadership on areas of 
interest or concerns in their communities.
    Many field offices have held town-hall style meetings to 
help foster dialogue with the broader community. FBI field 
offices also partner with community outreach programs run by 
State and local law enforcement agencies, which is very 
critical to the success of engaging.
    One of our key initiatives is the FBI Citizen Academy 8- to 
10-week program that brings together community leaders to learn 
about the FBI mission, jurisdiction, policies, and general 
overall mission. All field offices conduct at least one Citizen 
Academy per year, while some may conduct two or three. A strong 
effort is made to attract a diverse group of participants to 
these classes.
    Another program is the Community Relations Executive 
Seminar Training, or what we call our CREST. It is a shorter 
version of our Citizen Academy program that is conducted at 
locations in the community rather than at an FBI facility.
    While not as in-depth as our Citizen Academies, these 
programs provide a vehicle to reach out to communities where 
trust in the Government or the FBI in particular needs to be 
enhanced. Topics discussed vary according to the interests of 
the group and often include civil rights, hate crimes, and 
terrorism.
    In the context of countering violent radicalization, a key 
step is to develop relationships within the community based on 
trust and to do so under non-stressful circumstances rather--
rather than in the aftermath of an incident. We have found 
CREST to be an important first step in building that process.
    The FBI also continues to adapt our established youth 
programs to help us reach groups of young people, particularly 
in the Muslim communities. Field offices sponsor teen academies 
which are designed to introduce youth to the FBI. We also have 
our Adopt-a-School/Junior Agent special program, which is 
designed to introduce youth to the FBI and to encourage good 
citizenship.
    Our community partners have become a bridge to many who 
have viewed the FBI with either contempt or fear. They now come 
through the doors of the FBI and feel free to share their views 
on sensitive issues.
    While we realize we may not always agree at times, or we 
must agree to disagree, our focus continues to be on the 
fostering dialogue and keeping the conversation going.
    I hope I conveyed the committee's--the FBI's strategy to 
engage communities and the methods we use, and I thank again 
the Chair and the Members of the committee for their interest 
in this important issue. Thank you.
    [The statement of Mr. Hovington follows:]

                 Prepared Statement of Brett Hovington
                             March 17, 2010

    Good afternoon Chair Harman, Ranking Member McCaul, and 
distinguished Members of the subcommittee. I am happy to join with my 
colleagues here from the Department of Homeland Security and the Los 
Angeles Sheriff's Office.
    As chief of the Community Relations Unit of the FBI's Office of 
Public Affairs, I appreciate this opportunity to discuss the FBI's 
community outreach and engagement efforts, particularly our efforts to 
build trust and open a constructive dialogue with American Arab, 
Muslim, Sikh, Somali, and South Asian communities, to name but a few.
    The primary purpose of the FBI's Community Outreach Program is 
simple: To enhance public trust and confidence in the FBI by fostering 
the FBI's relationship within various communities. The Community 
Outreach Program supports the FBI's mission by educating members of the 
public on how they can help protect themselves and their communities. 
Our engagement efforts are designed to build trust in communities that 
can assist in opening doors, facilitating the overall mission of the 
FBI in keeping communities and the homeland safe. If the public 
understands the FBI's mission and views the FBI as cooperative and 
trustworthy, they are more likely to report a crime, return a telephone 
call, or respond positively to being approached by a FBI Special Agent.
    I have traveled to Saudi Arabia, the United Kingdom and many parts 
of the United States studying the various engagement strategies of law 
enforcement agencies. One common thread is the need to have better 
dialogue not just with communities, but specifically with youth. Recent 
situations involving young people leaving the United States to travel 
abroad and engage in criminal and nefarious activities is one of the 
concerns facing the United States today. Though violent radicalization 
is a growing concern, the overwhelming majority of Muslim Americans we 
encounter are loyal, law-abiding citizens.
    If we want to stop future generations of youth from choosing the 
wrong path and fighting against our country instead of for it, we must 
commit to increasing our field-based scientific research on the violent 
radicalization of youth. The only way we can effectively address this 
issue is to fully understand it. Sociologists, political scientists, 
and psychologists can all help us explore conflict between leaders, 
community members, and youth.
    As a Special Agent, I can attest that an individual's understanding 
and perception of the FBI can make everything we do easier or harder. 
As we see more instances of individuals in the United States being 
radicalized to commit violent acts, our efforts to build understanding 
and trust becomes more critical than ever.

                     OUTREACH AT THE NATIONAL LEVEL

    The FBI engages National and local organizations in the United 
States that have public positions against terrorism and violent 
radicalization to further a positive image of law enforcement. The FBI 
has established contacts with a variety of National-level Arab-American 
and Muslim organizations. FBI Director Mueller meets with leaders of 
these groups and has found these interactions to be mutually 
beneficial. We look to these organizations to assist us in 
communicating with their members and constituents. For example, to 
provide an understanding of the FBI's investigative parameters prior to 
implementation of the new Attorney General's Guidelines for Domestic 
Operations, we offered these organizations briefings and attempted to 
address concerns raised by the groups. Out intent was to provide them 
with information to place the FBI's efforts in context when issues 
arose publicly.

Outreach Efforts at the Local Level
    Each of our 56 field offices has a Community Outreach Program 
coordinated by a professional Community Outreach Specialist or Special 
Agent Community Outreach Coordinator. Our Community Outreach Program 
has several elements: Building relationships with community leaders; 
reaching out to youth and the broader community; and partnering with 
various community organizations and other law enforcement outreach 
efforts. As we do at the National level, field offices identify and 
develop relationships with community leaders and other individuals who 
have influence in their communities and may be helpful conduits of 
information to the community at large.
    These leaders make up a network of contacts the field office can 
reach out to on short notice to deliver a message to their community in 
the event there is a threat or operational activity impacting that 
community. This network of contacts is also helpful when the FBI needs 
public assistance to support an on-going investigation, to address 
concerns about FBI activities reported in the news media, or to provide 
additional details on information released by the FBI, such as crime 
statistics. For example:
  <bullet> In Detroit, the executive management, including the Special 
        Agent in Charge, attends regular meetings in the Muslim 
        communities. They also have individuals from the Muslim 
        Community who participate in the Multi-Cultural Advisory 
        Councils, FBI Citizens' Academies, and the FBI Teen Academy.
  <bullet> In the fall of 2009, the Assistant Director of the New York 
        Office met with 40 Muslim community leaders to address the 
        issues and concerns of the community following operational 
        activities in the investigation of Najibullah Zazi. This kind 
        of dialogue has become part of our set operations plan.
    Field offices use various initiatives to develop and maintain their 
liaison with community leaders and groups. Thirty-eight of our field 
offices have established Community Engagement Councils or Multi-
Cultural Advisory Councils that consult with field office leadership on 
areas of interest or concern in the community.
    Another key initiative is the Citizens' Academy. This effort is an 
8- to 10-week program that brings together community leaders to learn 
about the FBI's mission, jurisdiction, policies, and general 
operations. All field offices conduct at least one Citizens' Academy 
per year, while some may conduct multiple sessions. A strong effort is 
made to attract a diversity of members that represent the surrounding 
communities to these classes.
    After a member of the Turkish-American community graduated from the 
Knoxville office's Citizens' Academy in 2009, the partnership 
blossomed, and now the Turkish community will be hosting a session of 
this year's Citizens' Academy. They will also be participating during 
the next Youth Academy, which will include students from 25 different 
high schools.
    Another program used to foster relationships within various 
communities is the Community Relations Executive Seminar Training or 
CREST. While not as in-depth as Citizen Academies, this program 
provides a vehicle to reach out to communities where trust in the 
Government or the FBI in particular needs to be enhanced. Topics 
addressed in a CREST session vary according to the interests of the 
group, discussing such areas as civil rights, hate crimes, or 
terrorism.
    The effectiveness of the CREST program is that it is often the 
starting point for bridging the gaps of trust that may exist between 
the FBI and a given community. In the context of countering violent 
radicalization, a key step is to develop relationships within the 
community based on trust and to do so under non-stressful circumstances 
rather than in the aftermath of an incident. CREST is a first step in 
that building process.
    In addition to the Citizens' Academy and CREST programs, many field 
offices have held town-hall style meetings to help foster dialogue with 
the broader community. Some examples of the communities the FBI has 
engaged in this way are:
  <bullet> The Atlanta office held a town hall meeting for the Muslim 
        community at the Hamza Center in Alpharetta, Georgia.
  <bullet> The Buffalo office partnered with the Muslim Public Affairs 
        Council of Western New York to host a town hall meeting with 
        the Special Agent in Charge and an Assistant U.S. Attorney 
        present.
  <bullet> The New Haven office held town hall meetings with the 
        Pakistani-American Public Affairs Committee (PAKPAC).
  <bullet> The San Antonio office participated in an open forum for a 
        group of refugees from Somalia, Tanzania and Iran, expressing 
        encouragement to those in attendance that local/Federal 
        agencies were available to assist with any concerns or issues.
    FBI field offices also partner with community outreach programs run 
by State and local law enforcement agencies. Since 2006, the Dallas FBI 
office and Arlington Police have held joint quarterly meetings with 
leaders of the Muslim Community in Tarrant County. The meetings are a 
collaborative effort of the FBI and Arlington Police to engage the 
Muslim community leadership.
    Both the Citizens' Academy and CREST graduates--along with our 
local law enforcement partners--are the foundation of a community 
support network that works as a force multiplier for us. By working 
through this local foundation, we are able to model a more traditional 
community policing effort to combat violent radicalization and 
terrorism.

               SPECIALIZED COMMUNITY OUTREACH TEAM (SCOT)

    In November 2008, the Community Relations Unit established a 
Specialized Community Outreach Team. The team, comprised of Special 
Agents, Analysts, Community Outreach Specialists, and personnel with 
language or other specialized skills, assists field offices with 
establishing new contacts in key communities. The pilot program focused 
on establishing contacts in the Somali-American communities of Denver, 
Columbus, Minneapolis, San Diego, Seattle, and Washington, DC. These 
cities were selected because they were identified as the largest 
Somali-American communities in the United States. The intent of this 
new engagement strategy is to use the best practices in community 
outreach and tailor them to assist in efforts to engage communities 
that are particularly insular or where barriers of fear or suspicion of 
law enforcement exist. In the pilot program field offices were helped 
to develop relationships with organizations and individuals in the 
Somali community who are well-positioned to fill outreach gaps and 
assist in developing a more positive dialogue with the community.

                           OUTREACH TO YOUTH

    The FBI continues to adapt our established youth programs to help 
us reach new groups of young people, particularly in Muslim 
communities. Field offices sponsor teen academies which are designed to 
introduce youth to the FBI. We also have the Adopt-a-School/Junior 
Special Agent program, which is designed to introduce youth to the FBI 
and to encourage good citizenship. Here are just a few examples:
  <bullet> As a part of the FBI Adopt-a-School Program, the Phoenix 
        office hosted a Jr. Special Agent Program at the Arizona 
        Cultural Academy, an Islamic private school. A series of topics 
        presented for the youth were: Making Good Decisions, Peer 
        Pressure, Internet Safety, Violence Prevention, Self-Esteem, 
        and Teasing and Rumors.
  <bullet> The New York office participated in a Pakistani Youth Group 
        event held by the Council of People's Organization (COPO) in 
        Brooklyn.
  <bullet> Agents from the San Antonio office delivered an internet 
        safety presentation to 300 middle school students at a 
        predominately Turkish run school, Harmony Science Academy.
  <bullet> Agents from the Atlanta office participated in Career Day at 
        Dar-Un-Noor School, which is also a part of the Al Farooq 
        Masijid, the largest mosque in Atlanta, Georgia.

                        RECOGNIZING OUR PARTNERS

    Our community partners have become a bridge to many who viewed the 
FBI with either contempt or fear. They now come through the doors of 
the FBI and feel free to share their views on sensitive issues. We 
commend our friends for their efforts, and we commend the leaders of 
minority and ethnic communities who have also become friends with the 
FBI and who are building similar relationships for their communities.
    While we realize we are going to have disagreements with these same 
communities, we are talking. Sparking that dialogue is essential. The 
leadership of the American Muslim community is working vigorously on 
many levels to emphasize that American Muslims are Americans. The 
opportunity to cooperate with the FBI and other authorities can ensure 
the safety and security of communities and the United States.
    One way we can formally recognize the FBI's partners across the 
country is through the Director's Community Leadership Award. In 2009, 
four recipients of this award were Muslim leaders. 2008 Muslim 
Recipients included: Yahya Hendi, Bilal Eksili, Dafer Mohammed Dakhil, 
and Mohammed Moinuddin. This year's recipients include five Muslim 
leaders, including: Dr. Saeed Fahia, Josefina Salma Ahmed, Bilah A. 
Khaleeq, and Mohamed Abdul-Azeez. The fifth recipient, Nawar Shora from 
the Arab-American Anti-Discrimination Committee, provided training to 
community outreach personnel from all 56 field offices at our annual 
training conference last year. This year's recipients will be coming to 
FBI headquarters this week to be formally recognized by FBI Director 
Robert Mueller for their outstanding contributions to public safety.

                               CONCLUSION

    In my remarks I hope I conveyed to the committee the FBI's strategy 
to engage communities, counter violent radicalization and the methods 
we use. The process requires building trust within the community, 
followed by creating strong and open partnerships. Achieving these 
elements we can then seek to positively influence change in the 
community and alter the path towards violent radicalization.
    I thank the Chairman and the Members of the committee for their 
interest in this important issue affecting our Nation and look forward 
to answering your questions.

    Ms. Harman. Thank you very much.
    Sheriff Baca.

STATEMENT OF LEROY BACA, SHERIFF, LOS ANGELES COUNTY SHERIFF'S 
                           DEPARTMENT

    Sheriff Baca. Thank you. Thank you and good morning. It is 
a delight to be here with all of you.
    Simply this: Without Muslim Americans locally, Nationally, 
and internationally, we are not winning any war against terror. 
Our testimony is designed to bring forth that strong message 
to--to not only Members of this committee but also members of 
this entire Nation.
    Simply, local and international relationships are the 
strongest tools in the war against terror. Information that is 
relationship-derived is more reliable than information that is 
twice- or more removed from the original source.
    When the Christmas day terrorist Abdulmutallab's father 
reported his son's extremism, intelligence doesn't get any 
better than this. My point is where billions of people who--in 
the world are aligned in cooperation with police against 
terrorism, terrorists will be defeated.
    I have four points. I would like to briefly discuss them 
with you. The first, as you have heard through my colleague to 
the right from the FBI, public-trust policing is the goal not 
only for Muslim Americans but the vast, diverse societies 
throughout the United States.
    To maintain a safe and free society of terrorist attacks, 
police need to establish public-trust policing techniques that 
lead to appropriate channels of communication and participation 
by the public. This brochure I provided you will describe 
extensively what this means.
    But moreover, we have to reach to the point where people 
are advising police as opposed to police merely advising 
people. The sheriff's department has ethnic advisory councils 
that are European, South Asian, Asian, Middle Eastern, Russian, 
and particularly Iranian and Muslims from various nations which 
include Pakistan, Jordan, the Gulf states, Turkey, and 
Azerbaijan.
    My second point is Muslim Americans are clearly against 
terrorism. To further the effort of public safety, Muslim 
American leaders within Los Angeles County formed a nonprofit 
organization called the Muslim American Homeland Security 
Congress.
    I provided you with a brochure that describes what this 
organization does and what its educational input is on these 
various issues of relationship building and public safety.
    This organization was formed by the leaders of Muslim 
groups covering 70 mosques. The Shura Council, for example, of 
Los Angeles has 70 mosques within their environment. The leader 
of that council was part of the forming of this organization 
that I have alluded to.
    The Council of American Islamic Relations, CAIR, also led 
in this effort. Muslim Public Affairs Council. The Council of 
Pakistani Affairs. The Iranian American Muslim Association of 
North America participated in this. Various local mosques and 
Islamic centers were involved.
    The organization is an educational organization with a two-
way road for public safety. As a result, significant activities 
are engaged in with this organization. I might also say that 
the sheriff's department--I want to introduce Sergeant Michael 
Abdeen.
    If you could just stand for a moment.
    He is the outreach Muslim American who goes out with his 
team of five other Muslim Americans in uniform, prays in 
mosques, engages with children and young teenagers and parents, 
and helps parents solve problems that are not necessarily 
related to a terrorist threat. How do we survive in the common 
issues of young people getting involved with drugs and other 
things that are detrimental to their growth? The key here is 
that we have to have interactive relationships, not only 
relationships based on professional reasons.
    The next point is professional international police 
diplomacy. I have been all over this world in the Muslim 
countries, trying to build a greater sense of appreciation and 
relationship for their strategies, and to point, this document 
here will explain it thoroughly to you.
    Countries such as Pakistan, Turkey, Azerbaijan, Jordan, 
Israel, Qatar, Saudi Arabia, all the Gulf states, and we hosted 
a conference in Beverly Hills last Thursday of all the Gulf 
states police chiefs, major European police chiefs, the police 
chiefs of Toronto, Vancouver, and Montreal, along with Mexico 
City, Tijuana, and Singapore.
    This is significant. Law enforcement in America needs to 
collaborate with our counterparts outside of our Nation. Cities 
like Los Angeles and New York, which are the capitals, pretty 
much, of the diversity of all the Nation's countries, are part 
of this effort.
    The last point, which is No. 4, is interfaith respect. 
Americans of faith will help when asked. The question of 
peaceful human coexistence worldwide cannot be fully answered 
without including the good will of all faiths towards one 
another.
    At this time in our history, with billions of dollars being 
spent on the war against terror, our Nation should ask all 
Americans of faith to join with President Obama's example and 
be the instrument of good will to Muslims throughout the world.
    There is my belief that the average American has the 
potential to be our best ambassador of good will, but we all 
have to go forward in our various elected jobs and our official 
positions in Government to set the example and communicate with 
mosques worldwide, within our Nation as well, and go to these 
places and participate in some of the activities they engage 
in.
    Extremists are what they are. But they will not survive or 
thrive in a world that is not indifferent. Los Angeles County 
is not indifferent to the assets and virtues of the Muslim 
American communities locally and those that are worldwide.
    Finally, I would like to thank Janet Napolitano, the 
Homeland Security Secretary, for her effort as well in trying 
to reach out and build a better relationship with Muslim 
Americans.
    Thank you.
    [The statement of Sheriff Baca follows:]

                    Prepared Statement of Leroy Baca
                             March 17, 2010

    On September 13, 2001, the Los Angeles County Sheriff's Department, 
fearing a backlash against Muslim-Americans, convened a meeting led by 
then-Governor Gray Davis and Mayor James Hahn, Supervisor Zev 
Yaroslavsky and I, in addition to the Los Angeles County Sheriff's 
Department's Interfaith Council.
    Our core message was to not involve religious assumptions regarding 
the attacks on America during 9/11. We succeeded in keeping 11,000,000 
people intact without violence. Minor verbal abuse acts, however, were 
documented by deputies and police.
    Since then, the Sheriff's Department has worked daily with diverse 
Muslim-American communities in Los Angeles County. This testimony of 
our efforts is a model that could be helpful as our Nation continues to 
prevent future terrorism at home and abroad.
    Local and international relationships are the strongest tools in 
the war against terror. Information that is relationship-derived is 
more reliable than information twice- or more removed from the original 
source. When the Christmas day terrorist Abdulmutallab's father 
reported his son's extremism, intelligence doesn't get any better than 
this. Where the billions of people of the world are aligned in 
cooperation with police against terrorism, the terrorists will be 
defeated.
    Because we need relationships with Muslim communities to better 
protect all citizens, Americans, particularly elected officials, should 
not claim Islam supports terrorism. This is counter-productive to 
trust. It plays into the terrorist strategy that the West is against 
Islam. Moreover, the millions of Iranians who are objecting to the 
apparent fraudulent election in Iran, and the undemocratic behavior of 
its supreme religious leader(s), are not abandoning Islam as they 
embrace fair democracy for their country.
    Law enforcement alone, however, cannot generate the appropriate 
intelligence and response to terrorist cells without the cooperation 
and support of all citizens, especially the Muslim-American community. 
Moreover, in America, we are obligated to protect all citizens and 
their respective religions. To effectively detect and manage 
extremists, police need to have the trust and understanding of Muslim 
communities who live within and outside the United States, especially 
those who have experienced terrorist attacks within their homelands. 
Simply, police need public participation. To accomplish public 
participation, certain strategies, such as public-trust policing, need 
to be in place everywhere in our Nation.

                         PUBLIC-TRUST POLICING

    To maintain a safe society free of terrorist attacks, police need 
to establish public-trust policing techniques that lead to appropriate 
channels of communication and participation with the public. Los 
Angeles County has aggressively embarked upon a public-trust policing 
program since 9/11. Relationships with all faiths are important to 
achieve interfaith harmony. Los Angeles County has many interfaith 
efforts. The Sheriff's Department developed an Interfaith Advisory 
Council consisting of more than 300 rabbis, priests, imams, ministers, 
monks and faith leaders of all religions. In addition, the Sheriff's 
Department also developed a Muslim Community Affairs unit, the first of 
its kind in the Nation, staffed by Muslim-American deputy sheriffs.
    Moreover, the Sheriff's Department has ethnic advisory councils 
that are European, South Asian, Asian, Middle Eastern, Russian, and 
particularly Iranian and Muslims from various nations including 
Pakistan, Jordan, the Gulf States, Turkey, and Azerbaijan.

             MUSLIM-AMERICANS ARE CLEARLY AGAINST TERRORISM

    To further the effort of public safety, Muslim-American leaders 
within Los Angeles County formed a non-profit organization, the Muslim-
American Homeland Security Congress (MAHSC). Islamic organizations that 
contributed to this effort are the Islamic Shura Council which is an 
umbrella organization covering 70 mosques within Southern California; 
the Council of American-Islamic Relations (CAIR); the Muslim Public 
Affairs Council (MPAC); the Council of Pakistan-American Affairs 
(COPAA); Iranian-American Muslim Association of North America (IMAN); 
and various local mosques and Islamic centers.
    The MAHSC organization works closely with the Muslim Community 
Affairs Unit which consists of Arabic-speaking deputy sheriffs and key 
leaders of the Sheriff's Department. Together, we engage in community 
forums and participate in events to discuss their concerns with law 
enforcement. Some of the other functions of the Muslim Community 
Affairs unit include attending community events and functions, conduct 
facility tours to familiarize them with the Sheriff's Department 
functions, and train Sheriff's Department staff on cultural diversity 
issues relating to the Muslim American population.

              PROFESSIONAL INTERNATIONAL POLICE DIPLOMACY

    Los Angeles County Police agencies are building strong 
relationships with the police of Muslim, European, Asian, Central 
American, and Canadian countries.
    One major reality in the fight against terrorism is that Muslim 
communities are in the best position to discover extremist activities 
within the United States, as well as all countries where Muslims 
reside, worldwide. The trust-based relationships police develop with 
their respective communities will more often than not lead to the early 
detection of extremism.
    To further validate the strategy of international public police co-
dependence, the Sheriff's Department has embarked upon international 
police diplomacy efforts. The countries of focus, to date, are 
Pakistan, Turkey, Azerbaijan, Jordan, Israel, Qatar, Saudi Arabia, all 
Gulf States, Mexico, all Central American states, China, Taiwan, South 
Korea, France, Italy, Germany, Spain, Russia, The Netherlands, Canada, 
Morocco, Singapore, Armenia, and Great Britain.
    Simply, Los Angeles County, like the City of New York, is a capital 
of all the world's nationalities by heritage or birth. This resource of 
humanity is an asset in discovering extremist behavior.

                           INTERFAITH RESPECT

    Americans of faith will help when asked. The question of peaceful 
human co-existence, worldwide, cannot be fully answered without 
including the goodwill of all faiths to one another. At this time in 
our history, with billions of dollars being spent on a war against 
terror, our Nation should ask that all Americans follow President 
Obama's example and be the instrument of goodwill to Muslims throughout 
the world.
    It is my belief that the average American has the potential to be 
our best ambassador of goodwill. However, Senators, Members of 
Congress, Governors, mayors, boards of supervisors, sheriffs, police 
chiefs, scholars, scientists, and laborers and their leaders must set 
the example with a desire to visit mosques and communicate with 
Muslims, worldwide, in the quest of better understanding Islam. 
Extremists are what they are, but they cannot thrive or survive in a 
world that is not indifferent.
    Los Angeles County is not indifferent to the assets and virtues of 
the Muslim communities, locally and worldwide.

               HOMELAND SECURITY ADVISORY COUNCIL (HSAC)

    As a member of the Homeland Security Advisory Council, I would like 
to commend Department of Homeland Security Secretary Janet Napolitano 
on her initiative on countering violent extremism. I dedicate myself 
and the Los Angeles County Sheriff's Department to work with DHS to 
develop a program similar to that of the Sheriff Department's Muslim 
community outreach program on a National level.
   Attachment 1.--Los Angeles County Sheriff's Department Core Values
As a Leader in the Los Angeles County Sheriff's Department, I commit 
myself to honorably perform my duties with respect for the dignity of 
all people, integrity to do right and fight wrongs, wisdom to apply 
common sense and fairness in all I do and courage to stand against 
racism, sexism, anti-semitism, homophobia and bigotry in all its forms.

                         Attachment 2.--Letter

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Harman. Thank you, Sheriff Baca.
    Mr. Alomari.

 STATEMENT OF OMAR ALOMARI, COMMUNITY ENGAGEMENT OFFICER, OHIO 
        DEPARTMENT OF SAFETY, HOMELAND SECURITY DIVISION

    Mr. Alomari. Madam Chair, Honorable Ranking Member, thank 
you for inviting me today. It is really indeed an honor to be 
before you here.
    The Ohio Homeland Security established an office in 2005 
solely dedicated to community engagement. From the beginning, 
the office wasn't established as a community intelligence 
program, and for sure it wasn't meant to be an information-
gathering office.
    It is a program that aims at establishing a long-term 
relationship with citizens and residents of Ohio for the 
purpose of building proactive and strong communities, 
integrated, confident, and open, to reject extremism and 
violent ideologies that breed terrorism.
    Community engagement broadened the debate on how as a 
society we can respond to terrorism, at the same time enable 
first responders to be approachable, increases the public 
understanding of the Government's efforts to counter violent 
extremism.
    However, it has a broader perspective. It gives the public 
the opportunity to voice issues of interest and concerns that 
inspire citizens to make a difference and, most importantly, it 
humanizes law enforcement to the community and humanizes the 
community to law enforcement.
    This is a cultural capital that benefits all sides. Our 
work has been focused in three areas. One, building relations 
with civic, women, youth, and religious organizations. 
Consequently, we have been building regular town hall 
meetings--holding regular town hall meetings with organizations 
representing all groups.
    We have formed advisory councils, imams' councils, youth 
councils, and women councils. We work in tandem with these 
communities to invite representatives from private and public 
sectors to address all issues of concern and mutual questions.
    The second thing, we do research, publish, and put 
informational and educational material and literature to the 
communities and first responders. We produced a series of 
cultural guides--the one that I am holding in my hand here--and 
we are in the process of printing and posting two more cultural 
guides, one on Hispanic and Latino cultures, and one on 
American culture.
    We thought that a lot of communities' recent residents and 
refugees lack a lot of information on American culture and 
system, and we are writing to inform and educate the public as 
well.
    The third area we focus on is we offer training workshops, 
classes, and seminars on culture competency. Our office 
developed a comprehensive culture competency training program 
for law enforcement and other first responder agencies. We just 
completed training 3,000 Ohio State highway patrolmen, and we 
are working with different law enforcement agencies to do that.
    We have so many demands for the year 2010. The success or 
failure of our work is measured by the response we have been 
getting with law enforcement and the communities. For the most 
part, it has been extremely positive.
    I just want to emphasize that community engagement is not 
the answer or the solution to every security problem. It does 
not replace police work. However, it complements and enhances 
it, provides a new and effective tool for law enforcement to do 
their job effectively.
    In the last 8 years, security has become globalized and 
thus it requires a new look. It requires comprehensive view and 
multidimensional approach that is based on collaborative and 
cooperative efforts with law--between law enforcement and the 
communities.
    But there are a number of problems that we face to do our 
job effectively. One, there is a conceptual flaw regarding the 
quality of information the Government has been getting on 
cultures, religions, and the legacy of those communities. Most 
of the information we have been getting comes from media 
personalities and thus the quality of information been 
compromised. That definitely would affect decision-making.
    Second, culture information some law enforcement have been 
getting from agencies who really offer training in this area in 
the aftermath of 9/11--not based on research or facts but 
rather sensationalized and commercialized information. The 
training contradicts, in a way, what my office, our office, 
offer to law enforcement in Ohio.
    The third one is lack of financial support. Culture 
engagement is a new field for law enforcement, but we need more 
Government support to expand the work.
    I am a one-person office for the entire State of Ohio. My 
office would not have succeeded without the great support we 
have been getting from DHS Civil Rights and Civil Liberties 
Office and the other officials, of course, in the State of 
Ohio.
    Thank you so much.
    [The statement of Mr. Alomari follows:]

                   Prepared Statement of Omar Alomari
                             March 17, 2010

                               BACKGROUND

    Global terrorism had reached American shores in the early 1990's 
when terrorists attempted to destroy the World Trade Center. Having 
failed in their first attempt, they tried again and succeeded in 2001 
when on 9/11 terrorism claimed the lives of almost 3,000 innocent 
American citizens. Since then terrorism has become part of American 
lexicon. As the threat continues and as new realities arise, various 
steps should be taken to ensure the safety and security of citizens and 
the homeland. In the fight against terrorism the goal is to tackle the 
factors that contribute to extremism and radicalism which might lead to 
violence and terrorism.
    Minimizing the factors that contribute to radicalization of 
vulnerable individuals requires collaborative efforts between first 
responders, law enforcement, and citizen groups of all cultural 
backgrounds. Collaboration should be extensive and inclusive of all 
citizens utilizing consultation, participation, and recommendations. A 
frank and open debate should take place over extremism, violent 
extremism, and the role everyone has to play in fighting this war on 
one hand, and reducing the contributing factors to violent extremism on 
the other. Moreover, a conducive and empowering environment should be 
established for the purpose of achieving these goals.

                      COMMUNITY ENGAGEMENT OFFICE
                         OHIO HOMELAND SECURITY

    The Community Engagement office was born in 2005 out of a need to 
establish an outreach program to the whole community with a special 
focus to engage and consult with the Arab and Muslims communities 
because of the role they can play in the fight against terrorism and 
the violent ideologies that breed violence. The Ohio Department of 
Public Safety/Division of Homeland Security recognized the need to 
develop regular lines of communication for the purpose of engaging all 
communities to help achieve its mission.
Primary Objective
    To reach out, coordinate, and engage the diverse communities 
throughout the State of Ohio in the mission of Ohio Homeland Security 
and on matters of importance and concerns to both sides for the purpose 
of keeping Ohio and her citizens safe and secure.

             OHIO HOMELAND COMMUNITY ENGAGEMENT OFFICE MODEL
------------------------------------------------------------------------

------------------------------------------------------------------------
Primary Goal..............................  Establish trust and
                                             legitimacy between the law
                                             enforcement and the
                                             communities.
Emphasis..................................  Multilevel trust, genuine
                                             relationship between first
                                             responders and communities;
                                             empowering citizens to
                                             share information.
Approach..................................  Holding regular town hall
                                             meetings; open dialogue;
                                             advisory councils; imams'
                                             councils; participation in
                                             cultural events.
Community Engagement......................  Increase cultural awareness;
                                             education; media campaigns;
                                             forums; active liaisons.
Law Enforcement...........................  Increase in cultural
                                             competency, increase of
                                             communities' trust in first
                                             responders; form
                                             partnership with citizens.
Community input in preventing               As trust with first
 radicalization, and violent extremism.      responders increases,
                                             communities will invest in
                                             their security and the
                                             security the entire State.
Desired Outcome...........................  Communities' feel confident
                                             and comfortable in helping
                                             first responders in the
                                             fight against terrorism.
------------------------------------------------------------------------

Long-term Goals
    1. Form advising councils that represent our communities to help 
        build a society based on mutual respect, understanding, and 
        cooperation.

    2. Engage the community to become part of Homeland Security mission 
        of [sic]

    3. Prevention, protection, response, and recovery of acts of 
        terrorism.

    4. Present terrorism awareness programs to the community through 
        public speaking, workshops, and training and by engaging 
        schools and workplaces in both public and private sectors.

    5. Encourage State-wide cooperation and build partnerships within 
        the community and citizen groups.

    6. Participate in celebration and cultural events observed by our 
        diverse citizens and groups.

    7. Nurture a relationship of mutual respect between the community 
        and First Responders/Homeland Security.

    8. Hold regular meeting with the members of the community.

    9. Establish a task force representing community-based 
        organizations that include leadership of the largest spectrum 
        of society.

    10. Work as a bridge to promote harmony, cooperation, 
        understanding, and mutual respect among different religious and 
        cultural organization in the State of Ohio.

    11. Counter issues of stereotypes and profiling of communities like 
        the Arabs, Muslims, and Somalis.

    12. Establish direct lines of communications with the leaders of 
        the diverse groups.

    13. Create a working relationship with all mediums of communication 
        to provide accurate information regarding cultural competence.

    14. Offer training workshops to public employees regarding 
        diversity, cultural competence, and community engagement.

    15. Create a public speaking program that presents issues relate to 
        the goals of the office.

    16. Research, write, post, publish, and make available to first 
        responders literature on religious and cultural issues relate 
        to communities.
Action Plan
    1. Identify and list all cultural and religious organizations to 
        work with.

    2. Identify and list leadership within these organizations.

    3. Identify important members of these communities in private and 
        public sectors.

    4. Choose contact persons with the necessary background for 
        successful contacts.

    5. Contacts should be personal and slow in order to build trust in 
        mission and establish communication and working relationship.

    6. Engage the leadership in as many meetings as possible to keep 
        lines of communication open. Meetings' agendas should establish 
        major and specific matters that are important to both 
        Government and communities.

    7. Explain the mission of the office and the role they play in 
        working with homeland security.

    8. Elicit their input, cooperation, and consultation in OHS work.

    9. Coordinate and plan with community organizations to hold town 
        hall meetings in which the largest possible number of 
        communities attends to address their issues and concerns and 
        OHS issues and concerns. Meetings should include 
        representatives of various Governmental agencies and any agency 
        of relevance or importance to both sides.

    10. Formalize these councils in appointments and media 
        announcements.

    11. Councils should be divided into work groups to address issues 
        of interest.

    12. Councils should select members among them as contact persons 
        with 24 hours contact access.

    13. Attend meetings and cultural events celebrated by the 
        communities.

    14. Work closely with the communities to counter profiling and 
        stereotyping.

    15. Enable the communities to represent themselves and make their 
        voice heard when and where it's needed.

                             YOUTH LIAISON

    General goals.--To engage the youth in a multitude of programs and 
activities for the purpose of preventing violence and terrorism by 
promoting good citizens less vulnerable to extremism and fanaticism. 
The following are some steps Ohio Homeland Security is taking to help 
in achieving this goal. They focus on citizenry, service, and 
leadership:
    1. Engage Muslim youth in civic duties and provide them with a 
        sense of belonging to the larger community.

    2. Provide the youth with a voice in expressing and discussing 
        their issues and concerns.

    3. Provide support through coordinating with other youth and 
        service organizations to address issues not addressed by faith-
        based organizations.

    4. Establish leadership initiative to empower and activate 
        youngsters in political and cultural life. This initiative can 
        be achieved through organizing training programs and by 
        eliciting consultation of specialists in this field.

    5. Create awareness of good citizenry with focus on rights and 
        duties to confirm the concepts of ``natural rights,'' societal 
        obligation, and social contract.

    6. Engage the Arab/Muslim American communities in working with 
        youth.

    7. Engage the youth in discussing and debating ideologies of 
        cultural and religious extremism with focus on alternative 
        views and ramification of each possibility. OHS should develop 
        literature to serve this purpose. Literature should include 
        among other things mainstream Islam and its universal appeal.

    8. Establish a list of printed and digital sources with easy and 
        open access to serve the youth on a wider range of issues.

    9. Establish a hotline for youth as an empowering tool of 
        communication and participation.

    10. Provide educational and informational materials published by a 
        various educational organizations on youth in schools and 
        detention centers.

    11. Engage the youth in anti-drug campaigns and anti-gang 
        activities.

                             WOMEN LIAISON

    General Goals.--In the workplace and in popular culture, Arab/
Muslim American women seem to be either misrepresented or under-
represented. While women organizations can't be labeled as homogenous 
or monolithic, we recognize the importance of working with these groups 
for the important role they play in society and especially the 
youngsters. Their role as parents is very important in education and 
preparing good citizenry. We feel the need to empower women to be 
active participant in issues like health, employment, harassment, 
discrimination, racism, misogyny, domestic violence, and religious 
issues in a free format.

Action Plan
    1. Encourage women to participate in civic duties and public 
        service. OHLS should coordinate with workplace in public and 
        private sector to address sensitivity to faith-based 
        employment.

    2. Create women task force comprising of members of professional 
        women in both public and private sectors. This task force would 
        work as an example of success to the general population and as 
        a role model for Arab/Muslim American women.

    3. Support established women organizations and solicit their 
        participation in achieving Ohio Homeland Security's mission.

    4. Affirm equal opportunity employment for women of faith 
        especially when Islamic attire or prayer creates issues in the 
        workplace.

    5. Steer the establishment of issues-based women organizations to 
        attract the participation of Muslim/Arab American women so a 
        network of women's voices is heard.

    6. Encourage intellectual and cultural participation for women. 
        Ohio Homeland Security helps in providing women a podium for 
        public speaking, writing, and publishing.

    7. Work with Arab and Islamic organizations to provide educational 
        research on political, cultural, and religious issues. OHS 
        should create a dynamic forum to continuously engage women to 
        debate and discuss their issues.

    8. Create a manual detailing Muslim and Arab women past and present 
        contributions to world cultures and civilizations.

    9. Coordinate between Arab/Muslim women organizations and local, 
        National, and international women organizations for the purpose 
        of increasing the cooperation and connection with women 
        everywhere.

    10. Work with the popular media to enable women to express their 
        views and debate their issues in public forums.

    11. Create various printed and digital resources to inform, 
        communicate, and educate women on family, health, and maternal 
        issues.

    12. Facilitate societal awareness and help for women and families 
        who face social, cultural, or personal issues with no recourse.

             COMMUNITY ORGANIZATIONS AND LEADERSHIP LIAISON

    General Goals.--Recognizing the importance of communication and 
information, OHS works tirelessly to connect with and activate the 
Arab/Muslim communities throughout the State of Ohio to work closely 
with first responders to protect these communities in specific and the 
State of Ohio in general by creating effective security measures to 
prepare for and prevent terrorism. In the aftermath of 9/11, Arab and 
Muslim Americans came under scrutiny in the media, consequently, these 
communities became isolated, secluded, disconnected. Contacts with Arab 
and Muslim Americans were minimized. Working with community 
organizations and their leadership should re-connect Arab and Muslim 
Americans with society on one hand, and with first responders on the 
other. OHS will help in countering profiling, stereotyping, 
misconception, false information, and coordinate in providing accurate 
information on the cultures of these communities.
    The following steps are being used to achieve these goals:

Action Plan
    1. Establish continuous lines of communication with the leadership 
        of Arab/Muslim American organizations.

    2. Develop a list of contacts with the community for the purpose of 
        disseminating information as needed.

    3. Hold periodical and open town hall meeting to enable members of 
        these communities and the law enforcement to ask and answer 
        questions of concern to both sides.

    4. Form advisory councils with members representing the A/M 
        communities in all cities of Ohio. These councils should advise 
        and recommend to OHLS on matters of importance.

    5. Work with communities in providing the correct knowledge of 
        Islam and the Arabic culture by initiating educational 
        programs, seminars, workshops, and public speaking on these 
        issues.

    6. Advise and recommend to the school systems in Ohio on curriculum 
        and information regarding both the religion and the cultures of 
        the Middle East and other cultures.

    7. Encourage the communities to play an active in popular culture 
        as members of diverse communities with rights, duties, and 
        roles to play in American society.

    8. Work hard to minimize discrimination against Arab/Muslim 
        Americans in all sectors including employment.

    9. Generate an interfaith dialogue among the willing to develop 
        mutual respect, awareness, and understanding of all faiths. 
        This should be part of a general plan to promote harmony among 
        all communities including minorities and majority and how can 
        they relate to each other. Mosques should be encouraged to 
        extend themselves to the community through open house tours and 
        dialogues.

    10. Engage the Arab/Muslim communities in frank and productive 
        discussion on extremism and fanaticism.

    11. Develop a public campaign for the purpose of affirming the 
        cultural inclusiveness and the right of every American citizen 
        to ``belong'' to our society.

    12. Bridge the gap between Arab/Muslim American organizations and 
        other organizations by steering cooperation and close working 
        relationship between the diverse communities.

                        LAW ENFORCEMENT LIAISON

    OHS recognizes that Arab and Muslim American groups have great 
interest in a safer Ohio with proven support for a pluralistic society. 
Enabling first responders in Ohio to use all sources available to 
fight, prevent, and prepare for acts of terrorism, OHS should establish 
a dynamic connection with the diverse communities including Arab and 
Muslim Americans. The following steps are being used to achieve these 
goals:
    1. Familiarize the Arab/Muslim communities with law enforcement 
        work, mission, rights, and duties. Exchange of tours and face-
        to-face meetings between the two sides should ``humanize'' the 
        other and thus minimize misconception, stereotyping, and 
        profiling. The image of law enforcement in the Middle East is 
        very negative and many immigrants still have the same views 
        even though they live in the United States.

    2. Develop cultural and religious awareness seminars and workshops 
        to empower law enforcement with the correct information on do's 
        and taboos in world cultures.

    3. Coordinate with the law enforcement to develop informational 
        public events as needed in which representatives of all 
        agencies can educate the public and answer questions on law 
        enforcement.

    4. Develop and distribute educational materials to all law 
        enforcement agencies to help as a source on working with and 
        interacting with Arab and Muslim Americans.

    5. Coordinate with law enforcement to maintain a balance between 
        the fight against terrorism and the preservation of civil 
        liberties.

    6. Collaborate with colleges and universities to develop courses on 
        homeland security and certification to law officers throughout 
        the State of Ohio.

    7. Coordinate town hall meetings to enable law enforcement to be 
        part of panels to communicate issues and concerns to the Arab/
        Muslim American communities.

    8. Work as a liaison between the local mosques and law enforcement 
        agencies for the purpose of working with the mosques and 
        soliciting the help of imams in the fight against terrorism.

    9. Engage the American/Muslim groups and illicit their 
        participation and recommendation in the ways to fight 
        terrorism.

    10. Work with law enforcement and the media to counter negative 
        stereotypes of these communities.
 highlights of the work achieved by the community engagement office at 

                         OHIO HOMELAND SECURITY

    1. Built a strong relationship with Arab, Muslim, and Somali, 
        Hispanic, Latino, and Asian communities among others. This 
        relationship is manifested in regular contacts, dialogue, and 
        exchange of ideas.

    2. Formed Somali Imams' Advisory Group that opened the mosque to 
        our office and enabled us to engage the imams and the 
        congregants in regular discussion of issues of interest and 
        concern to both parties.

    3. Connected and still connecting first responders with critical 
        communities by involving them in our efforts. First responders' 
        representatives are always present in our town hall meetings 
        offering presentations and engage in a dialogue with members of 
        the communities.

    4. Conduct cultural competence training to first responders, 
        schools, and groups in public and private sectors. Our office 
        just completed training 3,000 members of the Ohio State Highway 
        Patrol. The same training was conducted for Police, Sheriffs, 
        Terrorism Liaison Officers, Fusion Centers, and public and 
        private schools. There is 100% increase in the number of 
        workshops requested for the year 2010.

    5. Researched, published, and posted cultural guides on Arab, 
        Muslim, and Somali cultures as a cultural reference to first 
        responders and the public. Two more guides are in print at the 
        present time, one on American culture and another one on 
        Hispanic/Latino cultures. Both will be published and posted on 
        our website: www.homelandsecurity.ohio.gov.

    6. Developed a good working relationship with Somali youth in Ohio. 
        A Somali youth forum is planned this year to tackle issues of 
        radicalization, violence, drugs, and gangs among members of the 
        ``lost generation'' in Central Ohio.

    7. Held first interfaith conference for faith-based organizations 
        in the State of Ohio to generate dialogue and mutual 
        understanding among people of all religious and spiritual 
        background.

                    BENEFITS OF COMMUNITY ENGAGEMENT

    1. Humanize law enforcement to the public and humanizes the public 
        to first responders.

    2. Enable law enforcement to explain their work and role in the 
        critical work. It also dispels a lot of misconceptions about 
        law enforcement and other first responders. It demystifies and 
        makes them approachable to the public.

    3. Inform the public on the Government's efforts to 
        counterterrorism.

    4. Allow the public to have an input in the debate.

    5. Empower communities to present their own issues without relying 
        on commercialized or sensationalized media information.

    6. Create an environment conducive to good citizenry; treats 
        citizens on equal footing and empowers communities to invest 
        heavily in their efforts to keep their communities safe and 
        secure.

 BENEFITS OF COMMUNITY ENGAGEMENT TO FIRST RESPONDERS AND THE COMMUNITY

    1. Effective tool for law enforcement to connect with various 
        communities, especially Arab/Muslim Americans and Somalis.

    2. Gives law enforcement a direct access to accurate and unfiltered 
        information on the culture of the groups they serve away from 
        the images established in the popular culture.

    3. Provides law enforcement and the communities an opportunity to 
        establish regular dialogue on issues of mutual interest.

    4. Empowers the communities to invest time, effort, and resources 
        in security matters.

    5. Enables the Government to bring on-board communities who 
        sometime feel excluded from the process or treated as 
        outsiders.

    6. Allows the communities to have an input in decision-making, and 
        partnering with first responders on critical issues like 
        security.

    7. Creates trust and confidence among the citizens to work closely 
        with first responders.

                 VALUE OF COMMUNITY ENGAGEMENT EFFORTS

    Community engagement doesn't replace the traditional law 
enforcement work. It complements and enhances it. It's another tool 
available to help advance their work. Investigative intelligence is 
still a very effective way to battle terrorism. However, communities 
that feel alienated or marginalized will be resentful and estranged 
from their citizenry. Proactive and engaging relationship with first 
responders will help build strong communities integrated, confident, 
open, and resistant to extremism and radicalism. What community 
engagement brings is trust-building and mutual respect between the 
communities and the first responders. It allows the Government to 
create an environment conducive to good citizenry and gives them a 
voice in the fight against terrorism.

    SOME MAJOR GAPS IN OUR CURRENT EFFORTS AND WAYS TO IMPROVE THEM

    1. There are two conceptual flaws that affect our work: One flaw is 
        the information we acquired on different communities like 
        Arabs, Muslims, and their cultures. A good deal of the 
        information came not from academic sources or reputable 
        research but rather from media personalities who for a 
        multitude of reasons commercialized and sensationalized these 
        cultures. Inaccurate knowledge and misconceptions created 
        mistrust and resentment to the Government's efforts to work 
        effectively with these communities. The other flaw is the 
        notion that there are no moderate Arabs or Muslims to trust or 
        to work with. Our experience shows otherwise. We have built 
        cooperation and collaboration with numerous Somali and other 
        Muslim communities throughout the State of Ohio. These flaws 
        can hinder the work or the direction the Government seeks to 
        fight terrorism and the ideologies that breed violence. We need 
        to have another look and seek accurate information on the 
        issues from independent sources, we also need to work with 
        these communities and consider them part of the solution by 
        empowering them to come on board and help us in this fight. 
        After all, these communities can exert tremendous influence in 
        their neighborhoods, and affect the debate on extremism and 
        violent ideologies.

    2. We need to develop cultural competency training for first 
        responders. One major problem we face in our work in Ohio is 
        the conflicting and confusing information first responders are 
        getting from agencies that surfaced the last 8 years. These 
        agencies present unreliable and un-researched information on 
        Arab and Muslim cultures through training workshops offered to 
        Government agencies. Many of these workshops contradict most of 
        what our office offer to law enforcement.

    3. We need to broaden our approach at this critical time in this 
        continuous war to include community engagement as an effective 
        tool for the Government to utilize all the resources available 
        including communities' efforts. Also, we need to learn from the 
        experience of other countries targeted by terrorism. Countries 
        like England made tremendous advances in its anti-terrorism 
        campaign by reaching out and engaging communities like British 
        Muslim citizens.

    4. We need to allocate financial recourses to enable law 
        enforcement to work with their respective communities. Ohio is 
        still the only State in the Nation that developed an office 
        solely dedicated to engaging and connecting with the 
        communities. To succeed in these efforts, first we need to 
        invest in this work, and second, we need to financially support 
        and sustain it.

    Ms. Harman. Thank you very much.
    Thank you to all the witnesses for staying within the 5-
minute limit. It is now time for committee questions, and you 
can see we have quite robust attendance, so we will stick 
strictly to our own 5-minute limit.
    I will begin by yielding myself 5 minutes.
    It won't surprise anyone on this committee or at the 
witness table or in the audience that this subcommittee has 
been criticized and is again criticized today for the way we 
put on these hearings.
    We try very hard, I would just say to all of you, to have a 
diverse witness panel--we have a panel following you; I think 
you all know this--and to be careful that we are reflecting the 
many diverse views that exist in our country.
    One of the criticisms today says that the committee is 
seeking input from a narrow viewpoint, one that is sympathetic 
to Islamist extremist organizations here in America.
    Well, I will state my own view. That is not my own view. I 
am not sympathetic to extremist organizations in America. I am 
very sympathetic to strategies of outreach that do two things, 
No. 1, build public trust, and No. 2, get that public to come 
forward and help us find bad elements in communities.
    Those bad elements will harm us. I am not sympathetic to 
the bad elements. But I think without building public trust, as 
Sheriff Baca said, we are not going to find the keys to 
preventing and disrupting plots against us.
    Does anyone disagree with that?
    Sheriff Baca. No.
    Mr. Hovington. No, fully agree.
    Mr. Alomari. All agree.
    Ms. Harman. All agree. Okay.
    The second point I would make is that as the witnesses in 
prior hearings have said, extreme views are protected by our 
Constitution. We are not talking about extreme views. We are 
not talking about so-called radicals either on the left or the 
right of the spectrum.
    We are talking about people who intend to engage in violent 
behavior. Behavior is not protected--violent behavior--by our 
Constitution. Only the possession of extreme views is protected 
under our First Amendment.
    So I am not seeking politically correct language, but I am 
trying to articulate, perhaps inarticulately, my view that we 
are talking about violent behavior. Does anyone disagree with 
that?
    Mr. Hovington. No.
    Sheriff Baca. No.
    Ms. Harman. Okay. So Let me ask you about the effectiveness 
of what you are doing. You all have described what you are 
doing.
    Could each of you tell me, just quickly, going down the 
row--give me an example of something you have prevented by the 
strategies that you are using, if you can do that, or something 
you have intercepted by the strategies that you are using?
    Let's start at the left.
    Ms. Schlanger. My office is a civil rights office, and we 
are not in the business of developing sources and leads. What 
we think of ourselves as contributing to this--and I think we 
have been effective at that--is building an infrastructure of 
communication where we are building trust.
    So I am not going to be able to give you--if there has been 
leads that have come out of our engagement efforts, they don't 
come to me, and I can't--I can't tell you about them.
    What I can tell you is that we bring a lot of people 
together who didn't know each other before, and they do a lot 
of talking to each other that didn't happen before. That 
happens in all of the communities that we go in. It is what we 
are about.
    Ms. Harman. Is it fair to say that that talking to each 
other leads to the building of trust, which leads to the 
ability to come forward----
    Ms. Schlanger. I----
    Ms. Harman [continuing]. To you or others, perhaps more at 
the local level?
    Ms. Schlanger. Yes. I think it is fair to say that. I want 
to say also that we--what we try to do is demonstrate the fact 
that we are collaborative actors in the homeland security 
enterprise. So that is a really important thing for us.
    We care about those concerns that get expressed. We bring 
them back, because we are, in fact, collaborating to protect 
America.
    Ms. Harman. Let me just stress the last thing and then go 
down the line. We are all trying to protect America. This is 
not just a feel-good exercise. This is an exercise in 
protecting America.
    Mr. Hovington.
    Mr. Hovington. Yes, with respect to what the FBI has done--
with respect to what the FBI has done, we have established a 
community outreach team comprised of special agents, analysts, 
community outreach specialists, and personnel with language and 
other specialized skills to really reach out and understand how 
to engage the communities, because the vast communities that we 
engage with have various dynamics that you have to really 
understand and be able to relate to.
    Ms. Harman. But the question is: Have you been effective? 
Has someone come forward? Have you prevented some harm to 
America?
    Mr. Hovington. Right. What this specialized team did was 
actually go out, meet with the Somali American community, and 
the incident that I am talking about--there was an inaugural 
threat--that we were able to reach back into the community 
because we built these relationships within the community.
    We were able to make a phone call, put together a group of 
individuals from within the community, and ask for their 
assistance and advise them of what some of our efforts were 
doing, from an investigative standpoint.
    Ms. Harman. Thank you. As I recall, that threat, which many 
of us were briefed on at the time, turned out not to be 
credible after the fact, but certainly there was real 
information to believe that something might have happened. Is 
that correct?
    Mr. Hovington. That is correct.
    Ms. Harman. Sheriff Baca.
    Sheriff Baca. Well, first of all, thank you for the 
question. There is a confidentiality part in the answer to any 
of these questions, when you say, ``Well, what specifically 
have you ferreted out and how did you do this?''
    Ms. Harman. Well, you could describe it generally.
    Sheriff Baca. Okay. What we essentially believe--and this 
is really important to hear--intelligence gathering in itself 
on a domestic level is still an emerging reality. It is not 
something that has made its case entirely, and I don't think 
the theories of intelligence are clear enough, even on the 
Federal level, vis-a-vis the local level.
    Having said that the Joint Regional Intelligence Center 
that we have is proactive. The LAPD and Sheriff's department 
have counterterrorism units. We are ferreting out a lot of 
different cases. We have had over 450 cases that have evolved 
from sources within the community.
    I don't want to attribute them to any one aspect of the 
society.
    Ms. Harman. Okay.
    Sheriff Baca. But I will say this, that the theories of 
information gathering versus intelligence gathering is 
predicated on how well you have a relationship with potential 
sources. That is part of this testimony here, that we believe 
that a safe Muslim society is a participatory Muslim society.
    Through the participation, I can assure you that the 
channels of--like the father of Abdulmutallab--are going to 
happen, and they have happened. The problem is we are not going 
to sit here and tell you where, when, and how.
    Ms. Harman. I appreciate that.
    I have run over my time, so I don't mean to be rude.
    Mr. Alomari----
    Mr. Alomari. Yes, Madam----
    Ms. Harman [continuing]. Very briefly?
    Mr. Alomari. Yes, Madam Chair, there is a couple things I 
could say. Although I said that our office really is not 
information-gathering or intelligence-gathering, nonetheless 
homeland security work obviously is to connect the communities 
with first responders and law enforcement.
    One of the things we did very effectively is really to 
build a strong relationship with the mosques. Now we have been 
holding regular town hall meetings with the imams and the 
mosque, and we connect them with law enforcement. As a result 
of that, there is this collaborative and cooperative effort.
    The second thing, really, we are focusing on the Somali 
youth in Ohio based on what happened in Minnesota. We really 
inspired the community, really, to work with us and tackle the 
issues as a preventive measure, and there is a lot of programs 
we are really working with----
    Ms. Harman. Thank you. Thank you very much.
    I apologize to my colleagues for running over my time.
    I now yield 5 minutes to Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chair.
    The National Intelligence Estimate came out with a report 
stating that the most effective weapon we have in the war on 
terror is the moderate Muslim. I think that is true both 
overseas and here in the United States.
    Before I ran for Congress, I was chief of the 
counterterrorism section in the U.S. Attorney's Office in 
Texas, and that was not too long after 9/11. Part of our 
strategy was to reach out to the Muslim community and talk to 
them.
    What I would like to know--and working with the Joint 
Terrorism Task Forces--what I would like to know from--
particularly from the--Agent Hovington and Ms. Schlanger, and 
the sheriff as well, what connection do you have at all with 
the Joint Terrorism Task Forces today?
    Mr. Hovington. There is a separation between--within the 
FBI--our operational side of the house and our community 
engagement side of the house. But we still have to have a 
working relationship, because our engagement efforts have to 
really focus on the overall mission of the FBI.
    It is important where we have operations on the ground and 
we are impacting the community--the transparency that is needed 
and the relationships that is needed that go back into a 
community or to explain to the community from an education and 
awareness standpoint what our mission is, and that is very 
important.
    So we do work with our Joint Terrorism Task Forces, in 
particular in our field offices, but there is a separation. I 
just want to make sure that that is clear as well.
    Mr. McCaul. Okay. Following up on the Chair's question, 
have you--any of you had a lead come out through community 
outreach which was then forwarded to the JTTFs for a potential 
investigation?
    Sheriff Baca. Yes. Yes, the Joint Regional Intelligence 
Center that was set up by Chief Bratton and myself is an all-
source fusion center where we have representatives from 
airports, sea ports, key targeted areas, and Government, and in 
that organization an FBI agent is the head.
    Also, the Joint Terrorism Task Force question--I have 
deputized and Federalized deputies in that task force, as does 
the Los Angeles Police Department, and in the Joint Regional 
Intelligence Center, which is the field side of what we are 
doing below JTTF, we have a secret unit in there that literally 
has JTTF people hooking into the Federal sourcing.
    So the key is if anyone were to describe what we do in Los 
Angeles with cooperation, we, I think, are the epitome of 
Federal and local cooperation with all agencies.
    Mr. McCaul. Well, Sheriff, it sounds like you don't have 
that sort of wall separation that, say, the bureau and----
    Sheriff Baca. Not at all.
    Mr. McCaul [continuing]. The agencies have.
    Sheriff Baca. It is phenomenal that the----
    Mr. McCaul. Yes.
    Sheriff Baca [continuing]. FBI sent tremendous directors 
historically to L.A.'s office, and I can say that they don't 
hold anything back.
    Mr. McCaul. I think that is--and I think that is a good 
model.
    The question the Chair asked as well, an example of a 
terror plot that has been thwarted through community outreach--
you mentioned the inauguration. Are there any other specific 
terror plots that have been disrupted?
    Mr. Hovington. Not that I could discuss at this time.
    Mr. McCaul. Okay. No, I will take--perhaps in another forum 
we could discuss that.
    There were several warning signs in the Hasan case, and I 
will--with the limited time I have--which occurred just north 
of my district at Fort Hood, whether it was talking to the 
radical cleric in Yemen, whether it was business cards saying 
he is a soldier of Allah, whether it was his allegiances to the 
Koran, not the Constitution.
    His colleagues and his classmates saw a sort of 
radicalization process taking place, and yet it seems that this 
was never reported. I think if we are talking about community 
outreach or getting people to speak up--I mean, there were a 
lot of flags along the way in the Hasan case where this 
potentially could have been prevented or disrupted. 
Unfortunately, that didn't happen.
    Can anyone on the panel take on the question of, you know, 
how can we prevent something like that in the future and get 
people that know this radical behavior--get them to step up and 
talk to law enforcement about that?
    Sheriff Baca. Let me say an example. In one of the mosques 
in Los Angeles, right after 9/11, myself and other officials 
were in the mosque, and I was reading a Koran, and a young man 
walked up to me, and he looked at me, and he says, ``You are 
forbidden to touch the Koran.'' I said, ``Well, since I can't 
touch the Koran by your standard, why don't you open up the 
cover?'' In it was the imam of the mosque writing this message 
to me about the Koran.
    I said, ``You know, it is guys like you that are jerks that 
are causing the bad reputation for people who come here to 
pray. You ought to be ashamed of yourself.'' He walked out of 
there.
    Now, the key to stopping radicalism is you have to confront 
it, even if it manifests itself in just a simple little act 
like this. You know, the concept of intervention and prevention 
is not that they bought all the tools of the terrorist act but 
that you challenge their thinking at the point when the 
thinking was emerging.
    That is not quantified in intelligence reports. I have 
always said, and I have said it to the administration, the 
Obama administration, don't just tell in intelligence reports 
what the threats are, tell us what the resources are around the 
threat that we could rely on instead of throwing cops into the 
fray or military into the fray.
    We have to come up with a more sophisticated response, and 
direct confrontation and revelation is the best.
    The other is the Lodi case, where the FBI sprung the 
Pakistani father and son that went to Pakistan, got 
radicalized, came back to Lodi, a farming community, and they 
just blew the lid on these guys.
    The biggest fear that terrorists have is to reveal that 
they are leaning in that direction. Once that happens, they are 
dead to the cause. I think a lot of that is not discussed in 
some of the literature.
    Mr. McCaul. Thank you, Sheriff.
    I yield back.
    Ms. Harman. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chair. I agree, 
this is an excellent panel.
    Ms. Schlanger, one of the challenges your predecessors had 
to deal with is somehow making your office more than an 
afterthought. I trust you have been empowered by the Secretary 
to be part of the entire engagement of DHS before policies are 
developed and not have to react after they have been 
implemented.
    Ms. Schlanger. Chairman Thompson, I thank you for the 
support of our office.
    Yes, I feel very much supported by the Secretary to be 
where I need to be and my staff as well, since I am only one 
person--for us to be where we need to be and do what we need to 
do to make sure that the Department carries out its statutory 
mission of securing the Nation without diminishing the civil 
rights and civil liberties of Americans.
    Mr. Thompson. Thank you. The other question for our other 
three witnesses is to not just limit this notion of terrorism 
to the Muslim community. I am a southerner. We have a number of 
homegrown terrorists in my neck of the woods. Most of them are 
called Klansmen.
    I want to make sure that when we look at this whole issue 
of terrorism that we look at it in its totality and not just 
focus on a particular group of individuals in this country. 
What I would like to have is each representative kind of give 
me the broader view of your operation with respect to this 
whole notion of homegrown terrorism.
    Ms. Schlanger. We are very much interested in engaging with 
all of the communities that have concerns and issues with DHS 
activities and with domestic--with the--with the homeland 
security policies as they go forward. That is the way we focus 
our engagement activities.
    We try very hard to be a resource and available to talk to 
any of those communities that have those kinds of interests.
    Now, we don't do work with the Klan. We don't do work with 
any terrorist organization. That is not what our engagement 
activities are about. I know you know that. I just want to say 
it.
    We work with the community leaders who can be our partners 
in collaborating against that kind of thing, rather than trying 
to engage with people who have crossed over the line into 
violent extremism and persuade them to change their ways. That 
is just not what my office does.
    But we work hard with communities of all ethnicities, 
races, religions, to try to deal with their concerns about 
homeland security policy.
    Mr. Hovington. It is very important to make sure that we 
engage with a number of different communities, because 
terrorism really is just fear, and that fear comes in different 
shapes, forms, and fashion depending on what environment that 
you are--that you are looking at.
    So whether you are talking about gang activity, whether you 
are talking about Klan activity, the bottom line--it is 
terrorism. That is one of the things I--we do at the FBI. We 
take a look at the various communities.
    I would say it is a customized outreach program. What I 
mean by that is we have 56 FBI field offices that serve, again, 
across this country, and they have to tailor their outreach 
efforts based on the demographics of the area of 
responsibilities that they serve. That is the only effective 
way to do engagement, because there is not one shoe fits all.
    So it takes into consideration exactly, Chairman Thompson, 
what you said about being from the South. Our southern offices 
have to take a look at what is terrorism and what is considered 
terrorism in the South or in a urban city.
    Sheriff Baca. I think your question is an important 
question. I think that those of us in law enforcement are 
required to uphold the highest standards of our Constitution 
and our Bill of Rights, civil rights and human rights.
    In the sheriff's core values, and everyone remembers it by 
heart, we are against all forms of racism, sexism, anti-
Semitism, homophobia, and bigotry in all its forms. This is not 
a thing where we can allow any sympathies that deal in the 
extreme either way.
    Really, just harmony is one of the key elements of what we 
are trying to achieve, as well as interethnic and interracial 
harmony in Los Angeles. Because we are every nation there in 
this population, we are trying to set the bar higher to assure 
civil rights are respected.
    Mr. Thompson. Thank you.
    Mr. Alomari. From the beginning, Congressman, we really 
realized that terrorism is terrorism regardless of the 
terrorist, regardless who is the victim. That is really what we 
carried in our mission at Ohio Homeland Security.
    Not only that, we went one step further. In working with 
the fusion center or the FBI or other first responders, we 
really--in their outreach efforts, in their presentations, we 
work with them closely just to include all the groups.
    In our culture competency training program--and I will be 
more than happy to share it with you--really we have a whole 
section really dedicated to all groups that really espouse all 
these views.
    Mr. Thompson. Thank you.
    I yield back, Madam Chair.
    Ms. Harman. Thank you, Mr. Chairman.
    There are three votes on the floor and 8--almost 9 minutes 
left on the first vote. But most people have not yet voted, so 
we will keep this going for a while.
    I would just observe one thing in response to this. I think 
we would all agree that outreach to communities needs to be 
diverse, and I applaud you all for diverse outreach.
    But it is also certainly accurate to say that much of the 
recent--many of the recent arrests and the attempts at acts on 
our homeland have come from Muslims. That doesn't mean that the 
Muslim community is a problem, but it does mean that some 
members of the Muslim community are a problem and are potential 
terrorists. I am not shying away from saying that. I just want 
to be clear personally.
    Mr. Souder.
    Mr. Souder. Thank you.
    I may be in a slightly unique position on the panel. 
Somehow I have four primary opponents who think I am too 
liberal, one of whom is a----
    Mr. Thompson. If the gentleman will yield, I will be a 
witness that you are not.
    [Laughter.]
    Mr. Souder [continuing]. One of the----
    Ms. Harman. I was going to agree with them.
    [Laughter.]
    Mr. Souder. One of them is a former KKK white supremacist 
activist who has declared. I also have a--my campaign--longtime 
campaign chairman, Zohrab Tazian, is Armenian and has faced, as 
an Arab American, discrimination. It is not that I don't 
understand the basic premise that my--I believe that without 
contacts with the more moderate community we will not know 
who--I don't know who is in the mosque who is--who is radical. 
I believe that is the case.
    Now, here is where we really drill down. Are Hamas and 
Hezbollah terrorist organizations? Because almost all--or a 
high percentage of Middle Eastern countries have their stated 
goal as the destruction of Israel. Hamas and Hezbollah are huge 
organizations that are devoted to that.
    It is not just about whether somebody is a terrorist. It is 
also whether they fund terrorists. It is whether they are 
aiding and abetting and encouraging people to go become 
terrorists.
    We then move into a very difficult question of protected 
speech. Clearly, while there is protected speech, at some point 
in this debate there is a substantial difference between 
protected speech and Government officials going to fundraisers 
for organizations that do speech that is radical.
    Sheriff Baca, you have been 10 times to the fundraisers for 
the Council on American Islamic Relations, which even the FBI 
has separated themselves from.
    Sheriff Baca. I will be there 10 more times----
    Mr. Souder. They have been cited by one FBI agent at least 
as a front for Hamas. The question is: At what point do you 
start giving legitimacy to organizations that fund Hamas?
    Now, in the Ohio Department of Homeland Security, that 
organization is one of seven listed who have either had ties to 
the Muslim Brotherhood or have been--used extremist rhetoric.
    In your brochure, you specifically list the Hamas positions 
on the occupation of--Israel's occupation and oppression of 
Palestinians. You cite U.S. support for Israel. You cite the 
U.S. invasion and occupation of Muslim lands and support for 
oppressive regimes as arguments why people develop radicalism.
    But by putting those down without the counter arguments 
that you, in fact, then start to fuel whether our tax dollars 
and a lot of people's tax dollars are, in fact, giving 
credibility to these organizations by listing them, by listing 
their arguments--that you, in effect, undermine moderate 
Muslims who stand up against those organizations.
    I would like to hear both of your explanations.
    Sheriff Baca. Well, I would like to see the brochure. I 
think your accusation is not only false----
    Mr. Souder. That wasn't yours. That was Ohio's.
    Sheriff Baca. Well, you said it was mine----
    Mr. Souder. No, no. I said you went to 10 fundraisers, and 
I said----
    Sheriff Baca. No, but you just said----
    Mr. Souder. No, I did not. I said----
    Sheriff Baca. I heard you.
    Mr. Souder [continuing]. The Ohio Department of----
    Sheriff Baca. Sir----
    Mr. Souder [continuing]. Homeland Security.
    Sheriff Baca [continuing]. Dialogue here, I heard what you 
said. Now, I am an elected official, too, okay?
    Mr. Souder. The tape will show I said Ohio Department of 
Homeland Security did a brochure.
    Sheriff Baca. Well, who are you attacking, me or him?
    Mr. Souder. Both.
    Sheriff Baca. Well, sir, let me say this.
    Mr. Souder. For different reasons.
    Sheriff Baca. I understand your fears better than you 
probably do. I have been in public office for 12 years and I 
have been in law enforcement for 45. I object to your 
characterization of me.
    Attacking people personally in public office is what--the 
very thing that helps spur radicalism, because it defeats the 
strategies that you weren't listening to earlier because you 
didn't come on time.
    Mr. Souder. I was here at the very beginning, sir.
    Sheriff Baca. All right. Well, then you heard what I said. 
Listen to what I say, and if you don't like it, then we can 
talk about it. But don't falsely accuse me of supporting--I 
have been to Israel more times than perhaps you have, so----
    Mr. Souder. I asked you: ``Did you go to 10 fundraisers?'' 
and you said, ``Yes.''
    Sheriff Baca. Let me tell you what I want to tell you, 
since you told me what you want to tell me. I am not afraid of 
what you are saying. I have been to Israel more times than you 
have. I was in Gaza when the incursion into the Gaza activity 
that the Israelis got into--I was there.
    Mr. Souder. Reclaiming my time----
    Sheriff Baca. Where were you----
    Mr. Souder. It is my time.
    Sheriff Baca. Where were you----
    Mr. Souder. It is my time, not your time.
    Sheriff Baca [continuing]. Support Israel----
    Mr. Souder. Madam Chair----
    Ms. Harman. Yes.
    Mr. Souder [continuing]. It is my time.
    Ms. Harman. Mr. Souder, I----
    Sheriff Baca. Where were you----
    Ms. Harman. Excuse me. I would like the witness to have a 
chance to respond, and then I will give you extra time----
    Mr. Souder. Okay.
    Ms. Harman [continuing]. To respond to him.
    Sheriff Baca. Where were you when Israel needed an ally in 
local law enforcement? I was there. The security of Israel has 
always been at the forefront of my thinking. For you to 
associate me somehow through some circuitous attack on CAIR is 
not only inappropriate, it is un-American.
    I served in the United States Marine Corps. I put my life 
on the line for people to do what you just did to me. But I am 
not going to let you do that here. My record is clear. CAIR is 
not a terrorist-supporting organization. That is my experience. 
That is my interaction.
    If you want to promote that, you are on your own.
    Ms. Harman. Let me let the Ohio witness respond to the 
comments about his brochure, and we do have a vote on following 
that. Mr. Souder, if you would like to say something briefly, 
that is fine, and then we will recess for the three votes.
    Mr. Alomari. Yes, I really would like to see the brochures 
in front of me, because I really don't think that--there was a 
lot of inaccuracies that were stated here.
    But I just want to say that in our brochures when we said--
we're trying to explain, as a matter of fact, so many things of 
what they say, and we are very careful to say they cite these 
reasons as to. There was no way that we mention Hamas, as a 
matter of fact, in these brochures you alluded to, Congressman.
    But we wrote about radicalism. We wrote about radical 
Muslim groups, and we explain that. So we definitely feel that 
we are balanced in presenting both issues. Under no 
circumstances we are sympathizers to any group.
    Ms. Harman. Let me suggest, Mr. Souder, that you provide 
that brochure for the record so that we can all see it.
    Mr. Souder. I would be happy to provide the brochure.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Ms. Harman. Would you like to respond?
    Mr. Souder. Yes. I made a very precise--and by the way, 
when a Member is questioning, it is his time, not the witness's 
time. They already had their chance, and they need to 
understand that.
    Now, No. 1, I did not try to tie Mr. Baca, Sheriff Baca, to 
anything other than attending 10 fundraisers. Clearly, we 
disagree on CAIR.
    I do not question your patriotism. I do not question your 
goal here. I question the strategy of going to an organization 
that we disagree about. I was not trying to circuitously tie 
you to Ohio.
    In Ohio, I did not say that you don't mention that these 
were the arguments that fuel radicalism. My question was much 
more precise and much more nuanced, and that is when you state 
what reasons they have without countering in the same brochure 
the counter arguments, you fuel and use the funds and power of 
a Government to basically give legitimacy to what are, in fact, 
the positions of Hamas, whether you said it or not.
    It is a nuanced argument. I think it is an important 
argument because what we have seen Europe do--and what we are 
concerned about the United States--in such a desperation to try 
to get legitimate information to basically throw Israel under 
the bus and--and start to not understand that Hamas and 
Hezbollah are increasingly connecting to other organizations.
    Ms. Harman. Thank you, Mr. Souder.
    We will recess for the duration of the votes.
    I would just like to say, as the Chair of this 
subcommittee, that it is my intention to be respectful to all 
the Members on this panel but also to be respectful to all the 
witnesses. Questioning is intended to engage you in a dialogue, 
speaking for me, and I would hope we could keep it in that--in 
that vein.
    These are tough issues. We all understand that. We are 
under lots of criticism all the time from outsiders who think 
we don't do these hearings right. But it is certainly my 
intention to have balanced hearings and air the tough issues.
    To the Members, we are going to try to put on a hearing 
about the internet and its role in fomenting violent extremist 
behavior. That is very controversial, but we are going to try 
to tackle it because it is out there and it is necessary.
    Thank you. The Ranking Member just said good. So everybody 
take a deep breath. We will be back for more questions. I thank 
you again for your participation.
    [Recess.]
    Ms. Harman. We will now recess--reconvene the hearing. 
Thank you all. Apologies for the House schedule.
    Mr. Dent is now--of Pennsylvania is now recognized for 5 
minutes of questions.
    Mr. Dent. Thank you, Madam Chair. Thanks for conducting 
this hearing.
    Last week I, along with the rest of the world, was informed 
that the FBI was holding a Caucasian American woman since 
October on four felony counts, including conspiracy to kill in 
a foreign country and providing material support to terrorists. 
As you know, the woman I am referring to is Colleen LaRose, a/
k/a ``Jihad Jane.''
    I was even more shocked when I learned that she actually 
lived just a few blocks from my district office on Main Street 
in the quaint front-porch town of Pennsburg. That is a really 
lovely community--Norman Rockwell, wonderful place. That is 
where ``Jihad Jane'' is from, Pennsburg.
    In fact, my sister lives right in that area, close by, 
Pennsburg mail address. Never would I have imagined that 
homegrown terrorism was lurking literally in my family's 
backyard.
    Let me state for the record that I am grateful for the 
tremendous job done by the FBI's Joint Terrorism Task Force in 
Philadelphia, as well as the invested residents in the 
surrounding community.
    I had the opportunity for a further briefing during my 
visit to the JTTF last Friday, and I certainly want to thank 
the FBI for making that opportunity available to me.
    Ms. LaRose was picked up largely because concerned citizens 
saw a YouTube video she posted on the internet and reported it 
to authorities. You know, once again, it was--a concerned, 
alert citizenry was our best defense in a situation like this.
    I also learned that--we all learned that another woman, 
Jamie Ramirez, a blond Caucasian mother from Colorado, was 
arrested in Ireland in connection with the ``Jihad Jane'' plot. 
She, too, was essentially radicalized over the internet, 
converted to Islam, and began posting messages on her Facebook 
profile page.
    So my questions are really simple. You know, No. 1, how 
does this happen? How do we stop it? I mean, that is really the 
issue. How do we balance the overwhelming desire to have a--a 
free and open internet against the threat of radicalization and 
homegrown terrorism? So I would like each of you to maybe 
comment on that.
    I think we all recognize the internet is a tool that is 
being used by terrorists to communicate, to recruit, to plan, 
to plot, to prepare, to train, and to--and to execute terror 
plots. So I would be curious to hear your comments.
    Mr. Hovington. Thank you. That is a major challenge for us. 
Again, the internet being a very open environment--and of 
course, a lot of it falling over from universities that operate 
in that type of open environment.
    It is a challenge to identify a lone wolf, and that is one 
of the biggest challenge that we face, and almost, I would say 
next to impossible without the help of communities and citizens 
that stand up and identify individuals.
    I think that is why it is also very important, in some of 
the earlier conversations that we had--is to emphasize 
community engagement is really about engaging ordinary people. 
It is about taking our 56 FBI field offices that have community 
outreach programs and making sure that they are reaching at the 
grassroots level.
    National type organizations are great. They are contacts 
that we should maintain contact with to receive information or 
if--anything that they report from the constituents that they 
have.
    But I think effective outreach has to really go to the 
arena of individuals identifying and being able to pick up the 
phone and calling the FBI or calling the State or local 
municipalities to report something that they just feel 
uncomfortable with.
    That is only going to come through building meaningful 
partnerships and relationships that are built on transparency 
and understanding.
    Sheriff Baca. Yes, it is a very important question. I think 
that, you know, our Joint Regional Intelligence Center and 
other intelligence-gathering mechanisms--we are surfing the net 
all the time.
    The question about this woman--you know, the 
characterization of what a terrorist is is something that we 
really need to spend a little more time on. My point of this--
there are screwballs everywhere and that there are people who 
are attracted to something for reasons that are almost 
inexplicable.
    Every faith has had these kinds of people, including those 
that want to be a part of something they believe is a faith 
effort. It is very important in terms of just how we discuss 
the issues of fighting terrorism to not drag a religion into 
the acts of what human beings do.
    Religion has its own purpose and terrorism is not one of 
them. This woman somehow got into this mindset but clearly, I 
see it like the medical doctor at Fort Hood. He is a screwball. 
You know, he lost his brains. I don't think that anyone would 
disagree with that, that human minds are fragile.
    So we surf the net. We have a decision to make whether you 
want to keep the chatter going or cut it off. What is amazing 
about technology, since America is a forefront leader on it, is 
that the servers for all these internets are coming out of our 
Nation. If we want to shut them off, all we have to do is call 
the company and say, ``By the way, you have got an issue 
here,'' and they will--they will cut them off.
    But the question is: Should we cut it off? Then what do you 
do with it once you know that it is a possible threat?
    Mr. Alomari. Thank you, Congressman. I think this is a 
really wonderful question. I really think that the internet is 
one of the most dangerous tools, obviously, to recruit people. 
But I think it is clear that many of these websites that we 
see, obviously, they promulgate different views which attracts 
a lot of folks.
    One thing is missing in the picture, in my estimate, which 
I mentioned earlier should be part of a comprehensive view, you 
know, to the issue of terrorism, and that is really to empower 
Muslim communities to counter the ideas and ideologies that we 
see on the internet, at least all these unanswered ideologies 
that we see on the internet.
    They often are unanswered. In Ohio, for instance, we really 
have a couple of meetings in which we discussed, for instance, 
the recent fatwa issued by Sheikh ul-Qadri who really condemned 
suicide bombing and violence and terrorism.
    I think the Government should do a better job, really, to 
connect with a lot of Muslim leaders and organizations to help 
us really in this fight. There is a conceptual flaw that there 
are no moderate Muslims there, and I really believe that there 
are many of them.
    Ms. Schlanger. I don't know if--since the time is out if 
you want to hear from me or not.
    Ms. Harman. We would be happy to hear from you.
    Ms. Schlanger. Thank you, Madam Chair. One of the things 
that we work very hard to do is cultural competency training 
for local and State law enforcement. I think the reason that 
that belongs in this mix is because it allows--an appropriately 
trained law enforcement agent can distinguish between what is 
concerning and what is not.
    So we try to be a part of that mix. But I want to agree 
that it is--it is our community partners who can be reliably 
informed by engagement efforts and empowered by them who really 
bear the responsibility to counter radical ideology, because as 
the Chair started us off saying, the Government has a business 
with violence, not with non--not with nonviolent radicalism.
    Ms. Harman. Thank you, Mr. Dent.
    The Chair now recognizes Ms. Clarke for 5 minutes.
    Ms. Clarke. Thank you, Madam Chair. I want to thank you for 
such a--such a very interesting hearing today.
    I am from New York, and so all of what has been stated here 
today really resonates with me. We are challenged in New York 
City with having such a very dense and diverse population, and 
how we communicate as New Yorkers to be able to uncover those 
amongst us who may seek to do us harm is always a challenge.
    We have been fortunate that a number of community and 
civic-minded individuals have stepped up to the cause. Comes to 
mind a woman named Ms. Devorah Halberstam, and I don't know if 
any of you have heard of her, but in 1994 her son was killed in 
a--an attack, a terrorist attack, on the Brooklyn Bridge.
    Ever since his death, she committed her life--and has been 
honored by New York's FBI and will be honored here in 
Washington, so much so that she was able to have a law passed 
in New York State addressing comprehensive gun control laws for 
the State of New York.
    That is the type of activism that, unfortunately, an 
incident brings about but I think begins to open up the 
community to more dialogue around how we want to communicate 
with each other and find those who may be homegrown and 
disillusioned amongst us, as well as identify strangers in our 
midst, which is very hard in a place like New York, which is a 
gateway for individuals who are seeking to come to the United 
States to make it their home.
    So my question for all of you are--is, you know, how can 
community groups and individuals engage local law enforcement 
in a consistent manner on their concerns without being seen as 
undermining their own communities from which they come?
    We have ethnic conclaves in New York, and no one wants to 
be seen as someone who either comes up with false accusations 
but also wants to be able to share information. What tools or 
what would you say the best way for individuals or community 
organizations to go about doing so?
    We have such an organization called the Council of People's 
Organizations in Brooklyn which basically educates local Muslim 
American community leaders and clergy. But what would you say 
are some of the other tools that you have seen that are 
effective?
    Sheriff Baca. May I answer that? In the testimony that I 
provided as well as in this brochure--and I hope you have one--
--
    Ms. Clarke. Yes, I do.
    Sheriff Baca [continuing]. Public trust is what we are 
talking about. The concepts of public trust are such that you 
really need to work on the aspect of participation, not just 
going to lectures and meetings. Participation means the police 
have to learn to take advice. Advice can come from various 
councils, such as the one you have described.
    But in Los Angeles, we have Middle Eastern advisory 
councils. We have Iranian--that are made up of Iranians, 
Pakistanis, Armenians, Lebanese, people from the various ethnic 
and racial groups, including an interfaith council, and the 
objective, of course, is to exchange ideas and issues and fears 
and problems.
    A lot of people from the ethnic communities have fear of 
the police, and the first thing we have to do is knock that 
down. That won't be done unless the police represent the 
highest standards of America's laws.
    I mentioned earlier in my testimony it is the Constitution, 
the Bill of Rights, civil rights and human rights. Police that 
engage people in that vein of human rights and civil rights, as 
well as Bill of Rights and the Constitutional guarantees--then 
the public trusts them.
    So the concept of how to engage are multiple faceted 
concepts. But it is religion, ethnic, language, as well as 
racial. Thank you.
    Mr. Alomari. May I? I would like to echo what Sheriff Baca 
said, but I would like to go one step further by saying that 
one of the approaches that really worked for us in Ohio is the 
fact that we did--do not work in the communities only when 
there is a problem or an issue.
    It really is based on a genuine relationship that we built. 
It is dynamic. It is proactive, engaging, and really covers 
multitude of issues. We are really listening to the issues and 
concerns of the communities and we would like them to listen to 
our concerns and issues.
    It took us a long time to build trust because many of the 
recent immigrants and refugees--they come from countries where 
they distrust the Government and law enforcement. So it was a 
really lengthy process for us, and we had to prove ourselves. 
We succeeded by really giving them a voice.
    One thing we found out right after our office was 
established--we did a survey that we found out that there is a 
semi-consensus in the community that they feel that they have 
been treated and dealt with as outsiders.
    Our program wants to bring them on board. They are 
included. So we had an inclusive approach. So the issue here is 
in our culture competency training we tell first responders we 
really suggest to build relationship with the mosque, with the 
organization, with the youth, with the women.
    Go there, stop by, say hello. When there is celebration, 
say congratulations. But do not really just stop there. A 
multitude of issues have to be covered. Thank you.
    Ms. Harman. Thank you, Ms. Clarke.
    No other Members are--have returned, so I am going to 
excuse this panel.
    I just again want to observe that the discussion here, 
while it focuses on better understanding of diverse 
communities, is really intended to help all of us find those 
few people amongst us who would--who intend to do harm to our 
country.
    One of the corollaries of that is by finding those people 
within diverse communities we keep those communities safe, 
because we remove the few people there who would intend harm to 
all of us, including members in their own community.
    So I just want to make sure we are focused on the intention 
here. This is the Homeland Security Committee. This is the 
Intelligence Subcommittee. It is certainly my view, as I stated 
at the outset, that accurate, actionable, and timely 
intelligence is the way we prevent and disrupt plots.
    My view is that a very sensible tool in that effort is 
building trust relationships with communities. I think you all 
agree with that, and I want to thank you for you testimony and 
hope that you will continue to work with us as we thread our 
way through very, very difficult issues that raise 
Constitutional concerns and that offer some real opportunities 
for making real progress in the effort to protect the homeland. 
Thank you very much. You are excused.
    I would like to call the second panel.
    Everybody ready? Thank you all and thank you for your 
patience. The good news is that Congress is in recess for the 
St. Patrick's Day lunch. Happy St. Patrick's Day, everybody. 
But that means we will have an uninterrupted time to hear from 
you and ask you our questions.
    I now welcome our second panel of witnesses, Mr. Elibiary--
there he is--is president and CEO of the Freedom and Justice 
Foundation, F&J. The foundation facilitates cooperation between 
State and local law enforcement and the Texas Muslim community.
    In 2005 Mr. Elibiary spearheaded the formation of the Texas 
Islamic Council, made up of Muslim congregations, with over 
100,000 members, and it is the largest Muslim community in 
Texas.
    Mr. Elibiary was a 2008 to 2009 fellow at the American 
Muslim Civic Leadership Institute run jointly by the University 
of Southern California and Georgetown University.
    A National security expert, he has recently consulted with 
the Global Engagement Group at NCTC in the--during the Obama 
administration, is a contributor for counterterrorism issues to 
national news organizations such as CNN and Fox.
    Professor Ramirez teaches at Northwestern School of Law 
where she lectures on criminal justice, community partnerships, 
and law enforcement. She serves as the executive director of 
the Partnering for Prevention and Community Safety Initiative, 
PFP.
    PFP fosters communication between law enforcement agencies 
and the American Muslim, Arab, and Sikh communities. Partnering 
for Prevention has published best practices studies for 
community engagement as well as case studies of select cities 
in the United States and Great Britain.
    Mr. Ervin--how are you, Clark?
    Mr. Ervin. Good to see you.
    Ms. Harman. Good to see you, too. I understand that someone 
to my left had an old association with you. Is that true?
    Mr. Ervin. That is exactly right.
    Ms. Harman. I won't reveal what that might be.
    Mr. Ervin is the director of the Aspen Institute's Homeland 
Security Program. The Homeland Security Program works to 
heighten public awareness of our Nation's continued 
vulnerability to terrorism and to persuade the Nation to take 
necessary steps to secure our homeland.
    Prior to holding this position, Mr. Ervin served as the 
first inspector general of the Department of Homeland Security, 
and a very courageous person in that role. He also served 
previously as inspector general in the Department of State.
    In addition to his work for the institute, Mr. Ervin is an 
on-air analyst and contributor for CNN, where his focus is on 
homeland security, National security, and intelligence.
    Without objection, your full statements will be inserted in 
the record. I would ask you to summarize in 5 minutes or less.
    Now I ask Mr. Elibiary to begin.

  STATEMENT OF MOHAMED ELIBIARY, CO-FOUNDER, THE FREEDOM AND 
                       JUSTICE FOUNDATION

    Mr. Elibiary. Thank you very much, Honorable Chair Harman 
and Ranking Member McCaul and the other Representatives who 
will probably be joining us later.
    Basically, my comments are going to focus on system 
engineering challenges that have hampered our communities' 
collaboration with law enforcement on advance counterterrorism 
issues, like interdiction, busting up terror plots, and the 
title of this hearing.
    We feel that the issue of homegrown extremism plots is a 
serious one, but we also caution that it is not a pandemic and 
that we should advance reforms very carefully around this 
issue.
    First, I would like to say that our group feels very 
strongly that securitizing the relationship between law 
enforcement and American Muslim community would end up becoming 
counterproductive and could actually replay some of the most 
troublesome aspects of the 1960s and 1970s and today cause some 
very devastating global consequences.
    We have advocated for years that our homeland security 
policies in the CVE, or combating violent extremism, sphere are 
often counter-productive, as I mentioned, and feed into the 
very alienation that they try to alleviate.
    Two examples of this is that while the Government has 
publicly claimed a desire for partnership with the mainstream 
American Muslim community, law enforcement has been left only 
offering the community a conduit to inform on community members 
of concern.
    Another example is that while not every radicalization 
problem is a nail, our use of the FBI hammer certainly frames 
all problems as nails in the eyes of many in the community.
    The FBI has been doing a tremendous job, and I am not 
ragging on them or anything, and myself, as the vice president 
of the FBI alumni association for the Dallas and North Texas 
region, can attest to the hard work that a lot of these men and 
women have done over the years and continue to do to keep us 
all safe.
    There are, however, structural problems that we need to 
explore if we want to see that higher level of cooperation I 
mentioned earlier.
    For example, low-hanging fruits--these are potential 
recruits that arrive at this category various different ways, 
to violent extremism movements. They are a security risk and 
therefore cannot be left unmonitored by law enforcement, 
especially the FBI.
    When one explores the seemingly shrinking ``radicalization 
process'', which I put in quotes, over the previous few years, 
ending with Umar Farouk Abdulmutallab being less than 6 months, 
one can appreciate the pressures that the bureau must conduct 
its work under.
    There is a good deal of anecdotal evidence, however, that 
some bureau field offices, in response to such pressures, have 
elected to increase their surveillance of religious 
institutions or places where this pool might be assumed to 
congregate, as well as use the technique of agent provocateurs 
fairly aggressively.
    There are more subtle techniques that can be used to 
neutralize such unacceptable security vulnerabilities, but they 
do not lie within the FBI. I would strongly recommend that they 
do not be created within the FBI.
    Because this kind of work essentially is going to be--it 
needs an iron fist inside of a velvet glove. As one who has 
worked many a times with JTTF squads around not just Texas but 
elsewhere, there is a--I am seeing that my time is running 
down.
    So basically, I will move on to my other points, but this 
issue we can explore later, about where it has worked and where 
currently some examples with the JTTFs are impossible for us to 
pull off in the community.
    I would like to also say that the issue of the moderate and 
mainstream Muslims needs to be explored because that narrative 
framing is often counterproductive in getting as many people 
as--I mean, Sheriff Baca mentioned earlier to engage.
    Our goal is countering violent extremism. The 
counterideological work needs to be left up to the community. 
We need to have more confidence in our democratic system and 
its institutions to be able to withstand those challenges from 
foreign ideologies.
    All right. So in conclusion, what I would like to say is 
that we have--we don't feel that the Government should adopt a 
comprehensive countering violent extremism strategy or a 
counter radicalization strategy, as it was called several years 
ago.
    But we do think that there needs to be a lot of micro 
strategies that end up being coordinated, and we identify eight 
different areas where those need to happen. The one critical 
one that I think you guys are going to want to eventually delve 
into is the interdiction issue, which--my time is up now, but 
we can explore later. Thank you very much.
    [The statement of Mr. Elibiary follows:]

                 Prepared Statement of Mohamed Elibiary
                             March 17, 2010

    Honorable Chair Harman, Ranking Member McCaul, and other honorable 
Representatives, it is truly an honor to testify before your committee 
today at the invitation of Chairman Thompson. In my testimony before 
you, I will attempt to share a mainstream community assessment, as well 
as an assessment of the current ``systems engineering'' challenges 
subverting more effective cooperation across the various agencies. In 
closing, I hope to offer some practical suggestions as next steps for 
this committee and Congress to examine. In summary, we feel this 
hearing's topic is important, very timely, and part of safeguarding our 
communities. We feel the issue of homegrown terrorism plots is a 
serious one, but would caution that it is not a pandemic and we should 
advance reforms cautiously.

                              INTRODUCTION

    First let me start out by outlining that our group feels strongly 
that ``securitizing'' the relationship between law enforcement and the 
American Muslim community would be counter-productive and could 
actually replay the most troublesome aspects of the 1960s and 1970s 
with more devastating global consequences. I have advocated for years 
that our homeland security policies in the countering violent extremism 
(CVE) sphere are often counter-productive and feed into the very 
alienation they try to alleviate.
    For example, while the Government has publicly claimed a desire for 
a ``partnership'' with the mainstream American Muslim community, law 
enforcement has only offered the community a conduit to ``inform'' on 
community members of concern. Another example is that while not every 
radicalization problem is a nail, our use of the FBI hammer certainly 
frames all problems as nails. The FBI has been doing a tremendous job, 
and, as vice president of a non-profit associated with the Bureau, I 
can attest to the hard work of those thousands of men and women keeping 
us safe. There is however structural problems worth resolving if we 
truly wish to see a higher level of cooperation between the Government 
and communities in disrupting terror plots. Two examples are:

    1. Low-hanging potential recruits for violent extremist/terrorism 
        movements are a security risk and therefore cannot be left 
        unmonitored by law enforcement, especially the FBI. When one 
        explores the seemingly shrinking ``radicalization process'' 
        over the previous few years, ending with Umar Farouq 
        Abdulmuttalib less than 6 months ago, one can appreciate the 
        pressures the under which the Bureau must conduct its work. 
        There is a good deal of anecdotal evidence that some Bureau 
        field offices, in response to such pressures, elected to 
        increase their surveillance of religious institutions and 
        expand their use of more coercive techniques such as Agent 
        Provocateur Informants. More subtle techniques to identify and 
        neutralize such unacceptable security vulnerabilities as low 
        hanging potential violent extremism recruits are available, but 
        not within the FBI. While these subtle techniques are not being 
        utilized, the mainstream community is left bewildered, 
        confused, and distrustful of enhanced community collaboration 
        on CVE.

    2. Either through a civil liberties office at DHS or a community 
        relations office at the FBI, grievance redress is a major 
        hurdle to community relationship-building on advanced CVE 
        efforts. During the recent January 20 meeting with the DHS 
        Secretary, mainstream community leadership clearly relayed the 
        grassroots sentiment that not a single category of community 
        grievances with DHS has ever been fully ``resolved.'' Unlike in 
        other Western nations such as the United Kingdom (UK), in the 
        United States, there are clear operational policy firewalls at 
        major law enforcement agencies and the community relations 
        conduits engaging with communities across the country. This 
        divide is not lost upon the communities whose assistance is 
        most needed to disrupt terror plots and simply feeds the 
        perception that these communities are to be ``managed'' as a 
        ``suspect pool'' and not ``trusted'' as true ``partners.''

    At the request of our Government I spent the past week in London, 
at a conference and at U.S. Embassy meetings, analyzing the issue of 
on-line youth radicalization and CVE. It would be a shame for us to not 
heed the hard lessons learned by the U.K. Home Office, and others, in 
terms of their outreach methods in their PREVENT Strategy, which is the 
CVE portion of the U.K.'s Counter-Terrorism (CT) CONTEST Strategy.
    In spending time with some U.K. Muslim leaders, visiting the London 
Central Mosque and meeting with U.K. Think Tank Radicalization 
Researchers, the message was clear across the board that Government 
must first strive to ``do no harm'' and tread very softly. That is the 
attitude we have consistently shared with various intelligence and law 
enforcement agency officials, including a couple of years ago at the 
National Counter Terrorism Center (NCTC)-sponsored working conference 
with U.K. intelligence officials, subject matter experts, and select 
community leaders on what Counter-Radicalization lessons the United 
States can draw from the U.K. Prevent model. We reiterate this cautious 
tone here today, but would like to remind the subcommittee that 
Congress should not legislate a comprehensive U.S. CVE Strategy, 
because that will surely ``securitize the relationship.'' However, by 
doing so, we can improve many other issues by promoting the 
establishment of ``coordinated micro-strategies.''
    The U.S. Government deserves some credit for recognizing and moving 
to address several CVE blind spots in the United States' current CT 
strategy and the overarching National Security (NS) strategy. 
Congressional authorization designated the Department of Homeland 
Security (DHS) to be the lead department to counter ideologically-
driven violence and stems from the 9/11 Recommendations Reform Act of 
2007 (HB1) and subsequent Presidential Executive Orders. While we 
strongly advise against a Government-wide CVE Strategy, we feel that 
DHS should establish its own CVE Strategy for a number of reasons.

    1. Legally, DHS is currently mandated to, and has previously 
        attempted to, craft such a strategy unilaterally without public 
        disclosure and community input.

    2. To align the various entities both within and outside DHS, such 
        as fusion centers, so they are on an effective, 
        constitutionally compliant course in this growing area of law 
        enforcement concern.

    3. To develop the subject matter expertise on CVE sorely needed by 
        the Government on what works and what does not in the United 
        States.

    4. Without an ``official'' CVE Strategy within DHS, the Department 
        is effectively executing a strategy that is unfocused and 
        counter-productive at times.

    Our foundation, as outlined in the November 2009 Congressional 
Research Service (CRS) Report on Terrorism Information Sharing via the 
Nationwide Suspicious Activities Reporting (SAR) Initiative (NSI), has 
been a leading proponent of adopting proven community-oriented policing 
in the domestic CT sphere. We worked with the Office of the Director of 
National Intelligence's (ODNI) Program Manager for the Information 
Sharing Environment (PM-ISE) on multiple initiatives improving 
information-sharing, analytical capacity, and community relations. Two 
upcoming developments along these lines will be a definition of 
``radicalization'' for the State and local law enforcement community as 
well as the ``Building Communities of Trust Initiative'' best-practices 
recommendations report, both expected to be released by April 2010.

                HIGHLIGHTS OF RADICALIZATION DEFINITION

    Defining ``radicalization'' for the law enforcement (LE) 
community--ODNI's PM-ISE release at National Fusion Center Policy 
Conference (February 2010) with full public release expected by April 
2010.

  <bullet> William H. Webster, Chairman, Homeland Security Advisory 
        Council: ``tending or disposed to make extreme changes in 
        existing views, habits, institutions or conditions.''

  <bullet> Non-conformity to mainstream perspectives is protected by 
        the First Amendment and according to ISE SAR Functional 
        Standard Version 1.5, First Amendment-protected activities 
        should not be considered ``suspicious'' ``absent articulable 
        facts and circumstances that support the . . . suspicion that 
        the behavior observed is not innocent, but rather reasonably 
        indicative of criminal activity . . . ''.

  <bullet> Government communicating an assumption that violent 
        extremism views are supported by the minority community creates 
        a public perception that the minority community supports 
        violent extremism and undermines the relationship between the 
        community and law enforcement.

  <bullet> When First Amendment freedoms (speech and assembly) are 
        unconstitutionally used as grounds for launching investigative 
        actions, then effective ``counter-radicalization'' efforts are 
        undermined and the ability of violent extremists to target 
        society is actually made easier.

    Effective and constitutionally compliant CVE policy recognizes that 
there is a division of labor between the United States' Government 
(USG) and the community. This healthy division of labor is explained by 
the pie chart below where the Government acts when the ISE functional 
standard metric is met and the community challenges the ideological 
struggles associated with violent extremism independently. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 DHS'S CVE POLICY FORMULATION EVOLUTION

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       ROADMAP FOR MOVING FORWARD

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We believe that eight (8) different micro-strategies are needed by 
the United States to effectively address the vulnerabilities recently 
highlighted by homegrown violent extremism cases.
    1. U.S. Violent Radicalization Interdiction Framework.--Currently, 
there is a non-standardized ad-hoc protocol covering the point at which 
the community's efforts end and the Government, primarily through law 
enforcement, begins. For most communities the only option before them 
is to call the FBI, which is often not the most effective method. In 
researching this issue, including discussions with community leaders 
and the FBI, CT investigators, as well as our foundation's experience 
working on successful and unsuccessful violent radicalization 
interdiction cases, we believe that such an effort will involve 
multiple agencies and the coordination of multiple Congressional 
committees.
    In short, we lack in the United States, a program like the United 
Kingdom's CHANNEL Project. This is an effort that needs to be an ``iron 
fist inside a velvet glove,'' and as we previously shared with folks at 
the NCTC, it requires a degree of interagency ``operational 
coordination'' that no entity within the Government is currently 
capable of performing. So we are recommending that both DHS and the 
various Muslim mainstream groups around the country continue their 
engagement efforts, but recognize that this issue will need to be 
addressed sooner or later within DHS.
    2. Law Enforcement Information Sharing.--As we shared in the CRS 
Report referenced above and the three primary offices on this issue 
(DHS, FBI and PM-ISE), we feel that there are some clearly identifiable 
schisms in the system needing to be addressed. Since this issue is not 
the focus of this hearing, we won't elaborate more here.
    3. Interagency Strategic Communications Working Group.--The United 
Kingdom's Home Office has a department specifically tasked with 
coordinating the messaging between the various key agencies with a 
direct impact on CVE work. In the United States, we need an inter-
agency coordinating entity that would put DOJ-FBI, DHS, the Department 
of State, and other agencies' public affairs offices on a similar wave 
length.
    4. State-Level Law Enforcement Engagement Strategies.--Across the 
country, the Federal Government has thus far failed State, local, and 
Tribal law enforcement agencies in providing clear guidance on their 
role in CVE and how best to execute that role using community-oriented 
policing principles. Thankfully, in the near future, the ODNI's PM-ISE 
office will be releasing such guidance to State and local law 
enforcement and fusion centers in a report compiling the lessons 
learned from the multi-city ``Building Communities of Trust 
Initiative.''
    5. Effective DHS & DOJ Redress Processes.--As mentioned earlier, 
the lack of an effective redress process leaves a minority community 
with one of three conclusions to draw: That the authorities don't care, 
are incompetent or intentionally wish to humiliate the community. Any 
of these conclusions are severely detrimental to building up the trust 
needed to deepen community-law enforcement collaboration on advanced CT 
efforts such as terror plot disruption.
    6. Social Delinquency/Prevention/Integration Programs.--While these 
programs do not directly impact the hard-core radicalized individuals 
pursuing a terror plot, they are essential in creating a healthy eco-
system within communities and restraining the growth of violent 
extremism movements. The United States has a long tradition of 
immigrant integration through a multi-generational identity formulation 
process. It is clear that today at least two factors are slowing down 
this natural process. The first is that with the communications 
revolution, old world connections and politics resonate within the 
immigrant psyche longer. The second is that our country is currently 
engaged militarily in multiple conflicts overseas with a direct threat 
to the homeland consistently highlighted in the public discourse.
    Both of these challenges will drive the multi-decade developed 
American Muslim identity to expand its narrative within American Muslim 
communities to include addressing geo-political conflicts across the 
majority-Muslim regions globally. To achieve this, non-Muslim 
communities and policymakers must support the expansion of the geo-
political public discourse space, especially within locations where the 
Muslim identity group might congregate (ex. Mosques).
    We should remember the resilient strength of our democracy and not 
fear any public ideological discussion, because it is when such 
discussions are shut down within brick and mortar locations that they 
go underground on the internet. Organized communities cannot be 
reasonably expected to disrupt the counter-ideological messaging of 
violent extremism networks when these communities' patriotism will be 
called into question. We have a long history in this country of 
mitigating radical ideologies with various youth and immigrant 
integration programs (ex. Boys Scouts/Girl Scouts, Big Brother/Big 
Sister, etc.), and we can simply expand such programs to include the 
current generational and cultural breakdown occurring within many 
Muslim families.
    7. U.S. Congress Engagement & Information Sharing.--The Executive 
Branch's law enforcement agencies driving CVE policy should become more 
engaged with the Legislative Branch and share an annual report not 
highlighting its successes but the self-identified shortcomings in 
working with communities to counter violent extremism. Such an 
assessment, while politically sensitive, would aid Congress to focus on 
the hurdles primarily hampering closer community collaboration to 
disrupt terror plots.
    8. U.S. Public's (Media, Academia, etc.) Engagement.--Congress 
should work with DHS to fund competitive grant programs for academic 
institutions to conduct fact-finding missions at the grassroots level 
on improving community-law enforcement cooperation. Similarly, as with 
the engagement of Congress (in No. 7), the Executive Branch's inter-
agency strategic communications coordination office (in No. 3) should 
share their research with mass media trade associations and journalism 
schools to create a ripple effects beyond the Government's reach. This 
would not be ``guidance'' from the Government to the media, but simply 
a window for the media, and by extension the public, into how our 
violent extremism enemies capitalize on our messaging.

                               CONCLUSION

    I'd like to thank the subcommittee once more for inviting me to 
share our experiences in struggling to find the right formula to 
advance community-law enforcement cooperation in the mutual goal of 
disrupting terror plots. When we started years ago, we were quietly 
advised that we were attempting to address an issue, homegrown violent 
extremism, that doesn't really exist, or worse yet, was part of 
President Bush's War on Islam. Though it was a slow slog in the 
beginning, I feel fairly confident that the mainstream American Muslim 
community assets are slowly shaking off deep-seated fears, stemming 
from some post-9/11 law enforcement efforts, to mobilize with 
confidence and address the challenges, and improving our country's 
counter-terrorism architecture in the process. On a daily basis, I see 
a network- and resource-rich community wanting to help make our law 
enforcement agencies become more effective, but sadly, it is not so 
easy to connect sometimes with the management of these agencies. 
Disrupting terror plots is something both law enforcement and the 
community have proven multiple times is achievable.
    Lastly, I'd like to publicly commend the Council on American 
Islamic Relations (CAIR) for being brave enough to step forward and 
allow us to facilitate the cooperation with the FBI concerning the 
recent disappearance case of 5 young men to Pakistan from Alexandria, 
Virginia. CAIR, like numerous other community groups who've requested 
us as a liaison between them and law enforcement on sensitive cases, 
knew of our previous interdiction efforts with American Muslim youth. 
To their credit, despite the overwhelming political assault they've 
weathered since 
9/11, they recognized that the community's interests are safeguarded 
when community leaders act with an objective and nuanced understanding 
of the law enforcement community. The same needs to be achieved from 
within the law enforcement community if we are to truly advance from 
our current ad-hoc state to one of ``operational coordination'' between 
the two communities in disrupting terror plots.

    Ms. Harman. Thank you very much.
    Ms. Ramirez.

STATEMENT OF DEBORAH A. RAMIREZ, EXECUTIVE DIRECTOR, PARTNERING 
 FOR PREVENTION AND COMMUNITY SAFETY INITIATIVE, NORTHEASTERN 
                    UNIVERSITY SCHOOL OF LAW

    Ms. Ramirez. Madam Chair, Members of the subcommittee, 
thank you for giving me the time to testify this morning.
    The best way to obtain community information needed to 
thwart terrorism threats is by applying community policing 
techniques to counter terrorism. Homegrown Muslim terrorists 
are likely to reside in Muslim communities. Muslim terrorists 
from abroad are likely to conceal themselves in those same 
communities.
    We are blessed in the United States with a Muslim 
population that, with very few exceptions, is committed to 
combating terrorism. But we failed to take advantage of this 
blessing and to develop a systematic strategy to obtain and use 
community information to thwart terrorism and to fight 
extremism.
    Our British counterparts, having learned the lessons of the 
2005 bombings, have made enormous efforts to develop such a 
systematic strategy, which they appropriately call a PREVENT 
strategy.
    To be blunt, they are miles ahead of the U.S. law 
enforcement, whose efforts in this regard are local rather than 
National. We can learn from the British example.
    The benefits of such a strategy can and should be measured 
in terrorist acts averted and lives spared. The British first 
reaped the benefits of their strategy in April 2008, when 
members of a U.K. mosque went to local law enforcement with 
information about Isa Ibrahim, a student who planned to blow 
himself up with a suicide vest.
    He was arrested. He was convicted. This was the first time 
that a tip from the Muslim community in the United Kingdom led 
to a major terrorism arrest.
    We tasted the fruits of our own community outreach efforts 
in December 2009, when the Council on American Islamic 
Relations, CAIR, put families in touch with the FBI to report 
that their sons had left for Pakistan with the intent to join 
the fight against America. This tip led to the arrest of the 
young men in Pakistan and spared their lives as well as lives 
of soldiers.
    Because community information can thwart terrorist threats, 
it is an essential tool to put in the counterterrorism tool 
box. Yet in the United States today, the few community-law 
enforcement partnerships focused on preventing terrorism, hate 
crimes, and extremism are all operating independently of each 
other, without any central coordination or collaborative 
structure.
    There are no National programs to provide the training, 
protocols, tools, and research necessary to demonstrate to 
other communities how to begin, nurture, sustain, and 
strengthen these efforts.
    Nor is there a central clearinghouse for information about 
such efforts, which could be used to disseminate best 
practices, promising practices, and lessons learned.
    More fundamentally, we lack a National collaborative 
infrastructure in which to organize these efforts. Some are 
done by the sheriff's office, DHS, FBI. We need a single 
unified structure.
    How could we design a coordinated infrastructure for this 
purpose? We would need the FBI's 56 field offices to meet on a 
regular basis with community members to develop local 
collaborative strategies for preventing terrorism, extremism, 
and hate crimes.
    In those meetings, bridges of trust and communication need 
to be built. Specifically, we need them to create community 
message centers staffed by agents trained to evaluate the 
reliability and credibility of community information.
    This means we have to train the community members about 
what to be on the lookout for. We have to inform them about who 
to call. We have to designate officers on how to evaluate 
community information and create protocols for responding to 
these kind of tips.
    To make this work, we need a National training and resource 
center to coordinate and support these efforts, and such a 
center needs to be located in an academic environment that is 
neutral and detached and can provide expertise to both law 
enforcement and the community about how best to collaborate.
    In closing, one may ask, ``Why should we do this?'' Because 
if there were another attack, all of us would want to say we 
did everything we could to prevent it. But if we fail in this 
room to garner the political will to create this 
infrastructure, we can't say that.
    [The statement of Ms. Ramirez follows:]

                Prepared Statement of Deborah A. Ramirez

    The best way to obtain the community information needed to thwart 
terrorist threats is by applying community policing techniques to 
counter-terrorism. Homegrown Muslim terrorists are likely to reside in 
Muslim communities; Muslim terrorists from abroad are likely to attempt 
to conceal themselves in these same communities. We are blessed in the 
United States with a Muslim population that, with very few exceptions, 
are committed to combating terrorism. Yet, we have failed to take 
advantage of this blessing and develop a systematic strategy to obtain 
and use community information to thwart terrorism and fight extremism. 
Our British counterparts, after the painful lessons learned from the 
London subway bombings in 2005, have made enormous efforts to develop 
such a systematic strategy, which they aptly call their PREVENT 
strategy. To be blunt, they are miles ahead of U.S. law enforcement, 
whose efforts in this regard are local rather than National. We can 
learn from the British example.
    The benefits of such a strategy can be measured in terrorist acts 
averted and lives spared. The British first reaped the benefits of 
their strategy in April 2008, when members of a mosque in the United 
Kingdom contacted local police and provided information about Isa 
Ibrahim, a student who planned to blow himself up with a suicide vest. 
Ibrahim was arrested and convicted. This was the first time a tip from 
the Muslim community in Great Britain led to a major terrorism arrest. 
We tasted the fruits of the efforts of our own community outreach 
efforts in December 2009, when the Council on American Islamic 
Relations (CAIR), put families in touch with the FBI to report that 
their sons had left for Pakistan with the intent to join the fight 
against America. This tip led to the arrest of the young men in 
Pakistan, and probably spared both their lives as well as the lives of 
U.S. and Pakistani soldiers. Because community information can thwart 
terrorist threats, it is an essential tool to put into the 
counterterrorism tool box.
    Yet, in the United States today, the few community-law enforcement 
partnerships that are focused on preventing terrorism, hate crimes, and 
extremism operate independently of each other, without any central 
coordination or collaborative structure. There are no National programs 
to provide the training, protocols, tools, or research necessary to 
demonstrate how to begin, nurture, and strengthen these community 
efforts. Nor is there a central clearinghouse for information about 
such efforts, which could disseminate promising practices, best 
practices and lessons learned in the United States and abroad. More 
fundamentally, we lack a National collaborative infrastructure in which 
to organize these efforts. Some of these efforts are being made by 
local police departments, others by DHS, still others by FBI field 
offices. We need a single unified structure.
    How could we design a coordinated National infrastructure to 
support and nurture these efforts? We need each FBI field office with a 
Muslim community to meet on a regular basis with community members to 
develop local collaborative strategies for preventing terrorism, 
extremism, and hate crimes. In these meetings, community and law 
enforcement need to build bridges of trust and communication. 
Specifically, we need each of these field offices to create community 
message centers staffed by agents trained to evaluate the reliability 
and credibility of community information. This means training community 
members about what to look for, informing them as to whom to call, 
designating trained law enforcement officers on how to evaluate 
community information, and creating protocols for responding to 
important community tips. To make this program work, we need a National 
training and resource center to coordinate and support these efforts, 
and we need such a center to be in partnership with a university and 
located within a university setting.

                         WHY SHOULD WE DO THIS?

    (1) Because we stand a greater chance of conducting rational, well-
reasoned, thoughtful counterterrorism, civil rights, and 
counterintelligence investigations if we have long-standing, trusting 
relationships with the community. Engagement with the community 
provides law enforcement with valuable information and expertise that 
may not otherwise be available.
    (2) Because a lot of people out there are counting on us to get 
this right.
    (3) Because all of us in this room are men and women of good will 
who have spent endless hours trying to prevent another attack. If there 
were another attack on American soil, all of us would want to say that 
we did EVERYTHING, EVERYTHING in our power to prevent it. But if we 
fail to garner the political will to create this infrastructure, we 
won't be able to say that.

    Attachment 1.--The Partnering for Prevention & Community Safety 
  Initiative, ``Community Partnerships Thwart Terrorism'' by Deborah 
                  Ramirez \1\ and Tara Lai Quinlan \2\
---------------------------------------------------------------------------
    \1\ Professor Deborah A. Ramirez, Northeastern University School of 
Law, Boston, Massachusetts, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8eeaa0fcefe3e7fcebf4cee0ebfba0ebeafba0">[email&#160;protected]</a>
    \2\ Tara Lai Quinlan, Director of Research, Partnering for 
Prevention and Community Safety Initiative, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe8a9f8c9f8f8b9790be9f9192d09d9193d0">[email&#160;protected]</a>
---------------------------------------------------------------------------
                               MARCH 2010

    As law enforcement officials across the globe contemplate ways to 
prevent terrorist attacks, the gathering of relevant and effective 
intelligence from reliable sources has become even more crucial to 
counterterrorism work. One of the best tools to help stop domestic 
terrorism in countries like the United States and Great Britain is for 
counterterrorism officials to develop authentic trust relationships 
with communities. When law enforcement works with the community to 
establish trust on a variety of issues--from neighborhood blight, to 
youth violence to police response times, community members are more 
likely to come forward to report incidences of unusual behavior within 
the community that they find suspicious or potentially dangerous. When 
the community feels trust and support from law enforcement, community 
members feel more comfortable acting as law enforcement's ``eyes and 
ears'' in the community because they possess the knowledge of community 
norms, and the ``linguistic, cultural, and analytical skills''\3\ to 
assess community anomalies that law enforcement, as outside observers, 
might not see. This paper explores some of the instances where 
community members provided valuable tips to law enforcement officials 
that helped thwart terrorist incidents.
---------------------------------------------------------------------------
    \3\ Debbie Ramirez & Tara Lai Quinlan, The Greater London 
Experience: Essential Lessons Learned in Law Enforcement-Community 
Partnerships and Terrorism Prevention, May 2008, 42.
---------------------------------------------------------------------------
   I. BRITISH EFFORTS TO WORK COLLABORATIVELY WITH MUSLIM COMMUNITIES

    After large-scale arrests were made in Britain after October 2000, 
and very few of those individuals were convicted, Britain sought to 
ensure that there was not a backlash against local Muslim 
communities.\4\ Iqbal Sacranie, secretary-general of the Muslim Council 
of Britain, met with MI5, the British intelligence agency, to pursue a 
collaborative strategy between the Muslim community and the British 
counterterrorism programs.\5\ Sacranie raised concerns over the 
arrests, and stated that few of those arrested were charged with any 
crime, while even fewer were eventually convicted of anything.\6\ 
Sacranie was concerned that the large numbers of arrests could 
wrongfully lead the public to mistakenly view the Muslim community as a 
whole as fanatical.\7\
---------------------------------------------------------------------------
    \4\ Michael Evans & Sean O'Neill, Muslim Leader Meets MI5 Chief to 
Aid War on Terror, THE TIMES, Apr. 19, 2004 available at https://
www.timesonline.co.uk/printFriendly/0,,1-2-1079809-2,00.html.
    \5\ Id.
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    Sacranie emphasized that Muslims, like every other British 
communities, wanted to ensure that there were no terrorist attacks on 
British soil.\8\ He wrote members of every mosque in Britain requesting 
that they use the utmost vigilance ``against any mischievous or 
criminal elements from infiltrating the community and provoking any 
unlawful activity.''\9\ Further, he urged the members of those mosques 
to communicate with authorities and ensure cooperation to avoid the 
common terrorist threat.\10\
---------------------------------------------------------------------------
    \8\ Id.
    \9\ Id.
    \10\ Id.
---------------------------------------------------------------------------
A. Nick Reilly (aka Mohammed Rasheed), Exeter
    Nick Reilly (aka Mohammed Rasheed) is a Muslim convert who suffers 
from Aperger's Syndrome and has a mental age of approximately 10.\11\ 
In May 2008, Reilly followed through with instructions he received from 
Britain-based radicals he met with in internet cafes and chat room to 
set off a nail bomb in Exeter.\12\ These radicals of Pakistani decent 
advocated violence against Western nations for their continued support 
of Israel.\13\ On May 22, 2008, Reilly went to Giraffe restaurant, 
ordered a drink, and went to the bathroom to assemble his bomb.\14\ But 
his bomb went off prematurely in the bathroom stall, and he was the 
only person injured in the attempted attack.\15\ Counterterrorism 
officials stated that extremists had taken advantage of Rasheed's low 
IQ of 83 to groom him for terrorist activities.\16\
---------------------------------------------------------------------------
    \11\ Minette Marrin, Nicky Reilly, Muslim convert, jailed for 18 
years for Exeter bomb attack, TIMES ONLINE, Jan. 31, 2009, http://
www.timesonline.co.uk/tol/news/uk/crime/article5619151.ece.
    \12\ Id.
    \13\ Id.
    \14\ Id.
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------
    After the incident at Giraffe restaurant, police arrested three 
men, and detained another who cooperated with the police, and searched 
the Muslim Community Centre in Plymouth.\17\ In response to the search, 
the Centre trustees issued a statement that ``[w]e are as shocked as 
everyone by the recent events that have unfolded at Exeter and 
Plymouth. We have been working in partnership with the police and 
community to build the centre and we are now committed to assisting the 
police with their inquiries.''\18\
---------------------------------------------------------------------------
    \17\ Third Man Quizzed Over Explosion, BBC NEWS, May 28, 2008, 
available at http://news.bbc.co.uk/2/hi/uk_news/england/devon/
7424769.stm.
    \18\ Exeter Restaurant Bombing: Police Search Muslim Centre And 
Home In Plymouth After Third Arrest, UK NEWS, SKY NEWS, May 29, 2008, 
http://news.sky.com/skynews/Home/Sky-News-Archive/Article/
20080641317471.[sic].
---------------------------------------------------------------------------
    A BBC investigation later revealed that police had received prior 
warning of the Giraffe restaurant attack by a tip from a psychiatrist 
who had evaluated Reilly.\19\ During a psychiatric evaluation, Reilly 
had expressed a desire to study engineering to learn to make a 
bomb.\20\ The psychiatrist relayed this information to the police, but 
the police did not interview Reilly in response to the tip because they 
felt that the remark was a ``one-off''.\21\ In a statement, the Devon 
and Cornwall police they stated:
---------------------------------------------------------------------------
    \19\ Police warned about Exeter bomber in 2003, BBC NEWS, Feb. 8 
2010, available at http://news.bbc.co.uk/2/hi/uk_news/england/devon/
8505209.stm (hereinafter BBC News Exeter).
    \20\ Id.
    \21\ Id.

``Systems such as the government's Prevent strategy, which have been 
implemented since 2003, look at intelligence like this, but Reilly was 
not a person of interest and gave no other cause for concern. As part 
of Prevent, should there have been any further cause for concern, he 
would have been part of a review process. From the information at that 
time, there was no indication that Reilly was, or was likely to become, 
capable of making a bomb. Although in hindsight we are always seeking 
to learn as an organisation, we are confident we would not have dealt 
differently with the information as we had it at the time.''\22\
---------------------------------------------------------------------------
    \22\ BBC News Exeter, supra note 35.

At least one source indicates that Reilly was under surveillance prior 
to the attack, but the extent of Muslim community involvement remains 
unclear.\23\
---------------------------------------------------------------------------
    \23\ See Face of the `nail bomber': Police were tailing Muslim 
convert before restaurant attack, LONDON EVENING STANDARD, May 23, 
2008, http://www.thisislondon.co.uk/news/article-23486974-face-of-the-
nail-bomber-police-were-tailing-muslim-convert-before-restaurant-
attack.do.
---------------------------------------------------------------------------
B. Isa Ibrahim, Bristol
    In April 2008, student Isa Ibrahim was arrested for planning to 
detonate a ``suicide vest.''\24\ Ibrahim had researched online how to 
make explosives from household products, and had also done 
reconnaissance at the Broadmead shopping centre in Bristol.\25\
---------------------------------------------------------------------------
    \24\ Jail for `Suicide Vest' Student, BBC News, http://
news.bbc.co.uk/2/hi/uk_news/8155978.stm (Hereinafter BBC Suicide Vest).
    \25\ Id.
---------------------------------------------------------------------------
    Leading up to his arrest, Ibrahim had engaged in a series of 
suspicious actions, but none of the third parties involved had alerted 
authorities to his activities.\26\ When Ibrahim then talked about 
suicide bombing with members of his mosque, they challenged him on his 
views and alerted authorities.\27\ After also noticing cuts on 
Ibrahim's hands, the members of the mosque contacted a local police 
officer. \28\ Detective Chief Inspector Kevin Hazell, of Avon and 
Somerset police, said: ``The calls to us came in when he showed some 
people the injuries on his hands, including marks from shards of glass, 
which he said were caused when a bottle blew up when he was mixing 
chemicals.''\29\ Tipping off the authorities to Ibrahim's behavior was 
a ``sensitive subject'' with members of the mosque, but they eventually 
provided the police with Ibrahim's full name and photograph.\30\ Police 
described the incident as a landmark ``because it was the first time a 
tip-off from the Muslim community had led to a major anti-terrorism 
arrest.''\31\
---------------------------------------------------------------------------
    \26\ Duncan Gardham, Terrorist Andrew Ibrahim was turned in by the 
Muslim community, TELEGRAPH TIMES ONLINE, July 18, 2009, available at 
http://www.telegraph.co.uk/news/5851168/Terrorist-Andrew-Ibrahim-was-
turned-in-by-the-Muslim-community.html. Prior to Ibrahim's arrest: he 
asked a visiting lecturer what were ``the best'' biological agents for 
killing people, but the university ultimately did not take action; he 
bought up stocks of hydrogen peroxide from several Boots stores, but 
staff disregarded their own regulations and did not contact the police; 
at an electric shop he asked about a light bulb with the glass removed, 
which is a key indicator of a detonator; and Ibrahim had even discussed 
suicide bombing and the ingredients of his bomb with friends, but was 
not taken seriously. Id.
    \27\ Id.
    \28\ Id.
    \29\ Sean O'Neill, Teenager's plot to blow up town centre--Muslim 
elders reported former public schoolboy to police, The Times London, 
July 18, 2009, available at http://0-
infoweb.newsbank.com.ilsprod.lib.neu.edu/iw-search/we/InfoWeb.
    \30\ Gardham, supra note 42. Initially, on April 14 the mosque only 
provided police with Ibrahim's first name, but submitted his full name 
2 days later. Id.
    \31\ BBC Suicide Vest, supra note 39.
---------------------------------------------------------------------------
    When Ibrahim's apartment was searched by police in April 2008, 
officers found the highly explosive hexamethylene triperoxide diamine 
(HMTD) in a biscuit tin in the refrigerator, a detonator underneath 
Ibrahim's sink, and a vest on the bedroom door.\32\ The night before 
his arrest, Ibrahim had even obtained shrapnel to add to the 
explosives.\33\ Ibrahim was convicted in July 2009 of making explosives 
with intent and preparing terrorist acts, and received a minimum 
sentence of 10 years.\34\ Following the verdict, the Council of Bristol 
Mosques released a statement that said, ``[w]e stress that at all times 
we must behave honourably and as law-abiding citizens. We believe 
strongly in community ties and community cohesion. Anything falling 
below these standards is morally and socially unacceptable.''\35\
---------------------------------------------------------------------------
    \32\ O'Neill, supra note 45.
    \33\ Id.
    \34\ BBC Suicide Vest, supra note 39.
    \35\ BBC Suicide Vest, supra note 39.
---------------------------------------------------------------------------
                       II. UNITED STATES EXAMPLES

A. Missing Somali Youth in Minneapolis
    Since the 1990s the population of Somalis living in the United 
States has grown significantly, with the largest Somali-American 
community located in Minneapolis, Minnesota.\36\ Beginning in late 
2007, reports began to surface about young Somali-American men 
traveling to Somalia ``to enlist in the Shabaab, an Islamist group 
battling the country's government.''\37\ There are believed to have 
been at least 20 departures by young men since 2007, which occurred in 
at least two waves.\38\ The first wave began in late 2007, 6 months 
after an Islamic group seized control of Somalia's capital, 
Mogadishu.\39\ The men in the first wave were in their 20s to 30s, and 
had all left the United States by the spring of 2008.\40\ Included in 
the first wave were Shirwa Ahmed, believed to be the first suicide 
bomber with U.S. citizenship, and Zakaria Maruf, a former gang 
member.\41\
---------------------------------------------------------------------------
    \36\ Andrea Elliott, Joining the Fight in Somalia, N.Y. Times, July 
12, 2009, available at http://www.nytimes.com/interactive/2009/07/12/
us/20090712-somalia-timeline.html (Hereinafter Elliott Graphic).
    \37\ Andrea Elliott, Joining the Fight in Somalia, N.Y. Times, July 
12, 2009, available at http://www.nytimes.com/interactive/2009/07/12/
us/20090712-somalia-timeline.html (Hereinafter Elliott Graphic).
    \38\ Id.
    \39\ Id.
    \40\ Id.
    \41\ Andrea Elliott, A Call to Jihad, Answered in America, N.Y. 
TIMES, July 11, 2009, available at http://www.nytimes.com/2009/07/12/
us/12somalis.html?pagewanted=all (Hereinafter Elliott Article).
---------------------------------------------------------------------------
    Zakaria Maruf was well known in the Muslim community in the Twin 
Cities because he used to drive to and from Abubakar mosque, and some 
young Somalis recorded Maruf's call to prayer as a cell phone 
ringtone.\42\ During this period, Maruf began to reach out to young men 
through listservs and conference calls ``arranged by a teenage boy who 
distributed 800 numbers and passwords'' for people to listen in.\43\ 
Some of these young men ended up leaving the United States for Somalia 
in the second wave.\44\
---------------------------------------------------------------------------
    \42\ Id.
    \43\ Id.
    \44\ Id.
---------------------------------------------------------------------------
    This second wave was a younger group of men who had been more 
successful in the United States.\45\ Most of the men had been raised in 
the United States and had also performed well academically in high 
school or college.\46\ Members in this group began dropping out of 
school in August 2008 and November 2008.\47\ Notably some of the 
departures in the second wave occurred after Shirwa Ahmed died as a 
suicide bomber in October 2008.\48\
---------------------------------------------------------------------------
    \45\ Elliott Article, supra note 56. Elliott Graphic, supra note 
52.
    \46\ Id.
    \47\ Id.
    \48\ Id.
---------------------------------------------------------------------------
    Community members took notice of the departures and became 
concerned. Community member Abia Ali noticed that two boys that she 
recognized from her mosque came into the travel agency where she worked 
as an accountant to make travel plans.\49\ Ms. Ali was concerned that 
the boys were planning on following Zakaria Maruf to Somalia, and 
accordingly she warned the mosque leaders, who then alerted the boys' 
parents.\50\ The mosque then summoned a meeting with the mosque's young 
members, where imam Sheikh Abdirahman Sheikh Omar Ahmed, told the crowd 
``All this talk of the movement must stop . . .  Focus on your life 
here. If you become a doctor or an engineer, you can help your country. 
Over there you will be a dead body on the street.''\51\
---------------------------------------------------------------------------
    \49\ Id.
    \50\ Elliott Article, supra note 56.
    \51\ Id.
---------------------------------------------------------------------------
    After hearing about the young men leaving the country, Somali 
parents began hiding their sons' passports.\52\ Some parents pleaded 
with their departed sons to return home from abroad.\53\ For example, 
Mohamoud Hassan's parents had been trying to convince him to return 
back home after he already left, but he feared that he would spend his 
time in Guantanomo.\54\ The conversations would be short with few 
responses, but at some point they convinced Hassan to come back to the 
United States and wired him $800.\55\ However, shortly thereafter, 
someone phoned them to tell them that their son had been shot in the 
head; some believe to prevent Hassan from working with the FBI.\56\
---------------------------------------------------------------------------
    \52\ Elliott Article, supra note 56.
    \53\ Id.
    \54\ Id.
    \55\ Id.
    \56\ Id.
---------------------------------------------------------------------------
    Members of al Qaeda have reportedly been attempting to recruit 
youths with U.S. or European passports because they could cross borders 
more freely.\57\ Since the first wave of Somali youths left Minneapolis 
in 2007, six recruits have been killed in Somalia (including Shirwa 
Ahmed), and four defendants have entered guilty pleas.\58\ But 
recruiting of United States citizens and nationals of Somali decent in 
the United States continues, and is now believed to have broadened to 
other States including Nevada and Georgia.\59\
---------------------------------------------------------------------------
    \57\ Id.
    \58\ See Andrea Elliott, Charges Detail Road to Terror for 20 in 
U.S., N.Y. TIMES, Nov. 23, 2009 at A1 http://www.nytimes.com/2009/11/
24/us/24terror.html (Hereinafter Elliott Charges).
    \59\ See id. (noting that five young Somali men were stopped en 
route to a wedding in San Diego from Nevada); see also Maggie, Lee, 
After Minneapolis, FBI Eyes Atlanta's Somalis, NEW AGE MEDIA, June 24, 
2009, available at http://news.newamericamedia.org/news/
view_article.html?article_id=0c35ffa6e64aac24f1d332f6b32e7d29 (last 
visited Feb. 22, 2010) (noting that recruitment efforts have begun in 
parts of Atlanta Georgia).
---------------------------------------------------------------------------
B. Washington, DC Area Students Go Missing in Pakistan
    On December 7, 2009, five American students from the Washington, DC 
area were arrested by Pakistani authorities.\60\ Pakistan authorities 
had observed them for 2 days and then arrested the five men: David 
Headley, an American of Pakistani descent; Umar Farooq, a Pakistani-
American; Aman Hasan Yemer, an Ethiopian-American; Waqar Hussain Khan, 
a Pakistani-American; and Ahmed Abdullah Mimi, an Ethiopian-American 
each holding a United States passport.\61\ The men had been staying in 
a house in Sargodha, Pakistan owned by one of their uncles. When 
authorities searched the house, they found jihadist literature, and 
maps of cities and installations.\62\ Evidence in the investigation 
suggests that some of the men wanted to fight U.S. soldiers in 
Afghanistan.\63\
---------------------------------------------------------------------------
    \60\ Zahid Hussain, Siobhan Gorman & Neil King Jr., Students Linked 
to al-Qaeda, WALL STREET JOURNAL, Dec. 11, 2009 at A3.
    \61\ Hussain, supra note 77.
    \62\ Id.
    \63\ Id.
---------------------------------------------------------------------------
    Before arriving in Pakistan, the men had been in contact with 
Pakistani militants with connections to al-Qaeda through internet chat 
rooms and YouTube.\64\ The militants allegedly told them to come to 
Pakistan where they could assist them in getting to Afghanistan to 
fight jihad.\65\ One of the young men left behind an 11-minute video 
that ``quoted Koranic verses, cited conflicts between Western and 
Muslim nations and showed wartime footage.''\66\
---------------------------------------------------------------------------
    \64\ Waqar Gillani & Jane Perlez, Pakistan Police Say 5 Detained 
Americans Intended to Fight U.S. in Afghanistan, N.Y. TIMES, Dec. 11, 
2009.
    \65\ Id.
    \66\ Jerry Markon, Pakistan Arrests 5 North Virginia Men, Probes 
Possible Jihadist Ties, THE WASHINGTON POST, Dec. 10, 2009 http://
www.washingtonpost.com/wp-dyn/content/article/2009/12/09/
AR2009120901884.html.
---------------------------------------------------------------------------
    It was the families of these five young men who initially reported 
them missing, fearing that they had gone to Pakistan. The Council on 
American-Islamic Relations put the families in touch with the FBI. The 
parents showed the FBI and Muslim community leaders the 11-minute 
video. The authorities conducted their investigation with extensive 
help from the families, whose assistance included turning over the 
men's writings and computer files.\67\ Around the same time, in 
Sargodha a neighbor alerted Pakistani authorities after the uncle of 
one of the men told the neighbor that his nephew and four friends had 
voiced bad intentions.\68\ After the five men were reported missing in 
the United States, the FBI contacted Pakistani officials and shortly 
thereafter, the men were arrested.\69\
---------------------------------------------------------------------------
    \67\ Id.
    \68\ Hussain, supra note 77.
    \69\ Id.
---------------------------------------------------------------------------
C. Christmas Day Bomber
    On December 25, 2009, Umar Farouk Abdulmutallab boarded an airplane 
from Nigeria (to Amsterdam) to Detroit with 80 grams of high explosive 
chemicals strapped to his crotch.\70\ Abdulmutallab tried to blow up 
the airplane as it was approaching Detroit, but his detonator failed 
and instead his pants caught on fire and other passengers quickly 
subdued him.\71\ The other passengers and crew members detained him 
until the airplane landed.\72\ In January 2010, Abdulmutallab was 
indicted on six counts, including one of attempted murder and one of 
attempted use of a weapon of mass destruction.\73\
---------------------------------------------------------------------------
    \70\ Russell Goldman & Huma Khan, Timeline of Terror: Clues in 
Bomber Umar Farouk Abdulmutallab's Past, Did officials miss important 
clues in tracking down Nigerian before failed plot?, ABC NEWS, Dec. 30, 
2009 available at http://abcnews.go.com/US/timeline-terror-clues-
bomber-umar-farouk-abdulmutallabs-past/story?id=9449255.
    \71\ Id.
    \72\ CNN, Source: Terror suspect's father tried to warn 
authorities, CNN.COM, Dec. 27, 2009, available at http://www.cnn.com/
2009/CRIME/12/26/airline.attack/index.html.
    \73\ United States v. Abdulmutallab, No. 2:10-cr-20005 (Jan. 6, 
2010) (Indictment). Copy of indictment available at http://
blogs.abcnews.com/politicalpunch/2010/01/the-abdulmutallab-
indictment-.html.
---------------------------------------------------------------------------
    Abdulmutallab was granted a multiple-year, multiple-entry tourist 
visa at the U.S. Embassy in London in June 2008, which would last until 
2010.\74\ Abdulmutallab was a student in the United Kingdom at the time 
the United States granted him a visa, and after getting his visa, he 
traveled to Houston.\75\ In May 2009, the United Kingdom denied 
Abdulmutallab's application to renew his student visa because he listed 
a non-existent college on his application.\76\ Later that year in 
August of 2009, he went to Yemen to be trained by an al-Qaeda leader, 
and was admitted into the country because he had a valid U.S. visa in 
his passport.\77\
---------------------------------------------------------------------------
    \74\ CNN, supra note 89.
    \75\ CNN, supra note 89.
    \76\ Goldman & Khan, supra note 87.
    \77\ Id.
---------------------------------------------------------------------------
    Abdulmutallab's father, Alhaji Umaru Mutallab was a prominent 
Nigerian banker and had become increasingly alarmed about his son's 
political views.\78\ In November, 2009, Mutallab went to the U.S. 
embassy in Nigeria after he received an alarming phone call from his 
son stating that ``it would be their last contact and associates in 
Yemen would then destroy his phone.''\79\ Mutallab feared that his son 
was preparing for a suicide mission in Yemen, stating that he was 
concerned about his son's ``radicalization and associations'' and that 
he feared that Abdulmutallab went to Yemen to participate in ``some 
kind of jihad.''\80\ Following the November 19, 2009 warning, 
information about Abdulmutallab was given to the National Counter-
Terrorism Center, and he was also added to the watch-list of more than 
half of a million individuals, or the Terrorist Identities Datamart 
Environment.\81\ However, officials believed that Mutallab had not 
presented enough information to place Abdulmutallab's name on the 
smaller Terrorist Screening Data Base, which includes a smaller no-fly 
list.\82\
---------------------------------------------------------------------------
    \78\ BBC News, Father alerted US about Nigerian plane bomb suspect, 
BBC NEWS, Dec. 27 2009, http://news.bbc.co.uk/2/hi/americas/8431470.stm 
(Hereinafter BBC News Nigeria).
    \79\ Goldman & Khan, supra note 87.
    \80\ Dan Eggen, Karen DeYoung & Spencer S. Hsu, Plane suspect was 
listed in terror database after father alerted U.S. officials, WASH. 
POST, Dec. 27, 2009, http://www.washingtonpost.com/wp-dyn/content/
article/2009/12/25/AR2009122501355.html; Goldman & Khan, supra note 87; 
CNN, supra note 89.
    \81\ BBC News Nigeria, supra note 95.
    \82\ Id.
---------------------------------------------------------------------------
    Once Abdulmutallab was detained by other passengers, and the 
airplane landed, he spoke freely to the FBI.\83\ However, after he had 
surgery for his burns and was read his Miranda rights he ceased 
cooperating with law enforcement officials.\84\ The FBI flew two 
counterterrorism agents to Nigeria ``to gain an understanding of the 
suspect'' and then located two of Abdulmutallab's family members.\85\ 
The relatives agreed to come back with the agents to the United States 
to get Abdulmutallab to cooperate because they ``disagreed with his 
efforts to blow up American targets.''\86\ After meeting with 
Abdulmutallab for several days, the family members convinced him to 
talk with the investigators.
---------------------------------------------------------------------------
    \83\ Minette Marrin, Christmas Day bomber Umar Farouk Abdulmutallab 
offering `useful intelligence' to FBI, TIMES ONLINE, Feb. 3, 2010, 
http://www.timesonline.co.uk/tol/news/world/us_and_americas/
article7013063.ece.
    \84\ Id.
    \85\ Jeff Zeleny & Charlie Savage, Official Says Terrorism Suspect 
Is Cooperating, N.Y. TIMES, Feb. 2, 2010 at A11, http://
www.nytimes.com/2010/02/03/us/03terror.html.
    \86\ Id.
---------------------------------------------------------------------------
    An official stated that ``The intelligence gained has been 
disseminated throughout the intelligence community,'' and further that 
``The best way to get [Abdulmutallab] to talk was working with his 
family.''\87\ Officials confirm that Abdulmutallab has provided them 
with information about people he met in Yemen.\88\ In addition, Robert 
S. Mueller III told the Senate Intelligence Committee that Mr. 
Abdulmutallab provided ``valuable intelligence'' but Mueller did not 
elaborate further.\89\
---------------------------------------------------------------------------
    \87\ Id.
    \88\ Id.
    \89\ Zeleny & Savage, supra note 102.
---------------------------------------------------------------------------
D. ADAMS Mosque, Virginia
    The All Dulles Areas Muslim Society (ADAMS) mosque developed a 
relationship with the FBI in early 2002, when the FBI approached Imam 
Mohamed Magid and several other imams about developing contacts with 
the Washington-area Muslim community. As part of their process of 
developing mutual trust, Imam Magid invited the FBI to the mosque on 
multiple occasions for dialogues and questions from mosque members. 
While the agents promised to be less heavy-handed in their 
investigations and more culturally sensitive, the community agreed to 
provide tips alerting FBI officials if they spotted anything unusual in 
the community.\90\
---------------------------------------------------------------------------
    \90\ Douglas Waller Sterling, An American Imam, Time Magazine, 
November 14, 2005.
---------------------------------------------------------------------------
    In one instance mosque members alerted Imam Magid to a new member 
who acted unusually--dealing only in cash and listing the ADAMS mosque 
as his mailing address. The next time Imam Magid saw the new member, he 
spoke with him in his office while the FBI arrived to question him. In 
the end it turned out that the man was going through a messy divorce 
and had child support payments, and did not want to be located because 
his wages would be garnished.\91\ This incident is just one of the 
benefits that have flowed from the strong relationship between the 
ADAMS mosque and the FBI's Washington, DC field office.
---------------------------------------------------------------------------
    \91\ Id.
---------------------------------------------------------------------------
                          III. OTHER EXAMPLES

E. Mubin Shaikh, Toronto
    Mubin Shaikh is a prominent Muslim leader in Canada. In 2006, it 
was revealed that Shaikh worked with officials in Canada as an 
informant to thwart a potential terrorist attack involving 17 terrorism 
suspects.\92\ The 17 suspects were arrested after purchasing three tons 
of ammonium nitrate.\93\ Police alleged that the men, ranging in age 
from 15 to 43, were planning on blowing up buildings in Toronto and 
then storming Canada's parliament.\94\ Shaikh told the Toronto 
newspaper, ``I don't want Canadians to think that these [suspects] are 
what Muslims are. I don't believe in violence here. I wanted to help, 
and I'm as homegrown as it gets.''\95\
---------------------------------------------------------------------------
    \92\ Rebecca C. Dube, Leader Turned Informant Rattles Muslims, 
CHRISTIAN SCIENCE MONITOR, July 31, 2006, http://www.csmonitor.com/
2006/0731/p06s01-woam.html.
    \93\ Id.
    \94\ Id.
    \95\ Id.
---------------------------------------------------------------------------
    Shaikh had already worked with the police to help improve awareness 
in the community; however, he first became involved with the accused 
group after reading about one his friends being arrested.\96\ He 
contacted the Canadian Security Intelligence Service (CSIS) and 
informed them ``I have a solid foundation in Islam. I'm born and raised 
here. Toronto is home. I understand what concerns [the police] have. 
But as a Muslim, I understand what concerns Muslims have.''\97\ The 
CSIS agreed to let Shaikh assist in the efforts to infiltrate this 
group, but after they agreed, he also sought the counsel of a spiritual 
advisor.\98\ ``I knew that throughout my work with the authorities, if 
I was ever instructed to [entrap or set up the suspects], which I was 
not, I would not [do it].''\99\ If he did, his spiritual advisor 
threatened to accuse him of hypocrisy.\100\
---------------------------------------------------------------------------
    \96\ Jackie Bennion, The Radical Informant, FRONTLINE, aired Jan. 
30, 2007 on PBS, available at http://www.pbs.org/frontlineworld/
stories/canada602/shaikh.html.
    \97\ Id.
    \98\ Id.
    \99\ Id.
    \100\ Id.
---------------------------------------------------------------------------
    Shaikh's participation in thwarting the potential attack was 
controversial with members in the Muslim community.\101\ Some in the 
Muslim community stated that they have no issues with reporting 
suspicious behavior to law enforcement officials; however, they draw 
the line at Shaikh's level of involvement.\102\ Others argued that 
instead of working with police, Shaikh instead should have utilized his 
influence over the men to try to convince them to not go through with 
the plot.\103\ However, Shaikh informed the Canadian Broadcast Company 
that the suspects had already chosen their path, and that they needed 
no outside influence from him.\104\
---------------------------------------------------------------------------
    \101\ Dube, supra note 9.
    \102\ Id.
    \103\ Id.
    \104\ Id.
---------------------------------------------------------------------------
    Shaikh's involvement also raised some ethical issues regarding the 
permissibility of utilizing prominent members of the community as 
informants. Professor Natapoff of Loyola Law School states that 
``There's a very corrosive effect in urban communities when the 
government makes snitching a central law enforcement tool.''\105\ While 
informants can be useful for criminal investigations, the use of 
informants makes it easier to slide into ethically dangerous 
situations.\106\ Where individuals like Shaikh help out the Government, 
it is possible to erode trust between members within the community, and 
further degrade the level of trust between the community and the 
Government. This highlights an important concern for communities and 
warrants further discussion.
---------------------------------------------------------------------------
    \105\ Id.
    \106\ Id.
---------------------------------------------------------------------------
                               CONCLUSION

    The best way to obtain the community information needed to thwart 
terrorist threats is by applying community policing techniques to 
counterterrorism. Homegrown Muslim terrorists are likely to reside in 
Muslim communities; Muslim terrorists from abroad are likely to attempt 
to conceal themselves in these same communities. We are blessed in the 
United States with a Muslim population that, with very few exceptions, 
are committed to combating terrorism. Yet, we have failed to take 
advantage of this blessing and develop a systematic strategy to obtain 
and use community information to thwart terrorism and fight extremism.
    Specifically, we need each of the FBI field offices to create 
community message centers staffed by agents trained to evaluate the 
reliability and credibility of community information. This means 
training community members about what to look for, informing them as to 
whom to call, designating trained law enforcement officers on how to 
evaluate community information, and creating protocols for responding 
to important community tips. To make this program work, we need a 
National training and resource center to coordinate and support these 
efforts, and we need such a center to be in partnership with a 
university and located within a university setting.
     Attachment 2.--A Promising Practices Guide Executive Summary*
---------------------------------------------------------------------------
    * Available at www.ace.neu.edu/pfp.

    Ms. Harman. Thank you.
    Mr. Ervin.

   STATEMENT OF CLARK KENT ERVIN, DIRECTOR, ASPEN INSTITUTE 
                   HOMELAND SECURITY PROGRAM

    Mr. Ervin. Thank you, Madam Chair, Mr. McCaul, Ms. Clarke, 
for having me here today to discuss this important topic.
    My main point, and I think the whole point of the hearing, 
is that the business of counterterrorism must be every 
American's business, not just that of those privileged to serve 
in Government.
    Average Americans in every community must be the eyes and 
ears of law enforcement officials and intelligence analysts. We 
ordinary citizens must be Government's force multiplier. This 
is especially true for Muslim-Americans, and I would like to 
associate myself with Ms. Ramirez' comments.
    The overwhelming majority of Muslim Americans, like all 
Americans, are loyal and patriotic citizens more than willing 
to do their part to protect and defend us all. If anything, 
they are even more disposed to decry and condemn violent 
extremists in their own community who would do this country 
harm than we non-Muslims, precisely because those extremists 
are in their community and they blacken the name of their 
community and pervert their faith.
    We must shine the spotlight of National attention on the 
efforts of law enforcement authorities in New York City and Los 
Angeles in particular--I am delighted that Sheriff Baca was 
here--who embrace the racial/ethnic/religious diversity in 
their communities and, as you said, use it to their advantage 
by enlisting such minorities in their counterterrorism efforts.
    NYPD and LAPD are effective terror fighters in large part 
because their ranks include men and women who come from these 
communities and know them best.
    Further, these police organizations engage in constant 
dialogue with these communities, hearing their concerns, 
addressing their complaints, soliciting their advice and 
counsel, and earning their trust and good will in the process.
    So when differences arise, as they inevitably will, the 
positive relationships that have been established over time 
serve to keep disagreements in perspective and passions cool.
    Such outreach can encourage--can encourage community 
members to come forward and foil terror plots--and we have 
heard examples of that, so I won't add to that further.
    I would also like to commend an effort that we haven't 
heard about to date this morning, and that is the effort of 
NYPD to find out what the root causes of radicalization are.
    I commend the 2007 report by their intelligence apparatus, 
which identified a number of factors--lack of economic 
opportunity, limited education, strained family ties, a sense 
of impotence and alienation and grievance, a desire to be a 
part of something bigger than themselves and that they consider 
to be noble. All of this leads impressionable minds down the 
path of terrorism.
    Government, industry, schools, places of worship, and non-
profit organizations must work together to provide positive 
alternatives--jobs and job training programs, constructive 
social organizations, athletic programs and the like--to 
counter lives of aimless--aimlessness and anomie. An idle mind 
is truly the devil's workshop.
    I would also like to underscore and agree with what else 
has been said today about the fact that Muslims are not--that 
not all Muslims are terrorists, and not all terrorists are 
Muslims.
    It is as if recent events conspired to prepare us very well 
for today's hearing. The two recent cases of Colleen LaRose and 
Jamie Pauline-Ramirez underscore the fact that even blond-
haired and blue-eyed females can be terrorists, as you yourself 
said, Madam Chair.
    If anyone can be a terrorist, then everyone can fight 
terrorism. Whether it is the TSA Behavior Detection Officer 
specifically trained to spot signs of terror intent at 
airports; the New Jersey electronics store clerk who questions 
video he is asked to duplicate showing men apparently training 
for jihad and who brings that to the attention of authorities, 
in the process foiling the Fort Dix plot; the beauty supply 
owner noticing the same person repeatedly buying large 
quantities, unusually large quantities, of hydrogen peroxide; 
or the mail carrier going about his daily route and noticing 
that the trees in front of a particular house have suddenly 
turned white and wonders whether this might be the result of a 
bomb production lab inside--anyone and everyone, inside 
Government and out, can and must play a role in preventing 
terror if we are to have any hope of preventing it more often 
than not.
    Thank you very much for having me, and I look forward very 
much to your questions.
    [The statement of Mr. Ervin follows:]

                 Prepared Statement of Clark Kent Ervin
                             March 17, 2010

    Thank you, Chair Harman, Ranking Member McCaul, and Members for 
inviting me to testify today on the very important and timely topic, 
``Working with Communities to Disrupt Terror Plots.''
    The recent spate of aborted terror plots, especially the Christmas 
day bombing attempt, all serve to underscore the fact that terrorists 
remain determined to strike the homeland again, and the odds of 
preventing them from ever succeeding are low. To kill, injure, and 
destroy, terrorists have to ``get it right'' only once, while those in 
the business of counterterrorism must ``get it right'' 24/7. My main 
point today, and I think the point of this whole hearing, is that the 
business of counterterrorism must be every American's business, not 
just that of those now privileged to serve in Government. Our country 
is too big; and (commendably) too open and free, with too many tempting 
targets, for us to think that Government officials alone can defend us 
from this omnipresent, and, perhaps even existential, threat. Average 
Americans in every community must be the eyes and ears of law 
enforcement officials and intelligence analysts; we ordinary citizens 
must be Government's force multiplier.
    This is certainly true for Muslim-Americans. The overwhelming 
majority of Muslim-Americans, like all Americans, are loyal and 
patriotic citizens, more than willing to do their part to protect and 
defend us all. If anything, they are even more disposed to decry and 
condemn violent extremists in their own community who would do this 
country harm than we non-Muslims are precisely because those extremists 
are in their community and they blacken the name of their community and 
pervert their faith. We must shine the spotlight of National attention 
and cast the warm glow of approval on the efforts of, for example, law 
enforcement authorities in New York City and Los Angeles who embrace 
the racial/ethnic/religious diversity in their communities and use it 
to their advantage by enlisting such minorities in their 
counterterrorism efforts. NYPD and LAPD are effective terror fighters 
in large part because their ranks include men and women who come from 
these communities and know them best. These police organizations engage 
in constant dialogue with these communities, hearing their concerns, 
addressing their complaints, soliciting their advice and counsel, and 
earning their trust and goodwill. When differences arise, as they 
inevitably will, the positive relationships that have been established 
over time serve to keep disagreements in perspective and passions cool. 
To be commended, too, at the Federal level, are like efforts by the 
National Counterterrorism Center; the Department of Homeland Security; 
and the Homeland Security Advisory Council.
    Such outreach can encourage community members to turn to the 
authorities when they spot signs of radicalism in their midst and can 
serve to foil terror plots before they go too far. We saw an example of 
that recently when Somali parents in Northern Virginia, concerned about 
the disappearance of their young sons, confided their fears of terror 
ties to a Muslim organization, which then confided in the authorities, 
ultimately resulting in the arrest of the young men in Pakistan before 
they could carry out acts of terrorism. It is, needless to say, highly 
unlikely, that the community would have turned to the authorities in 
this instance had the relationship between the two beforehand been one 
of mistrust and confrontation rather than trust and cooperation.
    Also noteworthy and highly commendable is NYPD's effort--the 2007 
report by two of its intelligence analysts, ``Radicalization in the 
West: The Homegrown Threat''--to determine why and how people become 
radicalized to the point of becoming terrorists. There must be 
continual such efforts in communities across the country to identify 
and to counteract the factors--lack of economic opportunity, limited 
education; strained family ties; a sense of impotence, alienation, and 
grievance; a desire to be a part of something big and noble--which lead 
naive and impressionable minds down the path of terrorism. Government, 
industry, schools, places of worship, and non-profit organizations must 
work together to provide positive alternatives--jobs and job training, 
constructive social organizations, athletic programs, and the like--to 
lives of aimlessness and anomie. An idle mind is truly the devil's 
workshop.
    It is not just Muslims, of course, who should be alert for signs of 
terrorism in their communities. All of us must be vigilant. First of 
all, we must underscore the fact that, just as not all Muslims are 
terrorists, so not all terrorists are Muslims. If by ``terrorists'' we 
mean all those who terrorize, then certainly Joseph Stack, who flew a 
small plane into an IRS building in Austin recently, and John Bedell, 
who wounded two police officers at Pentagon more recently still, then 
it should be clear to all now that terrorists come in all races, 
ethnicities, and genders, and they can have all different kinds of 
grievances. ``Terrorist'' is not a ``one size fits all'' term. And, 
even those terrorists who at least claim to be Muslims can likewise 
defy stereotypes, as the even more recent cases of the female, blond-
haired, and blue-eyed ``Jihad Jane,'' Coleen La Rue, and Jamie Pauline-
Ramirez highlight. Such cases help make the point that terrorist 
stereotyping is not just politically incorrect; it is simply incorrect.
    If anyone can be a terrorist, everyone can fight terrorism. Whether 
it's the TSA Behavior Detection Officer specially trained to spot signs 
of terror intent at airports; the New Jersey electronics store clerk 
who questions video he is asked to duplicate showing men apparently 
training for jihad and brings it to the attention of authorities, 
foiling the Fort Dix plot; the beauty supply store owner noticing the 
same person repeatedly buying unusually large quantities of hydrogen 
peroxide; or the mail carrier going about his daily route and noticing 
that the trees in front of a particular house have suddenly turned 
white and wonders whether this might be the result of a bomb production 
lab inside, anyone and everyone--inside Government and out--can and 
must play a role in preventing terror if we are to have any hope of 
doing so more often than not.
    We cannot know for sure from the recent spate of incidents whether 
terror plots are increasing in number and seriousness, but it is more 
than reasonable to draw than inference. Since 9/11, both the Bush and 
Obama Administrations have done a commendable job of killing and 
capturing terrorists. But, the next, and even more important step--
stopping the terrorist production line at its source--remains very much 
a work in progress. I am grateful for this opportunity to participate 
in a hearing that, appropriately, is focused on exactly this.

    Ms. Harman. Thank you very much.
    It will now be time for questioning. We will each take 5 
minutes, and I yield myself 5 minutes.
    Mr. Elibiary, you used some words that got my attention. 
Securitizing the relationship with minority communities or 
disparate communities, you said, is counterproductive. Then you 
said what you would hope we would do would be coordinate micro 
strategies.
    Let me just kind of go there. I don't think any of us is 
trying to securitize relationships. I think we are trying to 
build trust--and I am asking the panel to comment on this--with 
law-abiding citizens who are members of diverse communities in 
our country.
    The point of that is we can learn a lot from that. We can 
show respect to our fellow citizens. But we also can invite, in 
appropriate circumstances, those communities, those parents, 
those sisters and brothers to come forward and alert us to a 
family member who might be a lone wolf terrorist or might be 
associating with other terrorists.
    We do have examples of that in recent time. Most of them 
are in the Muslim community, as Mr. Ervin pointed out, but they 
don't have to be limited there.
    Does what I just described constitute, by your lights, 
securitizing the relationship with those communities?
    Mr. Elibiary. No, it does not, Madam Chair. The 
securitizing the relationship is when--for this category of how 
do you disrupt terror plots, the only conduit available 
currently for the community to engage with is to offer a tip. 
So there is only the law enforcement channel, and it is really 
with the FBI. Even if it is offered to local law enforcement or 
fusion centers, it is going to funnel back to the JTTF.
    So in this particular case, there is--as I wrote in my 
prepared remarks, the line between where the counterideological 
work that the community would be engaging in and the 
essentially predictive behavior that--standard that law 
enforcement tries to uphold is--there is a gray area in 
between, and that gray area, as well as while a youth, for 
example, is going through their radicalization process, cannot 
just be to connect with the FBI. Then that is a total 
securitized relationship.
    There is a gap there. It needs to be addressed. It should 
be addressed outside of the bureau, outside of a law 
enforcement agency.
    Ms. Harman. Well, I think many people believe, as Sheriff 
Baca obviously does, that local level policing is the first 
line of contact, or even community organizations, which then 
trust local level police, not the FBI, so I am not sure I agree 
with you that there is this direct link between locals and the 
FBI only.
    But at any rate, to continue with this, there was a testy 
exchange between Mr. Souder and Sheriff Baca. No one missed it. 
It was about CAIR, the organization CAIR, which is--has been 
controversial. I think no one would argue that. You are all 
nodding your heads, so you agree.
    I am asking you whether you think organizations like CAIR 
do play a vital role and/or whether organizations like CAIR, 
which may be linked to funding, or at least these are the 
claims, terror organizations or terror activities should be cut 
out somehow of the set of organizations that intersect 
communities and those in communities who are trying to let us 
know about improper behavior in those communities.
    Mr. Ervin. Well, I will start, Madam Chair. I would say a 
couple of things. I, too, was struck by Mr. Elibiary's use of 
the term securitized--securitizing this whole subject.
    I guess what I would say in response to that is I 
completely agree with your response to that. I might add that 
if law enforcement's only contact with the Muslim community is 
focused on the discrete issue of terrorism, that is one thing.
    That is why I stressed in my statement that not just law 
enforcement but Government generally, and not just Government 
but a whole range of institutions outside Government must also 
work to do positive things with the community--jobs, economic 
opportunity, positive alternative social organizations.
    I could understand from the Muslim's community if they 
perceive law enforcement as being solely focused on 
counterterrorism that that would be perceived by some as 
securitizing. I hope that that is helpful, what I have just 
said there.
    With regard to your specific question on CAIR, I would 
distinguish between CAIR--I do distinguish between CAIR and 
Hamas and Hezbollah. That was also mentioned. There is no 
question in my mind that Hamas and Hezbollah are terrorist 
organizations. CAIR is not.
    There is no question but that it is a controversial 
organization. There are people in that organization associated 
with controversial views. You made the very important 
distinction at the--at the beginning of the hearing that we are 
not here to talk about views, however controversial. We are 
talking about behavior.
    CAIR certainly is an organization that is not engaged in, 
and is opposed to, and has thwarted violent behavior. That is 
here what--that is what we are here to talk about.
    Ms. Harman. Thank you.
    My time has expired, and I want to be respectful of others.
    Do you have a short comment, Ms. Ramirez?
    Ms. Ramirez. Yes. My short comment is that I do not believe 
CAIR is a terrorist organization, and I also think that it is 
not an accident that families went to CAIR with information 
that then went to the FBI. The community respects CAIR. It is a 
large, well-respected grassroots organization.
    Without CAIR at the table or by excluding or demonizing 
CAIR as a terrorist organization, you exclude the grassroots 
members of the community who have the information that is 
necessary for thwarting counterterrorism.
    The FBI does not consider CAIR to be a terrorist 
organization. The FBI field offices regularly meet with CAIR.
    There are individual members of CAIR who have been under 
criminal investigation for criminal behavior. But that is 
different than saying that the entire organization is a 
terrorist organization.
    Ms. Harman. Thank you.
    I now yield 5 minutes to Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chair.
    Welcome to the panel. I wanted to add to Mr. Clark--Mr. 
Ervin's resume the fact that he served as deputy attorney 
general under Attorney General John Cornyn along with myself, 
and it is great to see a former colleague here today, and----
    Mr. Ervin. Thank you very much.
    Mr. McCaul. Thank you. Thanks for your service both in the 
Department of Homeland Security and other aspects as well.
    We heard testimony from the previous panel which I thought 
was sort of interesting. The FBI and DHS seemed to indicate 
that there is a wall of separation, and I don't like the use of 
the term wall of separation after 9/11, between what they are 
doing and what the Joint Terrorism Task Forces are doing.
    We also heard that--when we asked them can you think of an 
example of a terror plot that has been disrupted through 
community outreach, the only example I heard was the 
inauguration, which really turned out to be a non-issue. It 
wasn't a threat, in--in fact.
    Given that being the case, I am just questioning if we are 
really approaching this in the right way. I understand we need 
to have outreach to the community in a non-threatening way to 
the Muslim community, but at the same time it can be very 
valuable in terms of obtaining information and evidence related 
to a potential terror plot and which we can disrupt.
    Mr. Ervin, I know you just recently went out to the NCTC 
center and actually talked to them on this very issue, so this 
hearing is very timely, I think, for your testimony. I just, 
you know, care if you comment on that point.
    Mr. Ervin. Yes, Mr. McCaul. I am glad you gave me an 
opportunity to do that. In the interest of time, I didn't talk 
about that in my statement. But I want to commend, and I think 
we all should, the efforts that the Federal Government--
specifically the National Counterterrorism Center, and even 
more specifically Dan Sutherland, who heads the Countering 
Violent Extremism Unit, if I can call it that, at NCTC, who 
formerly, of course, was the first director of the Office of 
Civil Rights and Civil Liberties at the Department of Homeland 
Security.
    Commendably, Director Leiter has made this issue, 
countering violent extremism, a central focus of the National 
Counterterrorism Center. The work, as we heard this morning, of 
the--of Mr. Sutherland continues now at the Department of 
Homeland Security. We heard that Secretary Napolitano has given 
her full support to that office. I think that is commendable.
    So I think that is tremendously important that the Federal 
Government amplifies the efforts of the local community. That 
is no substitute for the local community, because there is no 
question but that the likelihood is that the interaction 
between terrorists and the government is likeliest, of course, 
to happen at the local level.
    Mr. McCaul. What I was struck by--and thank you for that--
Sheriff Baca seemed to have a different approach than what the 
FBI and DHS were talking about, and he does seem to be able to 
fully integrate this community outreach, which I think he does 
very well, in addition to the law enforcement side of--of the 
house.
    I think that may be a model, Madam Chair, we should--we 
should look at on the Federal level.
    Ms. Ramirez, appreciate your experience, particularly as an 
assistant U.S. attorney, as I was at one point in my life, and 
you mentioned a National training and resource center, and also 
that the 56 FBI offices have more of a community coordinator.
    I know that some of the offices do, but I assume from your 
testimony that not all of them--and can you explain to me what 
the center would do that you are proposing?
    Ms. Ramirez. Okay. First of all, some of the--some of the 
56 field offices do meet regularly with their community--Los 
Angeles, Dearborn, Chicago are examples of that. But all of 
these efforts are ad hoc and uncoordinated.
    What would a National center do? Well, the way in which we 
configured this was through briefings with the FBI. What the 
FBI thought would be useful at the time or might be useful, or 
at least what I think would be useful, is for the offices to be 
trained with their community counterparts, so that instead of--
for example, many of the things that Sheriff Baca said--and I 
think his efforts are laudatory and ought to be replicated.
    But if we had a National center, he could come and talk to 
law enforcement about how to coordinate the counterterrorism 
and community outreach together. He has a lot of good ideas. He 
has a lot of programs. But they are not shared in any National 
forum, so that each one is operating independently of the 
other.
    The Dearborn model, which is headed up by the Department of 
Homeland Security in Dearborn, Michigan, also has been in 
existence since 2001 and has accumulated a lot of information 
and experience which has no way of being transferred to other 
areas.
    Then there are many offices that don't meet at all with 
their counterparts. As a former assistant U.S. attorney, one of 
the things that seemed puzzling to me is that when we went to 
Dearborn, for the first time I saw the hate crimes officers, 
who have to go in the community and enforce hate crimes and 
give training about hate crimes, were at the table with the 
counterterrorism officers, because after 2001 the 
counterterrorism agents were complaining that they were flying 
blind in these communities.
    They did not know the communities. They did not have a 
context in which to put the information that they were 
gathering from the community. The people who were doing hate 
crimes were introducing them to the community. So you had these 
two parallel tracks within the FBI that weren't talking to each 
other.
    What the center recommended is that they come together to 
work with the community in parallel, and that does address, to 
some extent, the securitization aspect, because they are not 
there only to get information, but they are there to stand with 
the community against hate crime and hate speech.
    Mr. McCaul. Madam Chair, I think that is a--it is a very 
interesting idea, and I would like to follow up if we can on 
this--on this idea.
    I see my time has expired. I don't know if we will have 
another round of questions or not.
    Ms. Harman. Well, why don't you take a few extra minutes? 
That would be fine.
    Mr. McCaul. Okay. That would be great.
    Mr. Elibiary, first let me commend you for your work in my 
home State of Texas and your outreach efforts in the Muslim 
community. You mentioned also the JTTF component. Can you 
comment or elaborate on that? I know your opening statement you 
didn't have an opportunity.
    Mr. Elibiary. Thank you very much. A couple of points, if 
I--if you will allow me, in just a few seconds. I wanted to say 
that the LAPD and the NYPD are exceptions to State and local 
law enforcement.
    As one who has advised the PMISC's office looking at 
bridging these communities of trust issues and different parts 
of the law enforcement hierarchy of the agencies, Federal, 
State and local, the--most of your local law enforcement 
agencies around the country do not really do CVE work, don't 
really know what their role is. They don't do anything as well 
as fusion centers but pass on the information to the JTTFs. So 
my comments were not focusing on those exception ones.
    The two examples that I gave of the securitizing, as I 
heard it articulated from community members at the grassroots, 
are the low-hanging fruit one as well as the firewall that I 
can guarantee you and share with you offline which agencies and 
where they exist, if you would like.
    On CAIR, I would like to just share the comments that I 
shared with Director Mueller at the FBI SIOC last year, early 
last year, on this issue. This is our mainstream community 
position on the issue, that CAIR is a community organization. 
It was totally funded by the community. It is developed over 
the years by the community and does community civil rights 
work.
    Now, the founders, leaders, any individuals having 
association problems or have done anything criminal should be 
indicted. But the organization should exist. The organization 
should be left alone. We have a standard in this country for 
criminal activity, and that is the standard we should uphold 
for CAIR just like everybody else.
    Now, last point is the philosophical spectrum in the Muslim 
community. I think we need to engage with everybody according 
to the metric that Chair Harman mentioned earlier, which is 
violence. So as long as they--they understand and they oppose 
that kind of activities, I really don't care what their 
viewpoints are on anything.
    I engage with all kinds of people, from the most 
fundamentalist to the most progressive in our community, 
because I have a goal, and it is to counter violent extremism, 
and that is it.
    Now, the JTTF--here is an example of--that we were not able 
to help with. Most mosques around the country, because of the 
post-9/11 magnifying glass that they are under in the media, 
will not allow for any kind of controversial discourse to 
happen in their facilities.
    So therefore, if somebody steps forward and wants to kind 
of develop their own study circle, so you have, like, an ad-hoc 
spiritual sanctioner--that term is often thrown out there in 
the analytical community--and they get a little group of five 
or six folks sitting around them in a--in a little session, 
what the mosque will do is they will go and say, ``You have to 
sign up your little study sessions on a map,'' I mean, ``on a 
calendar,'' and then slowly weed that group, not authorize it, 
and those folks leave the facility where we can engage with 
them, and they go to somebody's apartment.
    So in this particular case that I am referencing, the 
mosque leadership came to me and said, ``We have this issue. 
This guy is kind of painting himself in this particular way and 
he has gotten a few weak-minded individuals around him, and we 
are concerned it could develop into something--some extremism, 
and eventually lead into violence.''
    I said, ``Okay.'' We connected with the field intelligence 
group and the JTTF in the region, and so they had the 
information of this individual and the people around him. Then 
basically, the mosque kind of pushed them out.
    The JTTF supervisor came to me and said, you know, ideally 
now what should have happened is that the community and the FBI 
would have worked together to find out where the weak link in 
that circle would have been, that study circle, and then have 
that individual engaged.
    Then that individual can then raise the flag to the JTTF 
when they start veering away from just the discussion of 
extremist identity issues and religious discourse, and then we 
would have a flag, an early warning system. But we currently do 
not.
    We couldn't help to create that mechanism because, like was 
mentioned earlier, the level of cooperation between the 
community and law enforcement is not up to this level yet.
    Mr. McCaul. Perhaps that is why we haven't seen an example 
of a plot thwarted from this community outreach. The Hasan case 
was screaming, you know, with flags going up and yet no, you 
know, action was taken, and----
    Mr. Elibiary. I can give you an example of one that does--
it does not come through the community engagement--or the 
community relations offices.
    The tips that do come in concerning these issues that I am 
aware of have all come in through the channel of either the FIG 
or the JTTF, because there is a deep relationship that either 
that supervisor or special agent had built up, so there is a 
personal rapport.
    It is very personality-centric between the two components 
of the community leader and the FBI official. As I mentioned in 
here, this is an ad-hoc system. We can do better----
    Mr. McCaul. No, I think we can do better, and I think you 
raise a very good point.
    Last point--and I have to raise this because I want you to 
explain this. I was in the Justice Department when the Holy 
Land Foundation was indicted and prosecuted, and there was an 
article in the Dallas Morning News that says Holy Land verdict 
is another U.S. defeat.
    I disagree with that, but I want to give you an opportunity 
to explain that.
    Mr. Elibiary. I appreciate that, Representative McCaul. I 
have written plenty of op-eds and have yet to see an editor 
allow me to publish the title that I put on my pieces. So I 
have never picked a title for any of my op-eds anywhere, 
including the one I just wrote for Fox News. So let me just put 
that out there.
    Now, here is my view on the Holy Land Foundation. The Holy 
Land Foundation--and of course, I sat through both trials, 
reviewed the evidence, engaged with the FBI investigators and, 
of course, heard from the community side and the defendants and 
everything.
    We are using the Al Capone approach a lot of times in these 
material support cases where we are trying to get people 
prosecuted for one thing because of some other issue we have 
with them.
    Sometimes it is because of the lack of evidence that is 
available to convict them directly, as well as we have in the 
Holy Land Foundation trial lumped in a whole bunch of 
unindicted co-conspirators and caused a great deal of damage to 
community relations between law enforcement and the community.
    So those two approaches, I think, are--like I mentioned in 
my comments, you can achieve--we can achieve our end-goal using 
much more subtle and Constitutionally-compliant or considered 
fair approaches, because the community feels it is being 
treated in a certain--to a certain standard that is different 
than the rest of society, so--and then that is 
counterproductive, and it is a defeat for us long-term as a 
country to increased cooperation.
    Mr. McCaul. Yes, thank you.
    I thank the Madam Chair for being so generous with her 
time.
    Ms. Harman. Well, I thank you, Mr. McCaul. Your questions 
were interesting.
    To remind, the focus of this hearing is: How do we find 
those few individuals in--who live amongst us who are intending 
to commit acts of terror against us and prevent and disrupt 
those plots? That is what we are focused on.
    Although we may all have views of different organizations, 
I did ask the question I asked about CAIR because it had come 
up and I didn't think we had fully aired the situation. It is a 
controversial organization, and there are many, including many 
in Congress, who question its purposes.
    I did hear your testimony that you think it is a valuable 
community organization, but I also heard your testimony, two of 
you, who said there may be individuals inside of CAIR who have 
committed, possibly, criminal acts and should be prosecuted. So 
I think that is--that is pretty straight up.
    I just want to conclude this hearing by making a couple of 
comments. First of all, your testimony is very careful and very 
helpful, all of you. I was just looking through it again.
    You know a lot about this subject--and you work in your 
communities, especially Mr. Elibiary and Ms. Ramirez, and, Mr. 
Ervin, you have a long experience with this, and you still work 
on the same issues--and it will inform us. First point.
    Second point, this whole issue is a minefield. It is a 
minefield for you and it is surely a minefield for us. We are 
frequent target practice from the left and the right and our 
selection of witnesses and topics are regularly under fire.
    Having said that, we are going to forge ahead. Our whole 
subcommittee feels, I believe--I think I can speak for Mr. 
McCaul who is very friendly to me today because I gave him so 
much extra time--that we have to figure this out.
    I often say that security and liberty are not a zero-sum 
game. That is not my original idea. Ben Franklin said a 
variation of that. We will either get more of both or less of 
both. I want more of both. I want to find bad guys and have the 
right approach to getting there, and I want to protect our 
Constitution while we do it.
    It seems to me if all we do is securitize this problem, and 
round up bad guys, and shred our Constitution, we really 
haven't protected the society that we love. So getting this 
right is going to require all of us to take a little heat and 
work very hard on a path forward. I think we have a lot of work 
to do.
    So I invite you to stay in touch with us. We are going to 
have a hearing in the next month or so on the internet. We are 
going to try to frame the issue carefully and have a balanced 
set of witnesses. I promise you that we will be criticized for 
the people we select, but we are still going to try to get this 
right.
    I just want to close with this. I said it at the beginning, 
and you repeated it, Mr. Elibiary, so I know that you heard me, 
and I hope others did, too. Our goal is not to censure radical 
beliefs. A witness in a prior hearing quoted Barry Goldwater, 
who said that extremism in the pursuit of liberty is no vice. 
Barry Goldwater is right.
    But if those radical beliefs are converted to an intent to 
engage in violent behavior, we are going after that. That is 
fair season. That is not protected by our Constitution. That 
harms America's homeland security. That is our mandate, to 
protect America's homeland from harm.
    So stay tuned. Please think kindly on us, not just on St. 
Patrick's Day but on every day, because we are forging a 
difficult path, but so are you. Thank you very much for coming.
    The hearing stands adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
